<html>
<title> - IMPLEMENTATION OF WILDERNESS ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                    IMPLEMENTATION OF WILDERNESS ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                and the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

 Exploring the implementation of the 1964 Wilderness Act by the Forest 
 Service, the Bureau of Land Management, and the National Park Service

                               __________

                     APRIL 15, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-13

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 41-004 cc                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas

                        Allen Freemyer, Counsel
                    Steve Hodapp, Professional Staff
                    Liz Birnbaum, Democratic Counsel

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ---------- ----------
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 15, 1997......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a U.S. Representative from Idaho......     2
    Grams, Hon. Rod, a U.S. Senator from Minnesota...............     6
    Hansen, Hon. James, a U.S. Representative from Utah..........     1
    Kildee, Hon. Dale, a U.S. Representative from Michigan.......     3
    Skeen, Hon. Joe, a U.S. Representative from New Mexico.......     4
    Vento, Hon. Bruce F., a U.S. Representative from Minnesota...     8

Statements of witnesses:
    Access Fund, a Climbers Advocacy Organization (prepared 
      statement).................................................   204
    Baumunk, Edward T., co-owner, BBJ Mining.....................    56
        Prepared statement.......................................   164
    Brown, David, Executive Director, American Outdoors..........    55
        Prepared statement.......................................   154
    Conti, Richard A., Jr., Waterhole Coordinator, Society for 
      the Conservation of Bighorn Sheep..........................    53
        Prepared statement.......................................   147
    Hillier, Gerald, San Bernardino County.......................    56
    Indehar, Todd, President, Conservationists with Common Sense.    51
        Prepared statement.......................................   133
    Knuffke, Darrell, Western Regional Director, The Wilderness 
      Society....................................................    71
        Prepared statement.......................................   189
    La Tourell, Robert, Jr., President, Ely Outfitters 
      Association (prepared statement)...........................   198
    Nickas, George, policy coordinator, Wilderness Watch.........    70
        Prepared statement.......................................   185
    Nugent, Ted, President and founder, Ted Nugent's United 
      Sportsmen of America, Jackson, MI..........................     9
    Pendley, Perry, Esq..........................................    25
    Stupak-Thrall, Kathy, President, Crooked Lake North Shore 
      Association, Watersmeet, MI................................    17
        Prepared statement.......................................    88
    Unser, Bobby, professional race car driver, Albuquerque, NM..    11
    Wallop, Malcolm (former Senator), Chairman, Frontiers of 
      Freedom Institute, Arlington, VA...........................    15
        Prepared statement.......................................    84

Additional material supplied:
    Excerpts from Forest Service Handbook........................   125
    Experience of Ed Pavek, dated March 28, 1997.................   211
    Final EIS, Land and Resources Management Plan, Ottawa 
      National Forest............................................   102
    Final Environmental Statement, Roadless Area Review and 
      Evaluation.................................................   114
    Guides say Uinta wilds plan targets them.....................   159
    Saddle Peak Mountains Wilderness Study Area..................   169
    The flag war continues.......................................   213
    The luckiest man in the BWCAW................................   212
    Wilderness Accessibility for People with Disabilities 
      (report)...................................................   193
    Wilderness areas that have been ``undesignated''.............   129

Communications received:
    Barnier, Jo (DOAg): Letter of December 18, 1996, to Friends..   202
    Jackson, A.G.: Letter of January 24, 1997, to Richard Martin.   182
    Mackey, Craig W.: Letter of April 12, 1996, to Bob Yearout 
      (NPS)......................................................   160
    Martin, Richard H. (DOI):
        Letter dated January 22, 1997, to A.G. Jackson...........   181
        Letter dated February 11, 1997, to A.G. Jackson..........   183
    Unser, Robert W.: Letter to Members of Congress and Committee    81



               IMPLEMENTATION OF THE 1964 WILDERNESS ACT

                              ----------                              



                        TUESDAY, APRIL 15, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, and Subcommittee on 
            Forest and Forest Health, Committee on 
            Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:06 a.m. in 
room 1324, Longworth House Office Building, Hon. James V. 
Hansen (Chairman of the Subcommittee) presiding.

  STATEMENT OF HON. JAMES HANSEN, A U.S. REPRESENTATIVE FROM 
 UTAH; AND CHAIRMAN, SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC 
                             LANDS

    Mr. Hansen. The committee will come to order.
    The Subcommittee on National Parks and Public Lands and the 
Subcommittee on Forests and Forest Health convene this hearing 
to explore the implementation of the 1964 Wilderness Act, by 
the Forest Service, the Bureau of Land Management and the 
National Park Service. I welcome Chairman Chenoweth and 
appreciate her work on this issue and look forward to the 
testimony today.
    The 1964 Wilderness Act established the National Wilderness 
Preservation System which ``shall be administered for the use 
and enjoyment of the American people,'' section 2(a) of the 
1964 Wilderness Act. In their zeal to protect and conserve our 
national heritage, our Federal national land management 
agencies forget about the fact these lands were set aside for 
the American people. These areas are not museums where we can 
only look and not touch. They are for the ``gathering and 
dissemination of information regarding their use and enjoyment 
as wilderness.''
    The Federal Government currently manages over 104 million 
acres of wilderness in this country. Within these vast areas 
are preserved the greatest and most remote places on this 
Earth. As a veteran on this committee, I am proud to have 
played a role in designating millions of these acres in Utah, 
Montana, Colorado, Arizona, California and many other States. 
The Wilderness Act and its original intentions continue to be 
important tools in protecting our Federal lands, but we must 
remember that people are just as important to this equation.
    We will hear testimony today which should amaze the members 
of this committee. We will hear of people being punished for 
trying to save their own lives, of property rights being 
violated, of Boy Scouts being excluded from wilderness areas, 
of wildlife being al-

lowed to perish and people simply being excluded from the ``use 
and enjoyment'' of our wilderness areas.
    We have a number of witnesses today, and I would like to 
ask we keep our opening statements brief so we might move on to 
the witnesses and have an opportunity to explore the many 
issues before us. I welcome our witnesses and again appreciate 
the work of Chairman Chenoweth on this hearing and look forward 
to the testimony.
    I will now turn to the Chairman of the Subcommittee on 
Forests and Forest Health, the gentlewoman from Idaho.

 STATEMENT OF HON HELEN CHENOWETH, A U.S. REPRESENTATIVE FROM 
 IDAHO; AND CHAIRMAN, SUBCOMMITTEE ON FOREST AND FOREST HEALTH

    Mrs. Chenoweth. Thank you, very much, Mr. Chairman, and I 
am pleased to be conducting this hearing with Chairman Jim 
Hansen. I want to thank him for his hard work on this issue and 
I appreciate having the opportunity to work with him on this 
hearing.
    The Wilderness Act of 1964 is one of our principal 
environmental laws. Quoting from the Act, the purpose of the 
Wilderness Act is ``to secure for the American people of 
present and future generations the benefits of an enduring 
resource of wilderness.''
    Wilderness was created to allow American citizens the 
ability to enjoy nature in its purest sense. It has been 
created to ensure that future generations have the same 
opportunity to enjoy the beauty of the land that we do today. 
However, several incidents have been brought to the committee's 
attention that bring into question whether our land management 
agencies are implementing the Wilderness Act properly.
    Today, we will have the opportunity to hear testimony from 
a number of citizens that have been harassed by our land 
management agencies in wilderness areas. Many of you are 
familiar with the case of the 14-year-old Boy Scout who was 
separated from his troop in the Pecos Wilderness area in New 
Mexico. After a helicopter located the boy, the Forest Service 
refused to permit the helicopter to land to bring him to 
safety.
    And yet, in my State of Idaho, some ranch hands notified 
the rangers on the Boise National Forest that a gray wolf had 
been injured about 4 miles inside the Frank Church River of No 
Return Wilderness. The recovery biologist for the U.S. Fish and 
Wildlife Service determined that a helicopter would be needed 
to transport the wolf to safety. Permission was sought from and 
granted without question by the Forest Service to allow the 
helicopter to land and transport the wolf.
    I do not question the seriousness of the injury of the 
wolf, but I do question the wisdom of an agency that allows for 
a helicopter to enter a wilderness area for a wolf, but refuses 
on the other hand to allow a helicopter to land to bring a 
young man to safety. As we will hear today, the implementation 
of the Wilderness Act by our Federal land management agencies 
is fraught with many similar stories.
    What happened to common sense? What happened to compassion 
in our Federal land management agencies? Has the Wilderness Act 
gone wild? I say that the Act has not, but from the 
documentation that we have received, the Federal agencies' 
implementation warrants much attention and continued oversight. 
It is my intention to introduce legislation that will guarantee 
that our Federal agencies will act--will not have the ability 
to harass American citizens that are simply enjoying the beauty 
of our wilderness areas.
    Wilderness controversies are not confined to the West. I am 
particularly interested in hearing the testimony of Kathy 
Stupak-Thrall of Michigan to learn how the Forest Service 
interprets the legal term ``valid existing rights'' and the 
rights of the State of Michigan to control water within its 
borders.
    I believe that as the public begins to understand the 
inflexible nature of how our Federal agencies implement the 
Wilderness Act, and as the public begins to learn of the horror 
stories, some of which we will hear today, we will be able to 
inject some common sense into the wilderness debate.
    I want to be clear, I support the goals of the Wilderness 
Act. Preserving pristine areas for our children is a laudable 
purpose, but when the Act has been administered in such a way 
that human life and limb are at risk, I have to question 
whether we have gone too far. When property is taken without 
compensation, I have to ask whether that is the intent of the 
1964 Act; and when a large segment of our population is unable 
to access wilderness, I am forced to wonder just why we are 
blocking off these beautiful lands to so many of our citizens.
    I am hopeful that this hearing will help answer some of 
these questions. That being said, I am pleased to be conducting 
these hearings with Chairman Hansen and want to welcome our 
witnesses.
    I look forward to receiving your testimony.
    Mr. Hansen. Thank you. We appreciate the testimony.
    The gentleman from Michigan, Mr. Kildee, is sitting in for 
the gentleman from American Samoa, Mr. Faleomavaego, and we 
will now turn to Mr. Kildee.

  STATEMENT OF HON DALE E. KILDEE, A U.S. REPRESENTATIVE FROM 
                            MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman, and Madam Chair. Thank 
you for holding this hearing today.
    I would first like to welcome all of our witnesses here 
today who are testifying, particularly Mr. Ted Nugent and Ms. 
Kathy Stupak-Thrall, both from my home State of Michigan.
    Mr. Nugent, I would like you to know many members of my 
staff, along with myself, are big fans of yours; and although 
our opinion may differ in how to manage our Nation's wilderness 
areas, we will probably find some areas of agreement, too. I 
appreciate your deep interest in this issue and your presence 
here today.
    I have been a member of the committee for the past 15 
years, and in that time, I have always believed we need to 
manage our public lands in a way that benefits the American 
people. We live in a country where people have diverse 
interests, tastes and beliefs; that is why I have always 
supported the concept of multiple use in the management of our 
Nation's public lands.
    I have supported timber harvesting in our national forests. 
It is important to have the economy and the health of the 
forest in mind, and I have advocated for a wide range of 
recreational activities on the forest, including hunting, 
fishing, snowmobiling, camping and hiking.
    It is my belief the multiple-use philosophy, a law that led 
me to write the Michigan Wilderness Act, a law that set aside 
92,000 acres of pristine forestland in Michigan so they can be 
managed much as they came from the hand of God.
    In fact, this year marks, Mr. Chairman and Madam Chair, the 
tenth anniversary signing of the Michigan Wilderness Act, and 
in 10 years, these areas have become permanently protected, 
nothing has changed. And that is the beauty of the wilderness 
law: Nothing man has done has changed the lands.
    In Michigan, there are 2.7 million acres of national 
forestland in Michigan's three national forests. Of that, only 
92,000 acres are designated as wilderness areas. That means 
only 3 percent of the national forest land in Michigan is 
protected as wilderness area.
    I know not everyone is going to visit a wilderness area, 
but it is nice to know in today's high-paced technological 
society, there will always be areas people can ski, snowshoe, 
or paddle a canoe in an absolutely motorless area. This is all 
possible because in 1964 Congress had the foresight and wisdom 
to understand that some parts of a forest are too precious to 
develop.
    I know your interest in the outdoors, Mr. Nugent, and in 
Michigan, we have a long and very proud history, tradition of 
hunting and fishing. It is a tradition that my family has 
enjoyed for five generations in Michigan. In fact, my two sons, 
who are now lieutenants of the United States Army, are avid 
hunters and fishermen. My own son got hooked. The first 15 
minutes of his first day of deer hunting in Michigan, he bagged 
a buck; and that has hooked him ever since, and he is a regular 
hunter. That is why when we wrote the Michigan Wilderness Act; 
we allowed hunting and fishing in the wilderness areas. We let 
that be regulated by the State ANR.
    Wilderness areas allow for a variety of public uses of the 
land, ecological safety of the area. Many of our Nation's 
wilderness areas are really the crown jewels of our national 
patrimony. I believe we should be thanking our public land 
managers for the outstanding job they have done in protecting 
these lands, and I have been up there visiting the lands, 
visiting the managers, visiting the people up there. I have had 
two or three hearings up there on the wilderness areas. I only 
wish those managers had been invited to testify today so I 
could thank them in person.
    And thank you, Madam Chair, Mr. Chairman. I look forward to 
the hearing today.
    Mr. Hansen. I appreciate the comments of the gentleman from 
Michigan.
    We will proceed in this manner. The gentleman from New 
Mexico, and we will ask Mr. Skeen to join us on the dais, and 
then we will go to our first panel.

STATEMENT OF THE HON. JOE SKEEN, A U.S. REPRESENTATIVE FROM NEW 
                             MEXICO

    Mr. Skeen. Thank you very much, and I want to thank my good 
friends for holding this important hearing on the current 
policies regarding management of our Nation's wilderness area 
areas, but I especially want to thank you for allowing me to 
come here today to pay my respects to an outstanding citizen of 
New Mexico, and that is Bobby Unser.
    Bobby Unser and his family have become a living symbol of 
auto racing in America today. This three-time winner of the 
most famous race in America, the Indianapolis 500, 14-time 
winner of the Pikes Peak Hill Climb and 35-time winner of Indy 
Car races is today one of the premier spokespersons for auto 
racing in America. Millions of Americans know him from his 
career as a race broadcast analyst for ABC, and his background 
has given him the tremendous insight he passes on to viewers 
across America who have never been behind the wheel of a car 
going 200 miles an hour, except on the 14th Street Bridge.
    Bobby has never forgotten his hometown of Albuquerque and, 
we will never forget him or his family; he has been a credit to 
his city, his family; and we are proud the Land of Enchantment 
is his home.
    I only wish this hearing was focusing on honoring Bobby and 
the great sport of auto racing.
    I want to remind people, the first wilderness in America 
was created in New Mexico. The Wilderness Act was a product of 
Senator Clinton Anderson of New Mexico. So suffice it to say, 
we know a little about wilderness in our State, and I will let 
Bobby tell you about his situation today.
    What I want to relay to this committee is my concern that 
government agencies are spinning out of control. The Bobby 
Unser story you will hear today should never have happened. The 
other stories you will hear today should never have happened. 
The selective enforcement and prosecution of our resource laws 
are not what Senator Anderson intended or envisioned.
    I will tell you what upsets me even more is when the cases 
are brought to public attention, then a curious thing happens. 
All of a sudden, mysterious stories start to appear in the news 
media questioning citizens that have been wronged by the 
government.
    I don't understand why responsible people in the Forest 
Service or other agencies let situations like this get out of 
hand. Is that what Reinventing Government is all about? Just 
ask yourself, if this can happen to Bobby Unser, this can also 
happen to anyone out there. We basically are at the mercy of 
local bureaucrats. It is no wonder people have such a low 
opinion of government and its leaders.
    Perhaps we have reached the dumbing down of government, not 
the downsizing of government. I sincerely hope that is not the 
case.
    Mr. Schiff asked me to pass along his regrets for not being 
here today. I am certain he would have had many good thoughts 
to add.
    So thank you, Mr. Chairman and Mrs. Chenoweth.
    Mr. Hansen. Thank you, Mr. Skeen.
    Joe Skeen has been very active in the Western Caucus and 
taking a very big interest in the issues in front of us.
    Would you like to join us?
    Mr. Skeen. I will join you.
    Mr. Hansen. Rod Grams just walked in, Rod from Minnesota. 
We are grateful to have you. He used to be a member of our body 
until he defected and went to the House of Lords. And, Rod, we 
would like to turn to you. We are honored that you would join 
us.

STATEMENT OF THE HON. ROD GRAMS, A U. S. SENATOR FROM MINNESOTA

    Senator Grams. Thank you, Mr. Chairman, Chairman Chenoweth 
and other distinguished members of this panel. I appreciate the 
time to come and talk to you this morning. I commend you for 
holding this very important oversight hearing and appreciate 
the opportunity to speak on wilderness before the panel today.
    Wilderness protection and management is often perceived as 
a Western lands matter, but this issue is important within my 
home State of Minnesota. Nearly every Minnesotan, including 
myself, is proud of our State's pristine wilderness area.
    In both 1964 and 1978, Congress designated portions of 
northeastern Minnesota as one of our nation's only lakeland-
based Federal wilderness areas. First envisioned by Hubert 
Humphrey, whom many regard as the father of the wilderness 
system, this was to be a unique wilderness area, allowing for 
legitimate multiple recreational uses.
    Specifically in 1964, when Senator Humphrey first included 
the Boundary Waters as part of the National Wilderness System, 
he made a promise to the people of northeastern Minnesota, 
saying, quote, ``The wilderness bill will not ban motorboats.'' 
It is safe to say, without that commitment, this region would 
not be a wilderness area today.
    In 1978, additional legislation was passed, making further 
enhancements such as a ban on logging and mining. The 1978 law 
also limited recreational uses. For instance, motorboat users 
could only enjoy 18 of the area's 1,078 lakes. Today, we 
recognize this one million acres as the Boundary Waters Canoe 
Area Wilderness.
    Like many laws passed by Congress, the 1978 legislation was 
well intended and had unforeseen consequences. Indeed, many 
segments within the law were justified, but other provisions 
imposed significant economic and social costs in neighboring 
northeastern Minnesota.
    The debate over the 1978 law has become a symbol of the 
difference between what the role of government should be and 
what it has become with many in northeastern Minnesota pointing 
to the ongoing struggle to restore the rights of citizens to 
have reasonable input and access into the cherished Boundary 
Waters.
    Since 1978, the people have been subjected to ever-
increasing forest regulation in the Boundary Waters. Many in 
the area have seen their customs, cultures and traditions 
uprooted by Federal regulations which have shut them out of the 
land they have responsibly cared for in the past and now 
continue to call home.
    Definition changes and bans are just some of the 
administrative changes that have twisted the original intent of 
the Boundary Waters legislation. Many point to what they 
believe are unfair permit reductions, which effectively keep 
them out of the few motorized lakes in the Boundary Waters. 
Even the Forest Service admits the permit system needs some 
simplification. But even if the permit system was reformed, it 
would not make a difference for those who are less physically 
fortunate.
    Perhaps the most egregious example of how the 1978 law has 
been turned on its head is the court-mandated closure of three 
motorized portages which allowed the disabled, the elderly and 
those with young families to enter into the wilderness area. 
Under the legalistic trickery, radical environmentalists 
deceived the Congress and the people of northern Minnesota into 
believing these portages which connect motorized lakes would 
stay open. Unfortunately, that was not the case after 1993, 
when the Federal Court of Appeals ruled in favor of shutting 
out those less fortunate.
    Now the Forest Service justifies the Court's action, saying 
accessibility is not being denied, but you can't tell that to 
those who can no longer access our public lands. For example, 
John Novak, a veteran from Ely, Minnesota, wrote me about his 
frustration with the closing of the portage, saying, I quote, 
``I was good enough to go into the armed services for our 
country for 3 years back in the 1940's, but now that I am 
disabled, I am not good enough to get into the Boundary 
Waters.''
    Another letter from a man named Joe Madden in Virginia, 
Minnesota, stated, ``I went to visit the Boundary Waters with 
my grandfather. We wanted to go fishing in Trout Lake, but we 
couldn't get there because we could not get my grandfather's 
boat over the portage. Please open it up so Grandfather and I 
can go fishing.'' A simple request.
    The culmination of all these restrictions has had a 
dramatic impact on the nearby community of Ely, Minnesota. 
During one of the Congressional hearings on this issue, the 
mayor of Ely spoke on how class enrollments are down 50 percent 
since 1978. Minnesota State Senator, Doug Johnson, who 
represents this area, stated how massive amounts of State money 
have helped prop up the Ely community.
    So, my distinguished colleagues, there can be heavy costs 
to wilderness, especially to those who live nearby, and that 
shouldn't be the case. And for this reason, Congressman 
Oberstar, the dean of the Minnesota delegation, and I have 
introduced legislation in the last Congress to help restore the 
commitments made in 1964 and in 1978 and to give nearby 
communities a reasonable and legitimate voice in the Federal 
management process.
    While our bill was effectively killed in the waning days of 
the last Congress, I look forward to working once again on 
behalf of legislation that will be aimed at restoring past 
recreational commitments.
    I and many others have waited patiently while the mediation 
team struggled to find a solution to the Minnesota wilderness 
question, and while this effort failed to resolve the major 
items of disagreement, the time to act will be soon in order to 
give the same thing every American wants from our government--
that is, accountability to the people.
    Accountability means balancing the protection of our 
pristine wilderness, but balancing with the rights of people to 
legitimately enjoy natural resources, restoring the promises 
made in the past, and forming a partnership with the people to 
ensure those promises will be honored in the future. And it 
also means keeping the Federal Government in check to guarantee 
it works for the best interests of the people and not just for 
a select few. And above all, it means keeping our public lands 
truly available to the public.
    We who love the Boundary Waters canoe area are working 
toward those goals. I strongly believe those goals are worthy 
of every Federal wilderness area, and I would urge this panel 
to keep them in mind as it pursues its oversight 
responsibilities and its legislative actions.
    That concludes my testimony, so please save any of the hard 
questions for those with me here today, who will be testifying 
later on the issue. And again I want to commend you for your 
leadership and your past help on this issue, and I look forward 
to working with you once again in the future on this very 
important legislation.
    Mr. Hansen. We appreciate your spending time with us.
    We will turn to our first panel.
    Mr. Vento. Mr. Chairman, is the Senator not subject to 
questioning?
    Mr. Hansen. The Ranking Member and I agreed prior to this 
we would just have opening remarks from the three of us and 
those folks.
    Mr. Vento. If I could have unanimous consent to speak for 2 
minutes out of order.
    Mr. Hansen. Is there objection?
    We are really in a hurry, and I have to get to an Ethics 
meeting, so I would appreciate it if everyone would hold their 
questions for now. I will give the gentleman 2 minutes.

 STATEMENT OF HON. BRUCE F. VENTO, A U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Mr. Vento. I just wanted to acknowledge, I wasn't aware 
that my colleague from Minnesota was going to be here to 
testify this morning. I wanted to welcome him. I was surprised 
to see him when I walked in. I would have been here in time to 
hear your entire statement, Senator, had I known.
    But I would just like to point out, this hearing is one I 
have an intense interest in and helped write the 1978 law; and 
indeed, as the Senator knows, while there may only be 18 lakes, 
it is over 20 percent of the water surface. In fact, 25 percent 
that is open to motorized use, and while certainly the 
character of those that are able to use the portages has 
changed in terms of size of the boats, maybe, that can move 
across it, all the permits for moving boats are going, so there 
are boats going across that portage.
    And I would further point out, the 1978 law has been 
successful in terms of the fact visitor days have increased 
from something like 1 million visitor days a year in the 
Boundary Waters to something like 1.6 million. It is the most 
extensively used wilderness in the eastern United States and 
obviously brings up all types of issues in terms of motorized 
use and how we manage the wilderness. In fact, most 
wildernesses do not have a permit system; we put that in place 
because we understood this important resource could be damaged.
    I hope meditation works. I hope I can work with the Senator 
on trying to resolve some of the outstanding differences, but I 
can as-

sure him we appreciate and respect his points of view, although 
I think there are different points of view within our State, 
which obviously are strongly allied against some of the 
proposed changes that were made.
    So hopefully we can resolve it. I think mediation has 
helped. It hasn't resolved it, but it has helped; and I thank 
the Senator for his presence and the Chairman for the 
opportunity to speak for 2 minutes.
    Mr. Hansen. Thank you. We appreciate the gentleman's 
comment, and we move on to the purpose of this hearing.
    We have Bobby Unser with us, a professional race car driver 
from New Mexico; Ted Nugent, founder of Ted Nugent United 
Sportsmen of America, from Michigan; and we are honored to have 
former Senator Malcolm Wallop, Chairman of the Frontiers of 
Freedom Institute from Arlington, Virginia; and Kathy Stupak-
Thrall, from Crooked Lake North Shore Association. We are 
grateful to all of you for being here.
    And we also have Perry Pendley with us, and so we will--I 
guess, if it is all right, we will start with you, Mr. Nugent, 
and we will go right across. It is going to be a full hearing 
today, so we don't want to be tough on time, but if most of you 
could keep it close to 5 minutes, I would appreciate it. And if 
you go over a little bit, I understand.
    This is the first panel. We are grateful to have you here. 
We know of your many accomplishments, and we appreciate you 
taking the time to come and spend some time with us.
    So we are going to put that light on, and it will go green, 
yellow, and red and when it gets red, if you can wrap up, we 
would like you to wrap up. I don't know how that works with 
race car drivers, but I think the green light means go, and if 
we put a checkered light up, you will know you won.
    So Mr. Nugent, we will start with you.

 STATEMENT OF TED NUGENT, PRESIDENT AND FOUNDER, TED NUGENT'S 
         UNITED SPORTSMEN OF AMERICA, JACKSON, MICHIGAN

    Mr. Nugent. Thank you very much, Chairmen Hansen and 
Chenoweth and my good neighbor, Mr. Kildee, in Michigan. It a 
pleasure to make a statement before you to examine the 
implementation of the 1964 Wilderness Act on Forest Service and 
Bureau of Land Management lands.
    I come before you today as a father first, an American 
citizen, a proud hunter and the founder of Ted Nugent, United 
Sportsmen of America, with over 30,000 members since 1989. I am 
also on the National Rifle Association's Board of Directors, 
and I am the invited guest and a member of Native American Fish 
and Wildlife Service and guest of the Lakota Indians and the 
Assiniboine and Gravan Indian nations as a DARE officer 
teaching children that got high on my adventure beyond the 
pavement instead of the poisons that oftentimes represent an 
alternative to them.
    Although it is certainly a pleasure to be here today, far 
more importantly, I consider it my duty to represent the hearts 
and souls of working-hard, playing-hard families across 
America, who I am privileged to connect with, over the 30 years 
of touring and meet-

ing face to face at personal campfires and round table think 
tanks about our great culture of connecting with mother Earth, 
via our proud culture of responsible resource stewardship in 
our hunting, fishing, trapping, multiuse great outdoors life-
style and heritage that is alive and well and growing in many 
areas of America today.
    It is these mothers and fathers and sons and daughters who 
respond to a glowing duty deep in our hearts, via hands-on 
participation, shoulder to shoulder with Mother Nature as an 
inextricable team player. It is the pulse of the truly 
environmentally aware community of this Nation that nature 
without man is unnatural, and the Wilderness Act is supposed to 
be an outline for truthful cause-and-effect accountability, 
safeguarding the precious wildlands from abuse, disregard in 
vandalism and the worst curse of mankind, disassociation.
    It is a growing concern that ignorance, based on willful 
citified assumptions will extract caring people from the very 
reasoning and monitoring function that wild access facilitates. 
It is no more abusive or unnatural for a family to walk a 
designated trail in pure wilderness settings in modern, state-
of-the-art hunting boots than for migrating elk to cut trails 
in their instinctual activities. It is no more offensive for a 
bull elk to trash young trees and wallow violently, disrupting 
flora and fauna during his annual rutting actions than for a 
family to construct a small camp using aluminum and Gortex 
supplies.
    These wilderness relationships are powerful and essential 
for families throughout the land, who I am again privileged to 
have a dialog with on a daily basis throughout my career, who 
know that the spirit, body and soul are renewed with every 
physics of spirituality and adventure beyond the pavement. The 
pulse I get in my hundreds of meetings every year--I did over 
100 concerts last year and 179 concerts in 1995--and each night 
includes a meeting with my membership and other conversation 
groups across the Nation. Members of Ted Nugent, United 
Sportsmen of America, and as well as thousands upon thousands 
of voices via my radio, television, phone, fax, e-mail 
correspondence, as I did this morning from Washington, D.C., 
from the Heritage Foundation, taking phone calls across 
Michigan, that reflect hurt that a Federal Government would 
deny these rights, angered that our heritage erodes 
accordingly, and fear that the land of the free and the home of 
the brave may not be.
    As Kenya reawakens in Africa to the essential monitoring 
process of human utility of their resources, they are now 
reimplementing hunting practices, because they saw that 
disassociating the people from those elephants and rhinos and 
antelope caused the demise of those very populations they 
abandoned, via nonmanagement.
    I urge all who care about the long overdue upgrade of 
environmental awareness tear-down and assist in tearing down 
the walls to wilderness in North America, welcoming We the 
People, encouraging young people to invest in the future of 
outdoor relationships, a sound and harmonious relationship with 
Mother Nature and our precious shared habitat with all living 
things for reasonable, beneficial utility. Even our beloved 
national parks management must wake up to the original Native 
Americans' Great Spirit and once again guide the majestic elk, 
deer, bison, cougar, antelope, bear, moose, sheep and goats 
back into the asset column through regulated practical harvest, 
filling the near empty coffers with the central management 
revenues. The majestic American buffalo does not deserve to be 
a liability in this great land.
    In conclusion, the Federal Government works for We the 
People, and we are not happy. My time in the American 
wilderness literally saved my life from the evils and death of 
drug control abuse in my rock and roll career because I refused 
throughout my life to get high on poison, because the spirit of 
the wild taught me to wallow like my brother, the elk, in the 
sensual stimuli and spirituality, as a blood brother to all 
things wild. After all, they named wildlife after my career, 
and little is it known that cat scratch fever has inspired many 
people to respect the American cougar.
    I beg you to assist those of us who do care not to shut the 
door on a generation of adventurers who seek this access, and 
that it is our wilderness. We will manage it with care and 
affection, and we want in.
    I appreciate very much the opportunity to present this 
pulse, not necessarily alone from the Nugent family, but from 
families across this land who somehow have shared their 
concerns with me in their frustration, not believing that they 
would be represented otherwise, and I thank you on behalf of 
all those people.
    Mr. Hansen. Thank you.
    What we will do is, we will hear from the witnesses and we 
will open it up for questions from the members. Is that all 
right with everyone?
    Mr. Unser, we will turn to you now, sir.

    STATEMENT OF BOBBY UNSER, PROFESSIONAL RACE CAR DRIVER, 
                    ALBUQUERQUE, NEW MEXICO

    Mr. Unser. Well, I don't have anything written, but I thank 
everybody for letting me come. I think it is very nice and it 
is nice that the people of the United States will see that our 
elected officials do care about what is happening out in the 
country.
    My story starts with a nice day of snowmobiling. A friend 
of mine--I have a ranch in northern New Mexico, a little town 
called Chama. A friend of mine took off, snowmobiling, and we 
drove into Colorado in the high country for a snowmobile ride, 
and it was the first time he had ever been in those mountains, 
which I had been in many times.
    So we went up there, I unload the snowmobiles, a totally 
legal place to be in the national forest, and teach him how to 
ride; and we go up into some higher country and start climbing 
hills.
    Am I too loud? OK. Sometimes I don't hear too well, so I 
sometimes get too loud. But at any rate, started snowmobiling 
up there and when we got up on top of these high hills we were 
climbing, the wind came up, and we found ourselves in a ground 
blizzard. We are really like up on top of the world.
    Later on, if I have time, I will have a map and I can show 
somebody what it looks like up there.
    But a ground blizzard comes up, not snow out of the sky, 
but wind, 60 or 70 miles an hour, causing the new snow to blow. 
A common thing in Cheyenne, Wyoming, people who come from that 
part of the country know, you instantly go to a whiteout; so 
ultimately, we were trying to find our way out of that.
    Robert, the guy that was with me, got his snowmobile stuck. 
He had to stay very close to me because if he loses me or I 
lose him, he is just going to die, it is just that simple. He 
doesn't know anything about this part of the country or this 
part of life.
    So after he got his docked, it kind of went off in the 
embankment and he couldn't get it out; and I said, ``The heck 
with it, I will get it another day,'' got him behind my 
machine, which--mine was ironically a brand-new sled, the brand 
spanking new trip on it.
    As started happening, mine started giving problems in 
running. I am trying to go along and find the edge of the 
mountain, so I can look off and see a valley and discover where 
I am and, if necessary, possibly get down off of this plateau 
where the snow is blowing so hard. There is not anything I can 
do about it except that. Then my machine starts quitting.
    Well, we worked on the things from roughly like about 2 
o'clock in the afternoon. We started unloading snowmobiles 
about noon, and we got up there about 1:00; we started working 
on the machine about 2 o'clock, and this went on, I am 
shortening this up a whole bunch for everybody--but this goes 
on until it becomes dark.
    Now I am lost worse because of the way the machine--I get 
it running for a little bit; it would run half a city block, 
maybe a block, and it would quit again, and each time it got to 
where it was harder to get started. We had taken the machine 
pretty much apart, as I had quite a few tools with me, and both 
of us are good mechanics, Robert as good as I am--holding the 
hood up, trying to work in 60- or 70-mile-an-hour wind is not 
too easy to do.
    Ultimately, it will not run anymore, darkness comes and 
literally, we are in trouble, no question about it. So I just 
take whatever we have on the snowmobile off in the form of 
emergency rations, which is a little fold-out saw and a 
compass. A compass doesn't do much good unless you kind of know 
where you start from, incidentally.
    But we start walking, and the main thing is, I have to go 
down and I have to get out of this wind. So we start down as 
much as we can. Wherever it goes down, it makes no difference, 
but the direction has to be down to get out of this wind 
because we can't live up there. For sure we would die if we 
stayed in the high country in the wind in the blowing snow.
    So I go down, and of course, it is darkness immediately; it 
gets dark at 5 o'clock in the afternoon this time of year, 
which is December, December the 20th, to be exact, and so the 
only thing we can do in order to survive that night is a snow 
cave. Robert had lost one of--his left glove, so we only had my 
two gloves and his right glove, so you can guess who had to dig 
the snow cave, so I dug on the snow cave, Robert started 
cutting branches off the trees, both for fire wood, in case the 
wind goes down, 60- to 70-mile-an-hour wind. And that is in--at 
excess of 1,100 feet, you can't build a fire too easily, lack 
of oxygen, and wind, and the snowmobile had little gasoline, so 
we had nothing to start a fire with.
    So we build a cave. The cave works, Robert cut a lot of 
branches, to lay both on the ground for him to sleep on. His 
uniform wasn't as good as mine. I had real good clothing on; he 
had new clothing, but not as good as mine. I had new boots and 
everything going.
    So, ultimately, we spent the night in the snow cave, didn't 
freeze to death, which, for sure, wasn't very comfortable, 
didn't get any sleep and no gripes about that, but we got up at 
daylight the next morning. I look at our tracks coming down. 
They were basically covered up, but you could see them down in 
the trees, so we started walking out.
    I notice the light came on. I am sorry.
    Mr. Hansen. I will turn the light off. Go ahead.
    Mr. Unser. I will talk as fast as I can.
    So at any rate, we make a determination and a decision to 
walk out of where we were; and I could see the valley, I knew 
generally where we were going. Eighteen hours of walking, we 
did in deep snow with no provisions. I was sick, not knowing 
that I was sick, had a virus, I vomited 20 to 30 times 
approximately, to the point of where I was vomiting blood.
    Robert had prepared to die; he didn't think he was going to 
make it. He wouldn't eat the candy I had because he was sure 
that was what made me sick. Ultimately, I made him eat the 
candy and drink the water and also made him break some of the 
trail because the deep snow was rough to walk in without 
snowshoes.
    Eighteen hours later, we found a barn, called for help. The 
help came up, and we went down and back to Chama and made it 
all right that way. And then, of course, I was happy we lived, 
and everybody else seemed to be.
    And what was it--it was like I lost an awful lot of 
weight--it was 16 days, I believe it was, later, I go to the 
national Forest Service to say, just in case, that we were in 
the wilderness, don't think we weren't, don't know that we 
were. But I knew I needed to find my snowmobile, to get it out 
of the mountains. I paid over $7,000 for it, and it is brand-
new. And so I went down there with the idea of getting the 
snowmobile out, getting the letter of permission, in case I had 
to go into the wilderness.
    Instead, they met me with two officers from Colorado, and 
after spending all day with them, or all afternoon with them, 
from approximately 12 or 1 o'clock in the afternoon until 
approximately 5:30, they, instead of helping me or giving me 
permission to go look for my snowmobile, presented me with a 
citation, a ticket.
    Now you must understand, I don't know that I was in the 
wilderness, don't think I was; they don't know my snowmobile 
was in the wilderness, they haven't even seen me ride a 
snowmobile. They don't know I have done anything wrong; I 
certainly don't think I have.
    I backtracked with their help. I described where I had 
been. They had pictures. They determined from my description of 
me backtracking with them, under the pretense they are helping 
me. As soon as we finished with this, the lady police officer 
reaches down under the table in her briefcase, pulls out a 
ticket, handing it, says--this is it with a big smile--and 
said, if I hadn't been Bobby Unser, a celebrity, this would 
have just passed over and then told me it was caused directly 
from--this is, honest to goodness, what happened--told me it 
was caused by the Sierra Club in Washington getting hold of the 
Forest Service. And they were or-

dered that if they thought my snowmobile was in the wilderness, 
to give me a ticket.
    Now, it isn't the American way to give somebody a citation 
or ticket for somebody they hadn't seen. In other words, nobody 
saw me ride a snowmobile, just me and Robert are the only two 
human beings that saw this happen, and I certainly didn't start 
out on the wilderness, as I will show you on the map later. I 
started off in a totally legal place where thousands and 
thousands of people--I have been snowmobiling up there. I would 
go snowmobiling without fear.
    Another thing that is real important, real quick. There are 
no marks on where the wilderness starts; even the people giving 
me the citation, the police officers, didn't know where the 
wilderness starts. We get maps, they can't tell you, they can't 
describe it. They assumed I knew and that I was in the 
wilderness knowingly, and I was not; and if I was, I have been 
doing it for years and so has everybody else up there, which is 
not true.
    After we got the maps, we found out where the wilderness 
area is--roughly, you can't do it--of which Mr. Pendley has 
pictures. I did videos, I did everything later on, of the area. 
There are no signs; there are no marks.
    Now, in a ranch in Colorado, if you want to post your 
ranch, the State law says you have to post it every 150 feet. 
The wilderness is underposted; there are no markings. And yet 
if I go onto your posted ranch, I have to be prosecuted via the 
owner of the ranch. In this particular case, the government is 
prosecuting me, obviously, for something they don't even know 
that I did. They don't know--the newspapers and television--
that I was even in the mountains. They certainly don't know I 
was on their pristine wilderness that they must think is theirs 
and not for my use.
    Thank you, sir.
    [The letter of Mr. Unser may be found at end of hearing.]
    Mr. Hansen. Thank you.
    I get to exercise a prerogative of the Chair. I chair 
another meeting, it is called the Ethics Committee, so I am 
holding about 20 members, and I want to ask one question.
    Did I hear you correctly that you got the ticket and the 
person presenting the ticket to you stated that they had 
received information from the Sierra Club, and that because you 
are a celebrity, that the Sierra Club demanded that you get a 
ticket? Did I hear that correctly?
    Mr. Unser. Absolutely, 100 percent. I could take a lie 
detector test and I will offer it. I could take sodium 
pentothal and would also offer that, that it, in fact, happened 
as I am saying--I am not here to tell lies--physically said 
that in front of me in the room, and said the Sierra Club 
called Washington. Washington told them that if they determined 
that I was in the wilderness, write me a ticket. Now, 
understand, they did not even see me ride a snowmobile.
    Mr. Hansen. Thank you. Unbelievable. Thank you for your 
interesting testimony.
    Kathy Stupak-Thrall. We will turn to you for 5 minutes. 
Pull the mike a little closer, please.
    Ms. Stupak-Thrall. I will pull the mike a little closer.
    I would like to defer to Senator Malcolm Wallop, who has a 
prepared statement, I believe, to this incident; and then I 
will take the 5 minutes, if you don't mind.
    Mr. Hansen. That is fine, if you would like to go in that 
order.
    We are honored to have our distinguished colleague from the 
Senate, who is now a civilian, with us again.

STATEMENT OF FORMER SENATOR MALCOLM WALLOP, CHAIRMAN, FRONTIERS 
           OF FREEDOM INSTITUTE, ARLINGTON, VIRGINIA

    Senator Wallop. Thank you, Mr. Chairman, and Chairman 
Chenoweth. My name is Malcolm Wallop, retired Senator from 
Wyoming, and now Chairman of Frontiers of Freedom Institute, an 
organization dedicated to defending constitutional liberty. I 
might add, because of the new rules of the House, that we not 
accept Federal grants, I am here today to introduce Mrs. Kathy 
Stupak-Thrall to the committee and to supplement and reinforce 
her testimony.
    My qualifications are, as a rancher at the foot of the Big 
Horn National Forest, I have had a lifetime of personal 
experience with the Forest Service, and as a Member of the 
Senate, I served on the Energy and Natural Resources Committee 
for 16 years, where I could view the whole range of Forest 
Service and other agencies' conduct and behavior. I was in the 
Senate when the Michigan Wilderness Act of 1987 was considered 
and enacted.
    A number of problems in managing wilderness areas have 
arisen since passage of the Wilderness Act of 1964. In my view, 
the false doctrine of nonmanagement, which amounts to little 
more than neglect, will ultimately produce in many designated 
wilderness areas a great deal of environmental degradation. But 
other sorts of problems, involving people and their rights and 
interests have arisen, as well, and it is to speak about one of 
these I am here today.
    Members of the committee have no doubt heard, as I heard in 
my years on the Energy Committee, many stories of outrageous 
treatment of landowners and Federal land users by the land 
managing agencies. The case of Kathy Stupak-Thrall, the 
Gajewskis and 1,100 private property owners on the shores of 
Crooked Lake in Michigan's Upper Peninsula is perhaps not the 
most outrageous, but it brings into sharp relief several of the 
worst aspects of the Federal agencies' attitudes and approaches 
to wilderness management.
    Let me begin with the Wilderness Act itself. The Congress 
made it clear in the 1964 act, from the first paragraph on, 
that only federally owned lands will be designated as 
wilderness areas; further prohibitions against roads and 
commercial enterprises are qualified by the clause, quote, 
``subject to existing private rights.''
    The Forest Service itself elaborated on these points in its 
January of 1979 final environmental statement, quote, ``first, 
non-Federal lands included within boundaries of an area 
classified as wilderness are not themselves classified.'' And, 
secondly, quote, ``Wilderness designation in itself imposes no 
restrictions on use of the private land within or adjacent to 
wilderness.'' Mr. Chairman, that is the Act.
    These principles were applied in the final management plan 
adopted by the Ottawa National Forest just before enactment of 
the Michigan Wilderness Act. The alternative that was 
eventually adopted stated, quote, ``The management areas 
identified on this map and the management direction defined in 
the forest plan apply to national forest lands only. They do 
not apply to any lands in State, county, private, or other 
ownership.''
    The 1986 final environmental impact statement responded to 
comments about how management of the Sylvania recreation area 
as a primitive area would affect motor boat and other usage on 
several lakes, including Crooked Lake, by dismissing all such 
concerns. It said, quote, ``Motor boat usage on Crooked, Big 
Bateau and Devil's Head Lakes would continue unless Congress 
specifically prohibits such use in the legislation, designating 
Sylvania as wilderness. The Forest Service cannot regulate use 
of motors on lakes; it can only regulate transportation of 
motors over national systems land. If there is private land on 
the lake shore, motor boats can continue to access the lakes 
through the land,'' closed quote.
    Now this statement, Mr. Chairman, simply recognizes 
Michigan State law, which holds that all riparian owners along 
a body of water have rights in common to use that body of 
water. Thus, in the case of Crooked Lake, most of the shoreline 
is part of the Ottawa National Forest, but thirteen private 
landowners also own parcels along the lake and that means 
Crooked Lake itself is not part of the Ottawa National Forest. 
Instead, Ottawa National Forest is one of several riparian 
owners that possesses rights in common to use the lake.
    When Congress considered the Michigan Wilderness Act, I 
recalled that this situation was a matter of concern, and the 
bill, as enacted, specifically addressed it. Section 5, titled 
Administration of Wilderness Areas begins with the 
qualification, quote, ``subject to valid existing rights.'' 
Section 7 states, quote, ``Congress does not intend that 
designation of wilderness areas in the State of Michigan lead 
to the creation of protective perimeters or buffer zones around 
each wilderness area. The fact that nonwilderness activities or 
uses can be seen or heard from areas within the wilderness 
shall not, of itself, preclude such activities or uses up to 
the boundaries of the wilderness.''
    To my mind these additional protections were useful but 
should not have been necessary. The language of the Wilderness 
Act itself and Michigan State law should have been sufficient 
to demarcate the limits of Forest Service authority. But 
beginning in 1990, officials of the Ottawa Forest started to 
restrict customary use on Crooked Lake by the landowners on the 
grounds that they were inconsistent with wilderness status. I 
first learned of their attempts to outlaw motor fishing boats 
and sailboats that had been traditionally used on Crooked Lake 
when Mrs. Stupak-Thrall and Mrs. Gajewski visited Energy and 
Natural Resources staff in 1991.
    I will conclude, but there is one thing that I am saying, 
that there is an outlandish deference being paid by the Federal 
judiciary to Federal agency regulations, and it is an enormous 
problem which only Congress can confront at some point.
    I am here today to suggest a more modest task. In this 
case, the Forest Service has prohibited customary uses on 
Crooked Lake by other riparian owners against the explicit 
intent of Congress. Con-

gress should spell out its intent one more time, but most 
importantly, the Congress should get the Ottawa National Forest 
employees to explain to it why they refuse to follow Michigan 
law, Congress's explicit intent and the intent and language of 
the Wilderness Act itself clearly written. Until the people who 
are Forest Service employees are held accountable, the reckless 
disregard of rights of the American public will continue. Thank 
you.
    Mr. Hansen. Thank you.
    [The statement of Senator Wallop may be found at end of 
hearing.]
    Mr. Hansen. I am saddened. I have looked forward to this 
hearing for quite a while, but leadership has an Ethics Task 
Force going on, and they are going to start voting in 5 
minutes, and they are waiting for me. I am going to turn the 
gavel over to the gentlewoman from Idaho, and I hope I can get 
back. This has been a fascinating hearing, and I am looking 
forward to hearing from other witnesses.
    With that, Chairman Chenoweth, you take the gavel, and I 
want to thank all the witnesses who have been here, and those 
who will testify today. It has been a fascinating hearing for 
many of us working on legislation at this time.
    Mrs. Chenoweth. [Presiding.] Thank you, Chairman Hansen. We 
will certainly miss you, but I know the heavy responsibilities 
that you have chairing that Ethics Committee. So with regret, 
we let you go today.
    Senator Wallop, do you, in your long and distinguished 
career in the Senate, do you remember any time when either the 
House or the Senate gave over to the Sierra Club the right to 
drive public policy on the Forest Service lands?
    Senator Wallop. No, Madam Chairman. I clearly do not. I 
find it outrageous. I find it outrageous that they have that 
kind of reach and that the Forest Service itself responds to 
those kinds of demands or any agency of government responds to 
those kinds of demands, whether they come from the Sierra Club 
or the Mountain States Legal Foundation. The business of 
government is to follow the law and not prescriptions of 
private and special interests.
    Mrs. Chenoweth. Thank you, Senator.
    At this time, the Chair recognizes Kathy Stupak-Thrall, 
president of the Crooked Lake North Shore Association in 
Watersmeet, Michigan. Mrs. Thrall.

STATEMENT OF KATHY STUPAK-THRALL, PRESIDENT, CROOKED LAKE NORTH 
            SHORE ASSOCIATION, WATERSMEET, MICHIGAN

    Mrs. Stupak-Thrall. Thank you. I most appreciate the 
ability to be here today and testify before you and your 
committee members.
    I am Kathy Stupak-Thrall. I am the third generation to live 
at my home on Crooked Lake. I am the president of the North 
Shore Association. We are dedicated to the personal freedom of 
private property ownership. I have come before this committee 
to explain the arrogant and outrageous behavior I have 
experienced these past 7-1/2 years from the Forest Service. I 
will explain how the Forest Service works beyond that which 
Congress directs; how they designate private property 
``wilderness'' through regulation, not designation.
    Did you put on display that picture?
    I have on display here a picture of my Crooked Lake 
homesite. You will also find a smaller picture in your file. 
This is an example of what most of us recognize as the American 
dream, the pride of private property ownership, a homesite 
tucked away in the woods on the lake's edge. This is my home. 
It has been in my family for over 55 years. I am the third 
generation to fly the American flag on the dock's edge of 
Crooked Lake.
    The outrageous factor here is that this flag-flying 
homesite is called visually offensive by those who visit the 
neighboring Sylvania Wilderness. My small neighborhood and our 
private properties on the north shore of Crooked Lake are 
adjacent to and intermingled with federally-owned Sylvania 
Wilderness.
    This action of management by the Forest Service that 
empowers wilderness management onto private property violated 
the direct intent of Congress. It violates and usurps Michigan 
State law and ignores the direction of the Ottawa National 
Forest Plan, as Senator Wallop has described earlier. All of 
these things were written to protect State and private property 
rights from wilderness management.
    Now, in designating Sylvania Wilderness, Congress relied on 
the statements of the Forest Service to be truthful, and yet 
all the Forest Service responses in regard to wilderness 
designation within that forest plan were later called a mistake 
by the forest supervisor. It all became very clear in 1990 that 
the statements of the forest plan seemed to be a bait and 
switch tactic because the forest supervisor called all those 
statements of the forest plan that protected the individual and 
private property rights and State rights--he then called them a 
mistake and were not to be used in this management planning 
process.
    So, I contend that only one of two things happened here, 
that either those who prepared the 1986 forest plan lied to 
Members of the Congress and the public in order to gain support 
for wilderness designation, or the forest supervisor then lied 
to us in 1990 as to the accuracy of the forest plan.
    Now, in 1990, when the Forest Service began the planning 
process, one of the first items to be placed on the scoping 
board that would be addressed from management was the surface 
regulation of motorboats on Crooked Lake. It was made very 
clear by the Forest Service and the Sierra Club members who 
were present at that time that our homesite was visually 
offensive, and although they may have to tolerate our homes, 
although they did prefer condemnation, they were not going to 
tolerate our continued motorboat usage of Crooked Lake. They 
explained that these activities did not fit their value system. 
And these statements by the Sierra Club were fortified and 
strengthened by the forest supervisor, who then did call all 
these statements of the forest plan a mistake.
    And their office, the Forest Service Office of General 
Counsel, also protected the Forest Service by upholding those 
statements of the forest supervisor by explaining that even if 
valid existing rights language that is in the Michigan 
Wilderness Act applies to riparian rights, they could still 
regulate us.
    And so we understood that this began the plan of the Forest 
Service to regulate non-Federal private property with 
wilderness management. To press into public service private 
property for the sake of wilderness values above that which 
Congress allowed, this is beyond the scope of the authority of 
the Forest Service.
    Now, this was also then further upheld and enforced by the 
attorney for the Forest Service in the courts of law. When he 
explained to a panel of judges, 14 judges, that when Congress 
wrote the bill or the Michigan Wilderness Act, used the 
language ``valid existing rights,'' that those Members of 
Congress did not understand what ``valid existing rights'' 
meant. I can't believe that. I don't believe that Members of 
Congress do not understand what they do. They understand what 
they write. I believe that you say what you mean and mean what 
you say.
    Now, I would tell you that this action by the Forest 
Service is a major Federal action which must be answered to, 
because when an agency delegates to itself the powers of 
Congress and then uses those powers of Congress against the 
people by taking on the power of the property clause and using 
that against the people, against the direct intent of Congress, 
that then must be answered for. They must be held accountable.
    I find myself as a private citizen against a great pyramid 
of power, and I just find it outrageous that the Forest Service 
is not held responsible for their actions.
    The truth is the Forest Service has layers and layers of 
staff and attorneys that protect their rights, to explain 
themselves and justify their action, when I am just Kathy 
Stupak-Thrall, just an American citizen standing against the 
pyramid of power from Michigan to Milwaukee to Washington, D.C.
    I ask you, members of this committee, to have the same 
courage that it takes for an individual citizen to stand 
against this huge bureaucracy, that took me 7-1/2 years to get 
here today. I ask you to have the courage to confront this 
bureaucratic agency, the Forest Service. Make them answer 
individually and as an agency to their actions.
    Thank you for hearing me today.
    Mrs. Chenoweth. Thank you, Kathy Stupak-Thrall.
    [The statement of Ms. Stupak-Thrall may be found at end of 
hearing.]
    Mrs. Chenoweth. I want to remind the committee that we will 
be limiting your questions individually to 5 minutes. I will 
open with some questions, and then I will recognize Mr. Kildee, 
our Ranking Minority Member.
    I want to first ask Kathy.
    Mrs. Stupak-Thrall. Yes?
    Mrs. Chenoweth. And I noticed that Perry Pendley is here. 
And, Perry, welcome to the panel. I noticed in a publication 
entitled ``The Litigator'' that your case ran through the Sixth 
Circuit Court of Appeals.
    Mrs. Stupak-Thrall. Yes, it did.
    Mrs. Chenoweth. And that right before this was appealed to 
the Supreme Court, that Governor Engler from Michigan entered 
your case.
    Mrs. Stupak-Thrall. Yes, he did.
    Mrs. Chenoweth. Entered an amicus, and the Governor filed a 
brief that stated that the actions of the lower court or the 
Sixth Circuit Court of Appeals was an affront to the principles 
of federalism and to the protection of private property rights.
    The Governor goes on to say that these rights have 
characterized his own administration and his efforts to restore 
the proper constitutional balance of power between Michigan and 
the Federal Government, and I think Governor Engler has said 
that very, very well, and I am very pleased that that was 
reported in ``The Litigator''.
    Mrs. Stupak-Thrall. As I am as well.
    It must be made clear, Madam Chairman, that Governor Engler 
did not enter this case for Kathy Stupak-Thrall. The Governor 
entered this case to protect the sovereign rights of Michigan. 
All property rights against the State of Michigan have fallen 
prey to the regulation of the Federal Government.
    Mrs. Chenoweth. And so by this action, not only have your 
rights to have access and use of the surface waters been taken, 
but the right of ownership by the State of Michigan.
    Mrs. Stupak-Thrall. That is correct.
    Mrs. Chenoweth. When that was specifically protected in the 
wilderness bill.
    Mrs. Stupak-Thrall. That is correct.
    Mrs. Chenoweth. And, Senator Wallop, were you here when 
that bill was passed?
    Senator Wallop. I was, Madam Chairman.
    Mrs. Chenoweth. But ``valid existing rights'' means to you 
exactly what?
    Senator Wallop. It means that the Congress, the State, and 
the government all understand clearly, in their mind, those 
rights which exist by law. The property rights of the 
individual citizens, the riparian rights of the State of 
Michigan, and, in fact, the riparian right of the Ottawa Forest 
are all part of the same bundle of rights. And the Forest 
Service has deemed, by itself, that it alone possesses rights 
and essentially has said, the hell with the State of Michigan 
and in particular the hell with all the people who own property 
there.
    Mrs. Chenoweth. That is very chilling to me, a western 
Congressman, because it sets a precedent for water rights in 
the entire Nation. And we in the West, as you well know, would 
not be able to produce agricultural goods at all if we couldn't 
use our precious water.
    Senator Wallop. When this legislation was written, it being 
a wilderness area and eastern one, it passed through only the 
Senate Agriculture Committee. But I remember specifically the 
arguments were being made that these rights that existed needed 
to be protected because those who were there were fearful that 
they were going to be abused. The State of Michigan itself was 
fearful that its rights were going to be abused. And this 
language should not have had to be written into the law, but it 
was written into the law specifically because of those 
anxieties.
    As I pointed out in my remarks, had they only followed--
been willing to follow the Wilderness Act as it is written, 
this language should have been superfluous. But it was put in 
there because peo-

ple were worried that what was going to happen is exactly what 
did happen.
    Mrs. Chenoweth. Senator, this just brings to mind the fact 
that I am authoring legislation that will limit the terms of 
office of Federal judges, when we see the Sixth Circuit Court 
of Appeals make a decision like this that goes outside the 
clear intent of the legislation. And by the way, there will be 
hearings in May on judicial activism, and I have been pushing 
this ever since I got to the Congress.
    I want to question you on one more thing. You made a very 
interesting statement at the close of your testimony, Senator, 
when you said government officials should be held accountable 
for these kinds of actions. Would you mind elaborating on that?
    Senator Wallop. Well, it is clear that the forest 
supervisor and those who are managing this forest are not 
following their own forest plan, their own Environmental Impact 
Statement, their final statement, the law of the land.
    Now, what happens is that in the normal passage of these 
kinds of things, we will invite the Forest Service to come in 
here and say why is it that these events are taking place. And 
you will get some high--maybe even the chief will come in here, 
and he will blather on. But I am suggesting that you call here 
the forest supervisor and the attorney that represented them, 
and others, to explain why to this Congress--this committee--
why it is they believe you don't know what the hell you were 
doing when you wrote ``valid existing rights''; why it is they 
have taken it onto themselves to transgress the law as it was 
written in the Wilderness Act, as it exists in Michigan State 
law and as it exists in designating the Sylvania Michigan 
Wilderness.
    Mrs. Chenoweth. Senator, I would also like to call the 
Sixth Circuit and ask them why in the world they could justify 
it.
    Senator Wallop. That would be a cheering event. But what I 
think is important, really, is to have some people explain why 
it is that they have such a dismal view of American citizens. 
This is not about wilderness. This is about how people in 
government treat people that they govern.
    When we grew up, we all thought that government was the 
servant of the people. It now views itself as its master. And 
the problem that we are facing out there--in my last dozen 
years in the Senate, I would go home to Wyoming and people tell 
me tales not unlike the ones that Kathy Stupak-Thrall has just 
mentioned, or Bobby Unser, and I would think, for God's sake, 
we have got to go do something. And they would say, Senator, 
don't. I just wanted you to know. But if you do something, they 
will get me.
    And they can, because the mountain of regulations is so 
complete that there is always something that they can do to 
deny a grazing permit, a timber permit, an access of some kind 
or another. There is a way that they can get you, even if you 
confront them on the specific issue.
    And when American citizens find themselves saying, I just 
wanted you to know, but don't do anything because they will get 
me, that is the wrong view of people to have of their 
government, and yet it is a view that is driven by the behavior 
of that government.
    Mrs. Chenoweth. Thank you, Senator. And I, for the record, 
I do want to clearly say that I agree with you entirely. The 
doctrine of separation of powers is one that is highly 
respected by me as well as expressed by you. Thank you very 
much.
    And I would like to ask Mr. Nugent----
    Mr. Vento. Point of inquiry, Madam Chairman. Are we going 
to operate under the 5-minute rule or--we have been going now 
for 8 minutes, plus your earlier question between the 
witnesses. I mean, if we are under the 5-minute rule, it is 
fine with me. If we are not, I would like to know so.
    Mrs. Chenoweth. We just had one Chairman leave, and the 
Chairman is operating under the prerogatives of the Chairman 
right now.
    So, Mr. Nugent, I would like to simply ask you, if you had 
the ability to state what you would like to see the wilderness 
policies to be, could you let us know for the record the 
improvements you would like to see made?
    Mr. Nugent. I am here just to represent an overview of, 
again, people that I am privileged to have a dialog with across 
America in my travels, that optimum, reasonable and proven 
access to wilderness-designated areas or areas that may be on 
the chopping block, so to speak, to become wilderness areas be 
reviewed for maximum value based on hands-on participation in 
those areas.
    My son and I went to Wyoming last year and rode 8 hours on 
horseback into the Thoroughfare Wilderness area, and we wanted 
a quality wilderness experience, but we used state-of-the-art 
Gortex supplies and cooking utensils, and new saddles, and 
aluminum arrows and modern equipment that in actual application 
and function is no different than a sinew-stringed Osage orange 
longbow with cedar arrows from time before us.
    And that if young people of this country that are currently 
being ostracized and denied the welcome mat into this heritage 
of nature relationship that is the answer to their dreams--
young people are looking for stimuli. They are looking for 
adventure. They are looking for challenge. They are looking for 
laughter and excitement. And in my wonderful rock and roll 
career, I have found all of the above, in your wildest dreams, 
beyond the pavement.
    I would like to think that it is our responsibility to open 
the door to, again, proven tread-lightly participation in 
wilderness areas, to encourage young people to invest their 
time, energy, education and finances into a continuing 
tradition of a hunting outdoor culture. And it is only going to 
be optimized if it is attractive enough because of that quality 
experience that will be offered to them in these millions and 
millions of acres of wilderness area.
    I believe that the attrition rate in the outdoor 
conservation community is a direct result of our failure to 
offer these quality experiences in an increased fashion rather 
than in the decreased fashion that is currently the modus 
operandi of the sporting community.
    Mrs. Chenoweth. Thank you, Mr. Nugent.
    And the Chair now recognizes Mr. Kildee from Michigan.
    Mr. Kildee. Thank you very much, Madam Chair.
    Michigan riparian laws state that if one owns lakefront 
property, they are entitled to the use of the entire lake. But 
riparian laws in Michigan do not state that they have the 
authority to use motorboats anywhere they please. That is very 
clear.
    I was born in Michigan. I did write this law, so there are 
some restrictions on that. Now, on that first bay where you had 
your property, of course, you can use your motor boat. But when 
you go into the further bays, you cannot use the motorboats 
under the plan put in place by the Forest Service.
    Now, the Michigan Wilderness Act in 1987 directs that 
Sylvania be managed pursuant to the provisions of the 
Wilderness Act of 1964. In there it says that the Wilderness 
Act poses a general ban on motorboat use within wilderness 
areas except for motorboat use as already has been established. 
It may be permitted to continue subject to such restrictions as 
the Secretary of Agriculture deems desirable. It may be 
permitted to continue.
    In the report language on the bill, which I helped write 
the report language, too, it says that motorboat use on these 
lakes may be permitted to continue insofar as this does not 
conflict with or adversely affect wilderness values. So you 
might object to the law, but I think the Forest Service has 
read the law and are following the law. Now, you may object to 
the law, and you can object then because I was the chief 
sponsor of that bill, but I don't think there is any conflict.
    I am convinced there is no conflict between Michigan 
riparian laws, with which I am very familiar, helped write some 
of the new riparian laws when I was in the State legislature, 
nor does it conflict--motorboat restrictions conflict with the 
law of 1987.
    Mr. Nugent, in the 92,000 acres of wilderness area 
established by the 1987 Wilderness Act, a person can enter on 
foot or on horseback to view the wonders of nature and commune 
with nature in those 92,000 acres. What problem does that 
create?
    Mr. Nugent. Well, it limits access. For example, during a 
wonderful winter water wonderland snow country of Michigan in 
the winter months, there should be no reason, in my estimation, 
why a family couldn't snowmobile and use a modern snowmobile 
machine to access this wilderness area because it will not 
leave any scarring. It will not disrupt the areas. And, once 
again, if it is not accessible this time of year via this 
modern equipment, the people will end up at the mall.
    Mr. Kildee. We have 2.7 million acres up there. Why can't 
we take 92,000 acres and have it where there is no pollution or 
even noise pollution; where people can enter in--my sons have 
gone up there, and they enjoy--in the wintertime--and have 
enjoyed the fact that you can commune with nature without even 
the noise pollution. There is another 2,700,000 acres where you 
can have snowmobiles. Why can't we have 92,000 acres set aside 
where you can have it just as it was when the Native Americans 
roamed up there?
    Mr. Nugent. As I am sure you and your family have 
witnessed, Mr. Kildee, we have an attrition rate in the hunting 
activities in many of the States of this Nation because of the 
erosion of the quality of the outdoor experience, the old 
wives' tale of a hunter behind every tree. If we don't expand 
the availability of all of these extensive tens of thousands of 
acres, in some instances millions of acres, that are currently 
wilderness area, those young people will not experience the 
quality experience; therefore they will pursue the 
alternatives, thereby leaving the ranks of a conservation voice 
that will vote for the safeguard of an overall quality outdoor 
experience, wilderness or otherwise. I believe that by opening 
up this type of acreage to this type of activity, it expands 
the density factor--or reduces the density factor of the human 
activities, therefore giving a more optimum quality experience 
in this outdoor setting.
    Mr. Kildee. I think we have multiple use areas where you 
can use snowmobiles, vast areas. Snowmobiling is a very big 
business in Michigan and a very good recreational sport. We 
take 92,000 acres of the 2.7 and say, here, we are going to 
traverse that just as the Native Americans, the Chippewa and 
the Ottawa, traversed it over 100 years ago. What is wrong with 
that?
    Mr. Nugent. Ultimately there is nothing wrong with a 
balancing Act as long as we have the best interest of 
introducing and welcoming a new generation to the outdoors. In 
my experience--and I believe you have seen this in our State of 
Michigan, though it has been reversed in the last 5 or 7 years, 
the getting old of the outdoor community and the failure of new 
young people entering into the outdoor recreational sports 
because of what people believe is a limited access.
    Just for example, we have had quite an argument in Michigan 
recently where on designated snowmobile trails mushers with 
sled dogs were denied use of these trails. Now, certainly if an 
outdoor experience is to be balanced for all multiple use, what 
is good for a snowmobiler or hiker or a cross country skier 
should certainly be available to a dog musher in a sled dog 
activity.
    And I realize that is not directly responding to the 
separation of wilderness limitations versus otherwise, but I 
believe that once again the more acres that we open up to these 
activities, any reasonable tread-lightly, remain-on-designated-
trail, responsible use is, once again, going to be a welcome 
mat for new participation who currently are declining those 
opportunities that seem to be limited otherwise.
    Mr. Kildee. You are a bow hunter, and I know my brother--
older brother--was a bow hunter, and that is really going back 
to like the early Americans, too.
    I just think that 92,000 acres, to set those aside where 
you have 2.7 million forest acres up there, that 92,000 where 
you can't use snowmobiles is not imprudent. I think it is quite 
prudent. And when I wrote this bill, I think I am a prudent 
legislator. I am one who has hunted and fished throughout 
Michigan, but I think it is important that we have certain 
areas where we can go back and reflect as to how this land was 
when the Chippewas were bow hunting.
    Mr. Nugent. Certainly, Mr. Kildee, but we also acknowledge, 
as I was privileged to hunt alongside the great warriors of the 
Assiniboine and the Grilvat Indians in northern Montana a few 
years back where I was honored with the invitation to hunt 
their ceremonious herd bull buffalo on their sacred hunting 
grounds, there are many admirable activities of the Native 
American hunting culture that we would adhere to today.
    For example, the incredible experience of penetrating the 
majestic creatures of God's defense mechanisms to get within 
bow range, but certainly we wouldn't want to return to the days 
where we herded the animals over the cliff in a mass slaughter 
to the tribe. So it is a matter of understanding those 
functions that optimize the outdoor experience from the past in 
conjunction with the incredible human population growth of 
today where we don't shut the door to young people.
    In my correspondence, Mr. Kildee, the young people have 
said they would like to go outdoors, but this State recreation 
area or that State recreation area is loaded with people, and 
they would like to see new areas open up. So I am responding, 
after walking on these wonderful pieces of ground, that 
certainly their access increase would benefit the welcome mat 
for these new conservationists and new land appreciators.
    Mr. Kildee. Could I just ask one question to Mr. Unser?
    Mrs. Chenoweth. Yes. Let's give Mr. Kildee another 2 
minutes, please.
    Mr. Kildee. I really appreciate it, Madam Chair.
    Mr. Unser, you are quoted in the Denver Post as saying, I 
do want the Forest Service to know that if there is any way I 
can hurt them, I am going to do it. How do you intend to hurt 
the Forest Service?
    Mr. Nugent. Hire me.
    Mr. Unser. Ted said: Hire him. I didn't say that.
    Mr. Kildee. The Denver Post quotes you. The Denver Post is 
wrong then, this quote?
    Mr. Unser. I would have to say, Mr. Congressman, that I 
have been part of media all of my natural grown life. I have 
been misquoted many times.
    Mr. Kildee. I have, too.
    Mr. Unser. I don't want to hurt the Forest Service. I want 
to change things in the Forest Service.
    I have spent a tremendous amount of time on this. A ticket 
such as I got, by the record of what the court system has done 
in Colorado, amounts to $50 or $75. The National Forest Service 
tells everybody that it is going to cost me 6 months in jail 
and $5,000, and I hardly see the correspondence between the 
two, the correlation between the two.
    But hurt the Forest Service? For sure I am mad. Absolutely, 
I am mad, and I would tell anybody that. I am really upset. I 
have been hurt. Before I would have been happy to do commercial 
spots, charity things. I do it for many cancer organizations, 
many States, cities, many things. I am most happy to do it, and 
I would have done this for the Forest Service before. But they 
are really trying to hurt me for no reason. I haven't done 
anything wrong.
    Mr. Kildee. Well--thank you Madam Chair. I appreciate the 
indulgence.
    Mr. Pendley. Chairman Chenoweth, could you indulge me to 
answer the question that the gentleman from Michigan asked but 
did not get an answer on?
    Mrs. Chenoweth. With no objection. Is there any objection 
on the part of the gentleman from Michigan?

                STATEMENT OF PERRY PENDLEY, ESQ.

    Mr. Pendley. What the Michigan Wilderness Act said was that 
with regard to lakes that are surrounded on all sides by Forest 
Service lands, that is where the Forest Service has its 
discretion to regulate the motorboat use. However, Crooked Lake 
is a lake in which the northern half of the lake is owned by 
private parties, and the surface of Crooked Lake under Michigan 
law says that every owner along the lake has an equal use of 
the surface of the lake, whether it is the Forest Service or 
Kathy Stupak or the Gajewskis as the owner, and has the right 
to use the entire surface of the lake.
    What the court held and the Forest Service maintained was 
that the property clause of the Constitution, which says that 
Congress has power over Federal land, the property clause may 
be interpreted such that it gives the Forest Service the power 
to regulate private property if it affects Federal property.
    Now the Supreme Court has specifically rejected this 
theory, but this is the theory upon which the Forest Service 
has gone forward. This was the theory that was accepted by 7 of 
the 14 members of the Sixth Circuit Court of Appeals. So it was 
not on the basis that the Congress decided to prohibit 
motorboat use. In fact, it was specifically permitted and 
authorized. That was the valid and existing right that was 
protected.
    The remarkable position of the Forest Service until the 
lower court overturned it was that the valid existing rights 
didn't apply to property rights; it only applied to mining 
claims. That is how askew and in conflict with the law the 
Forest Service is.
    The update on where we are is we have gone back, after the 
Supreme Court declined to hear our case, to the district court 
on the motorboat issue. The district court agrees with Kathy 
Stupak-Thrall and the Gajewskis. It has enjoined the Forest 
Service from enforcing its motorboat regulations, and we will 
go to trial next month.
    Mr. Kildee. But----
    Mrs. Chenoweth. Mr. Kildee, if you wish to make a motion to 
have another round of questioning, the Chair will entertain 
that at the proper time. Now is not the proper time.
    The Chair recognizes the gentleman from Tennessee, Mr. 
Duncan.
    Mr. Duncan. Thank you, Madam Chairman.
    I just got here, and so I didn't get to hear the testimony 
of the witnesses, so I am going to yield most of my time to Mr. 
Pombo.
    But let me just say first briefly to Senator Wallop that I 
certainly appreciate the small portion of the comments that he 
made that I got to hear, because almost every single day I have 
a constituent who calls or writes or who comes to see me who 
tells me about some horrible arrogance of power or abuse of 
power by some Federal bureaucracy or some Federal agency, and I 
loved your words. And they are so accurate today, 
unfortunately, that our servants have become our rulers. And we 
have many good people within the Federal Government, but we 
have far too many people who seem to have forgotten that they 
are our employees and we are supposed to be their bosses. And 
they are supposed to be public servants, not rulers or 
dictators. And in too many ways in this country today we seem 
to have ended up with a government that is of, by and for the 
bureaucrats instead of of, by and for the people. That is why 
so many people across this country are disgusted and fed up and 
even at times angry toward the Federal Government.
    Secondly, I spent 7-1/2 years as a circuit court judge in 
Tennessee before I came to Congress, and you are exactly right, 
Senator, when you say the outlandish difference now being paid 
by the Federal judiciary to Federal agency regulations is an 
enormous problem. I tell you why it happens: It is because it 
is the easy way out. There are far too many Federal judges who 
will do almost anything to keep a case from going before a jury 
because they know that the Federal Government would almost 
always lose if they could get their case in front of a jury.
    And thirdly, one thing I have noticed, and you can 
certainly make any comments about this that you wish, but we 
have these environmental extremists in this country today who 
have become the new radicals, the new leftists, the new 
socialists, and we need to realize how harmful these people 
are. They are destroying jobs, they are driving up the costs of 
products of all types, they are really hurting the poor and 
working people of this country. They are playing into the hands 
of extremely big business, but they are driving small farmers 
out of existence, they are driving small businesses out of 
existence, and I have noticed that almost all of these people 
seem to come from wealthy families or wealthy backgrounds and 
have sufficient money so that they are sort of insulated from 
the harm of their policies.
    But we need to start speaking out about this. We need to 
start resisting this. Our forefathers did their jobs in 
protecting the freedom of this country, but if we sit around 
and allow these environmental extremists to socialize our 
country, what they really are going to end up doing in the end 
is hurting our environment, because the worst polluters in the 
world have been the socialists and communist countries, and we 
need not fall for that line in this country.
    If you have any comments, I would be happy to hear them; 
otherwise I will go to Mr. Pombo.
    Senator Wallop. Mr. Duncan, thank you both for the kind 
words and understanding what it was that I was trying to get 
across. In fact, I did quote the original Wilderness Act, and 
Mr. Kildee seems to have forgotten that portion of it, which 
said that there are to be no buffer zones. Wilderness was to be 
wilderness. This is not an argument about whether or not it 
exists. It does exist. It is in the law. It is a question about 
whether or not the Forest Service, the Government of the United 
States, will follow the law as it is written.
    Now, your other point about the environmental extremists, 
they are a very elitist group of people, and the thing that 
amuses me the most about it is that they are possessed of a 
sort of view that they are God's chosen administrators to 
protect God's creation on Earth. And they have a sort of 
romantic view of nature that it can be returned to some sort of 
static state. There will always be old-growth forest and new-
growth forest, and that the old-growth forests won't grow up 
and die and burn, and the new-growth forest will grow, and 
there is going to be two of everything, and they will all live 
and die, and nothing will change.
    In other words, they believe in creationism. And yet if 
anyone were to teach those people's children creationism in 
school, they would go crazy. But they do not believe in 
evolution because they are trying to create a state in nature 
that doesn't exist. There is no static state in nature. They 
want it there. They want to rule it there. It is a question of 
power, their power, and it is an inconsistency with them. That 
is the way they would have it. Thank you, sir.
    Mr. Duncan. Thank you.
    You might be interested to know that in the last 40 years 
in my State of Tennessee, the percentage of land in forest 
space has gone up from 36 to 45 percent. And I read recently 
the Christian Science Monitor that in the seven Northeastern 
States it has gone up even more than that, so that now two-
thirds of the Northeastern States are now in forest land. And 
yet if you asked that question to almost any school child in 
this country, do we have more land in forests now than we did 
40 or 50 years ago, I am sure that almost all of them would say 
no because of the very distorted picture of what is going on in 
this country that has been presented to the American people.
    But with those comments I will yield back to the Chairman.
    Mrs. Chenoweth. Thank you Mr. Duncan.
    The Chair recognizes Mr. Vento.
    Mr. Vento. Mr. Nugent, I am trying to understand your 
statement. Is it your view--you are opposed to the Wilderness 
Act? You think there is too much land designated as wilderness?
    Mr. Nugent. With limited access on that acreage, yes.
    Mr. Vento. Your concern is that the quality of hunting and 
sports experience is diminished because of wilderness? Is that 
your point?
    Mr. Nugent. Yes, I believe that what it does is it deters 
the desirability of new entry-level participants to seek that 
quality experience in more vast acreage so that the human 
density factor is not an overwhelming consideration.
    Mr. Vento. You would have--I guess about 190 million acres 
of forest and about 33 million is wilderness, about one out of 
six acres a little more than that, and you would like to see 
that modified so that it would not limit access with trucks, 
snowmobiles, whatever? Is that your point?
    Mr. Nugent. No.
    Mr. Vento. What are you talking about in access?
    Mr. Nugent. I would say that access should be regulated, 
certainly. I use the example of snowmobiles. On a snow base, 
there is no tracks or disruption of the topography via 
snowmobile use. I wouldn't open it up to scrambling or enduro 
races. The tread-lightly program that I am a member of is about 
staying on designated trails.
    Mr. Vento. One of the problems is that there are snowmobile 
trails that they banned dog sled teams from and cross country 
skiers. I do cross country skiing. There is a safety problem 
with putting cross country skiing and snowmobiles that are 
traveling 60 miles per hour on the same trails. Wouldn't you 
grant that?
    Mr. Nugent. No, I would not. I have reviewed the statistics 
in Michigan; and all the snowmobiles accidents, 90-plus 
percent, in-

volve drinking snowmobile operators; and I don't believe there 
has ever been a collision just between cross country skiers and 
snowmobile users.
    Mr. Vento. We are even talking about one-way snowmobile 
trails in Minnesota because that represents a hazard. I don't 
pretend to be an expert on it, but I would think that 
separation here at least might be sensible, even with dogs. I 
don't know what the problem is with dogs.
    Mr. Unser, it is a little unusual to have someone that has 
a court date set in June or something to come before the 
committee. Most of us probably--I am sort of reluctant to ask 
any questions about it, although I appreciate your willingness 
to talk about it. Normally, if you are contesting something in 
court, the last place you want is to have it tried before a 
committee and make a judgment on it.
    Mr. Unser. I have nothing to hide.
    Mr. Vento. It is a concern that I have. I mean, you don't--
you are obviously coming here and suggesting that you actually 
were--you didn't know you were in a wilderness area?
    Mr. Unser. No, sir, I don't believe I was in the wilderness 
area. I know I didn't ride my snowmobile in there when I had 
visibility.
    Mr. Vento. Do you think that snowmobiles ought to be able 
to go in wilderness areas?
    Mr. Unser. My opinion, aside from my court case, yes. 
Snowmobiles do not hurt a wilderness area at all.
    Mr. Vento. It may not help your court case. I am not an 
attorney.
    Mr. Pendley. But he is giving his opinion here----
    Mr. Vento. I didn't ask you any questions. If I have a 
question, I will refer to you.
    Mr. Unser----
    Mr. Unser. I am just telling you snowmobiling doesn't hurt 
anything underneath it. It rides on the snow. When it is 
melted, nobody other than the Good Lord would ever know that 
that snowmobile was there. I didn't come here to sell that; 
but, at the same token, I do believe that, sir.
    Mr. Vento. That is why I was asking you. That is exactly 
what I was asking.
    But the issue is, your suggestion is that is there 
something wrong with the Sierra Club or any individual citizen 
pointing out that somebody else made a mistake or that they 
violated a law? Do you have any objection to that?
    Mr. Unser. One more time on that?
    Mr. Vento. Is there any objection to a citizen or a group, 
whether it be the Sierra Club or a sportsman group, pointing 
out that you violated a law? Do you have any objection that?
    Mr. Unser. I guess I don't understand. I am not objecting 
to anybody. I mean, I am just----
    Mr. Vento. You are saying that the penalty is so severe. Do 
you know why you think the penalty is going to be this severe? 
Is that simply the magnitude? You have no idea, for instance, 
if you are found to have violated this Wilderness Act, what the 
imposition of the penalty would be, do you?
    Mr. Unser. I know the history of people that have literally 
gone into the wilderness snowmobiling and been caught. I know 
what their penalties have been, and they have been $50 to $75. 
And I am not griping about that. I can afford that.
    Mr. Vento. The thing is, you implied that it was going to 
be $5,000 or 6 months in jail.
    Mr. Unser. That is what the Forest Service released.
    Mr. Vento. I think that is probably the magnitude of what 
can be applied.
    Mrs. Thrall, your area, is the area that you live in in 
wilderness?
    Mr. Unser. No, sir.
    Mr. Vento. Different witness. Mrs. Thrall?
    Mrs. Stupak-Thrall. Yes, my private property extends into 
the wilderness. I am adjacent and intermingled with the 
wilderness.
    Mr. Vento. There is no objection to your use of the water 
surface in your bay?
    Mrs. Stupak-Thrall. Michigan law states very clearly that 
you cannot separate the waters and define a portion private 
from public.
    Mr. Vento. I understand your debate about Michigan law. I 
am not asking that. I am asking whether or not you can use the 
water surface in your bay?
    Mrs. Stupak-Thrall. The Forest Service has indicated that 
they have designated a portion of the lake as wilderness and 
another portion private, so that I can, in their view, use a 
small portion, 40 acres, as I see fit.
    Mr. Vento. I would point out that 94 percent of the area 
around this lake is Forest Service land, much of it which has 
been declared wilderness.
    Mrs. Stupak-Thrall. The land has been, but the lake wasn't.
    Mr. Vento. Malcolm, I don't know if you are recommending a 
major rewrite of the Wilderness Act, but it looks like that is 
maybe what is being proposed here.
    Senator Wallop. No, I am only asking that they follow the 
Wilderness Act. This is not the boundary. The boundary is the 
shoreline, not the lake.
    Mr. Vento. I understand this particular issue, Malcolm, and 
I don't know that it is inconsistent with any other decisions 
made in any other court cases regarding it. I know there is a 
case regarding the whole case law.
    Mr. Chairman, when you have specific issues like this of 
wilderness issues before us, it is customary to have the 
professionals here then to explain the other side of the case.
    I don't think we should be trying these cases. I don't 
think there is any need for us to do it. I appreciate, though, 
the witnesses who have come; and, hopefully, we can get a 
kinder and friendlier and a few more Forest Service people to 
do their job, would help in this matter, rather than the 
constant reductions that they faced in the 1980's.
    Senator Wallop. I agree with that, but it is a question of 
balance. When the Forest Service says that the reason they want 
to take Mr. Unser so severely to task is because he is a 
celebrity--they spent $100,000 looking for a snow machine.
    Mr. Vento. My time has expired, but I ask unanimous consent 
to proceed for 1 additional minute.
    Mrs. Chenoweth. Without objection, so granted.
    Mr. Vento. Thank you.
    I think it is troubling. I don't think anyone should be 
made an example. Certainly, I don't think that a person as 
beloved as Mr. Unser--with regards to his role and his status 
and so forth, it would be a real mistake for the Forest Service 
to, in fact, do that.
    So I think what the issue here, of course, is, is that none 
of us would ask that we get any special treatment in any case 
either. And I am sure he is not asking for that. And I think 
the severity of what has been represented--talking about the 
maximum extent--I think at the end of the day, however this 
comes down, I understand it was a life crisis and so forth, and 
I think it is insensitive, and I would like them to look to not 
apply it in that instance but rather to the violations that 
occur.
    I think if Mr. Unser knows what the speed limit is, he 
wouldn't go in there. If you knew it was a wilderness area and 
it was a violation of law, you probably wouldn't have done 
that; right?
    Mr. Unser. You are absolutely right, sir. I didn't intend 
to go in. I didn't go in, and if I did, it was during an 
emergency.
    Mr. Vento. I would hope the end result would be that the 
penalty would fit the circumstance, rather than some sort of 
aggravated----
    Mr. Unser. I am really not complaining about the fact that 
I may go to jail for 6 months. I just don't think that is going 
to happen. That is what the Forest Service releases in their--
--
    Mr. Vento. I don't think that is going to happen either, 
Mr. Unser.
    Mr. Pendley. Madam Chairman, can I respond?
    Mrs. Chenoweth. Without objection, we will grant 15 
seconds.
    Mr. Pendley. Here is the position of the Forest Service 
with regard to what Kathy Thrall can do. The U.S. Attorney 
before the 6th Circuit Court of Appeals said, the only right 
Kathy Thrall has with regard to Crooked Lake is to drink the 
water out of the lake. That is the Forest Service position.
    Mr. Vento. Why don't we write to the Forest Service and 
have them present their own positions rather than an adversary?
    Mr. Pendley. I will give you the transcript, Madam 
Chairman.
    Mrs. Chenoweth. The comments of the gentleman are 
appreciated, and I would be happy to work with the Minority 
members on having the Forest Service before this committee on a 
continuation of this issue. Thank you for your suggestion.
    The Chair recognizes the gentleman from California, Mr. 
Pombo.
    Mr. Pombo. Mr. Pendley, you just stated that you had a copy 
of that and could provide it for the committee?
    Mr. Pendley. Yes, sir. I will do so.
    Mr. Pombo. I would appreciate it if you could supply that 
to the committee so it could be a part of the official record.
    [The information may be found at end of hearing.]
    Mr. Pombo. Mr. Wallop, I know that throughout your career, 
your previous career, you saw a number of pieces of wilderness 
legislation that came through this body and across--and one of 
the things that has always come across to me in my brief time 
here is that what we always do is we say that we are going to 
set aside this land and that there is going to be an economic 
loss because we are doing that. We are no longer going to 
extract natural resources out of those areas, so we admit that 
there is going to be an economic loss. But the way that they 
make up for that is they always say we are going to increase 
the recreational opportunities that exist.
    And we have heard people testify previously that they 
decrease the number of recreational opportunities that exist. 
How does that happen in the real world--I mean, after we pass 
the legislation that says we are going to increase that, at the 
same time we are decreasing recreational opportunities?
    Senator Wallop. Well, I have no doubt of the passion of 
people who like wilderness. I myself do. Grew up in it long 
before it was designated wilderness. I used to avail myself of 
it, camp in it and run in it.
    But one of the things that happens is there is a limited 
number of people who are physically able to access wilderness. 
It takes a good deal of wealth. It takes a good deal of wealth 
in order to be able to procure the appropriate equipment, 
transportation to the boundaries, the guides, if you will, to 
go in it. And the ordinary citizen, the ordinary Joe fisherman, 
picnicker, overnight camper, family recreationist can avail 
himself of the boundaries of wilderness, providing he can get 
to them, but the rest of it is his, and it has become crowded.
    Mr. Pombo. Are you familiar with any wilderness area that 
allows motorboats within that wilderness area?
    Senator Wallop. No, I cannot cite one. I am not sure 
whether they do or do not exist.
    Mr. Pombo. I have never run across one in the time that I 
have looked into it. I have never----
    Senator Wallop. I doubt that there are.
    Mr. Vento. Will the gentleman yield?
    Mr. Pombo. Yes.
    Mr. Vento. The Boundary Waters Canoe Area does allow 
motorboats into the interface of the wilderness.
    Mr. Pombo. Inside the wilderness?
    Mr. Vento. Yes.
    Mr. Pombo. Are they not trying to take that out?
    Mr. Vento. There is a controversy about it. I don't want to 
go into it now on the gentleman's time, but I would be happy to 
later.
    Mr. Pombo. That is one of the things that strikes me about 
it, is Mr. Nugent talks about the wilderness experience and 
being able to go in and hunt and fish and experience that, but 
the law itself restricts access into that wilderness area. And 
if we are trying to preserve these areas, what exactly are we 
preserving them for? Is it not so that we can enjoy them?
    Senator Wallop. Its application is truly laughable. You 
wonder where Gilbert and Sullivan are when you need them.
    Mrs. Chenoweth's tale of how they sent the helicopter into 
the Frank Church Wilderness to rescue a wolf but didn't even 
bother to go look for Mr. Unser when he was lost--and now we 
are spending $100,000 of Forest Service money--and they are 
always complaining that they are short funded--to hire 
helicopters to look for a snow machine in the hopes of finding 
a transgression. I mean, you know, sick wolves can require the 
intrusion into the wilderness area by machinery, but not the 
life of a human? Something is really goofy about that kind of 
application.
    I think what we are seeing is an instance of the Forest 
Service believing that somehow or another the only unnatural 
event on the face of this earth is man.
    Mr. Pombo. Unfortunately. Mr. Unser, in light of what 
Chairman Chenoweth talked about, were they actively looking for 
you while you were lost in this area, whether it was in the 
wilderness area or not? Were they actively searching for you?
    Mr. Unser. No, sir, there were rescue people that were 
looking. Forest Service didn't partake in any rescue deals 
whatsoever. They do own snowmobiles that are equally as good as 
mine or----
    Mr. Pombo. That was not very good. But they ran, though.
    Mr. Unser. I know that to be true, because I know the 
people that work on them and--et cetera. And they could have 
known a whole lot more about everything in the whole ordeal, 
but they didn't partake.
    And it was 16 days later, which indicates that it is true 
what I say, that they did receive pressure from some source 
like the Sierra Club. Because why did they wait 16 days later 
into another year and all of a sudden decide, wow, it is time 
to give Bobby Unser a ticket, after the newspapers and all the 
television stations, more than 100 million people saw all the 
news of my ordeal.
    So after that is when they decided we must give this man a 
ticket. And it just became very obvious that it is a message 
from the Sierra Club, don't screw with our wilderness. Sad to 
say, but that is the way everybody pretty much sees it.
    Mr. Pombo. So it is your opinion that they were going to 
make an example of you?
    Mr. Unser. They said they were going to, sir. In other 
words, they told me if I hadn't been Bobby Unser, a celebrity, 
that it wouldn't have happened. It would have just passed over. 
Out of their own mouths.
    Mr. Pombo. They told you that?
    Mr. Unser. Yes, sir.
    Mr. Pombo. I think I would agree with Mr. Vento on that 
one. That is kind of stupid. Everybody did see and read about 
the case and about what happened to you. It just seems like 
that would generate an immense amount of negative publicity for 
the Forest Service and serve the point of pointing out just how 
absurd some of these rules and regulations really are.
    Mr. Unser. You know, Mr. Congressman, when they issued the 
ticket, we had long talks about this. I told these two 
officers, I said, first place, you did not see me do anything 
wrong. How do you give somebody a ticket just based on the fact 
that you want him to have one? They have to see you do 
something in order to give you a misdemeanor, according to law. 
They did not see that. I did not do anything wrong.
    But, more importantly, I told them, I said, this is liable 
to get out to the press; and I said, you guys will lose the 
war. You cannot possibly win this. It is an unjustified thing.
    And then I looked at the ticket, and I saw on there--and he 
is telling me such a minor ticket that it is and why don't I 
just pay it and don't worry about it. And I looked at the 
ticket, and it said I must appear. Not a question of paying 
somebody $75 to keep them happy, but that I must appear.
    That is going to publicly ridicule me and that way I would 
admit that I was guilty. Not just giving them money because 
they wanted it. I could not do something like that. It is not 
my way.
    I got in my airplane the next day and went to Phoenix the 
next day to do my job. While I was on the plane, they were in 
Denver, the Forest Service having a press conference, saying 
that they were going to charge Mr. Unser; and we are going to 
try to fine him $5,000 and 6 months in jail for having a motor 
vehicle in the wilderness. They got caught with that. How did 
the machine get there and is it there? Nobody knows.
    Mr. Pombo. They have never found it?
    Mr. Unser. Well, I don't know if they have. They claim that 
they have not. So it is kind of like after the fact.
    And then I am in Phoenix, and everybody is calling me. And 
it was not me that went to the press, it was the Forest Service 
that went to the press. So they started the war that Mr. 
Pendley is handling now.
    Mr. Pombo. Unfortunately, my time has expired. Maybe we 
will have opportunity for another round of questions. Thank 
you.
    Mrs. Chenoweth. Thank you, Mr. Pombo. The Chair now 
recognizes the gentleman from California, Mr. Doolittle.
    Mr. Doolittle. Mr. Unser, I find your story very 
compelling. Essentially, you were lost. You apparently have 
lost your new $7,000 snowmobile. Was the other machine yours as 
well?
    Mr. Unser. Yes, sir.
    Mr. Doolittle. Did they find that one?
    Mr. Unser. The rescue people brought that one out, sir.
    Mr. Doolittle. You lost your $7,000 machine. You nearly 
lost your life. It must have been shocking indeed to find your 
government, that your President thinks is your friend, to have 
them issuing you a citation for essentially innocent activity. 
Were you shocked when that happened?
    Mr. Unser. I was more than shocked. That is a good way to 
put it. I was in shock. In other words, not just shocked the 
way it sounds, I was literally in shock. I mean--and when the 
lady handed me the ticket, I just told her--I said, I will not 
sign a ticket. I am under the assumption--I have had speeding 
tickets for sure all of my life. I am under the assumption that 
I must sign the ticket. I said, if it is jail, I said to them, 
let's go to jail right now. I will not sign something that I 
didn't do.
    Mr. Doolittle. That is the spirit of the American 
Revolution. I commend you for fighting it.
    May I just inquire, what do you and your----
    Mr. Unser. The ticket, sir, was written before they ever 
established where we were.
    Mr. Doolittle. I think that is clear. What do you estimate 
this legal defense will end up costing you when you go to trial 
in June?
    Mr. Unser. Many----
    Mr. Pendley. May I?
    Mr. Unser. This is my attorney. Can he respond?
    Mr. Pendley. Legal Foundation is a private public interest 
law firm representing Mr. Unser for the reason that I think is 
clear, based on the testimony.
    If the Forest Service can engage in this kind of conduct 
with regard to Mr. Unser, there is nobody out there who is 
capable of responding. And they will do it to anyone and 
everyone, and there are certain, very important legal issues 
involved here.
    Is, for example, the presence in the wilderness, without an 
intent to be present in the wilderness, is that a violation? 
Here, as Mr. Unser has testified, there is no demarcation of 
where the boundary is. If one is inside by accident or in the 
case of emergency or blizzard, is that a violation? It 
shouldn't be a violation.
    Every crime that we have in this country, practically, 
requires an intent to commit the crime, and if there is no 
intent, then there is no commitment of the crime, and----
    Mr. Doolittle. Let me just ask, is this an unresolved 
issue? I mean, it comes as news to me that you can be held 
strictly liable for presence in the wilderness, without 
reference to intent.
    Mr. Pendley. That apparently is the Forest Service right 
now; that is correct.
    Mr. Doolittle. But that has not actually been tested?
    Mr. Pendley. That has yet to be resolved.
    Sir, the reason I bring that up is because it is an 
important national legal issue, and that is why Mountain States 
has agreed to represent Mr. Unser for free.
    Mr. Doolittle. Mr. Unser--it is free to Mr. Unser, but it 
is obviously costing the foundation. I am trying to get a sense 
of what does a citizen who has the finger of Big Brother 
pointing at him in the prosecution, what is that likely to 
cost?
    Mr. Unser. I have an attorney in Albuquerque, also, that 
represents me in this; and so far, we have spent in excess of 
$30,000 of his time, which is costing me.
    Mr. Doolittle. So that is $30,000 of his time, presumably 
that much or more out of the Mountain States Legal Foundation, 
and by the time you go to trial, you will have easily a 
$100,000 bill in legal fees; is that safe to say?
    Mr. Unser. More than that, sir.
    Mr. Doolittle. This gives contemporary illustration to 
something our first President said, George Washington, ``The 
government is not reason, it is not eloquence, it is force by 
fire, as a troublesome servant and a fearful master.''
    You, sir, had the courage and the willingness to basically 
fight City Hall, so to speak, only in this case it is the 
Forest Service. We will all benefit from that service you are 
performing, but I think--it comes as news to me, certainly, I 
suspect the members of the committee, that the Forest Service 
has taken out these kinds of positions.
    Let me ask, in the time that I have remaining, Ms. Thrall, 
your case, I guess, I heard someone say that seven judges of 
the 14 have concluded that somehow the property clause can 
regulate private property. Is that correct?
    Ms. Stupak-Thrall. That is correct, sir.
    Mr. Doolittle. So the other seven did not go along with 
that, and apparently the Supreme Court has not accepted the 
appeal of your case; is that correct?
    Ms. Stupak-Thrall. That is correct, sir, but we are 
proceeding in the Federal District Court this May, on the motor 
boat issue specifically.
    Mr. Doolittle. Well, is there--I will ask you or anyone who 
cares to answer, what is the situation? I am reading--I just 
read a little summary of this situation that was your case 
where apparently the circuit court concluded the Forest Service 
and exercise of police power, similar to that exercise, the 
State and local government; that surely has not been validated 
by the U.S. Supreme Court, has it?
    Mr. Pendley. Let me respond to that.
    Ms. Stupak-Thrall. May my attorney?
    Mr. Doolittle. Certainly.
    Mr. Pendley. That is absolutely correct and, in fact, on 
the property clause question, the Supreme Court has 
specifically rejected the Forest Service's contention the 
property clause gives them power over private property that 
affects Federal property.
    Mr. Doolittle. That is the basis on which they are 
attempting to regulate.
    Mr. Pendley. That is right. Here is the opinion of the 
Federal District Court, that said, not only is it a property 
owner along here, it is also a sovereign, and as a sovereign, 
it stands in the shoes of the State of Michigan, which can 
regulate for health, safety and welfare. Therefore, under the 
property clause, it can regulate for other issues as well.
    The Sixth Circuit Court of Appeals repudiated that opinion 
and found it without merit and substituted its own judge for 
that opinion; and that opinion, too, was stricken, so we are 
back with the District Court opinion that the Forest Service 
has that kind of power. The irony here is, the Forest Service 
is standing in the shoes of the State of Michigan, but ignoring 
Michigan law with respect to what those property rights are.
    Mr. Doolittle. I just want to clarify. I missed, was it a 
three-judge--was it a panel of the circuit that made this 
interpretation about the property clause? Did you say that was 
then overturned by the Federal Court?
    Mr. Pendley. The district court first heard the case 
throughout the Forest Service the contention that valid 
existing rights did not apply to property, but then said the 
Forest Service can still regulate reasonable use. It went to a 
three-judge panel of the Sixth Circuit. The panel was unanimous 
in upholding the district court, but for a different rationale.
    We asked the Sixth Circuit to hear it, and in an 
unprecedented action, in light of the fact it was a unanimous 
opinion, the Sixth Circuit agreed to hear the case. All 14 
heard the case, seven agreed with the panel--interestingly, 
written by the author of the panel, that judge, just judge--and 
then Judge Danny Boggs, who, interestingly enough, served on 
the Senate Natural Resources Committee at the time this was 
written, came to the conclusion that this compromise with 
regard to valid existing rights was the indispen-

sable ingredient that permitted the Michigan Wilderness Act to 
go forward, and he held valid existing rights were protected.
    And he made an interesting point that I think is important 
to a question that was asked earlier, why this is a threat to 
wilderness. It is a threat to wilderness because if these 
agreements made to protect private property, careful balancing 
such as Congress engages in is repudiated and rejected by the 
Forest Service, I dare say many Members of Congress cannot vote 
for forests knowing these protections will be upheld.
    Mr. Doolittle. It sounds like the State is in a complete 
muddle.
    Mr. Pendley. It is a muddle only with regard to a couple of 
holdings. The Supreme Court is very clear on the fact that the 
property clause gives Congress power, only over Federal land, 
not private property.
    Mr. Doolittle. Unfortunately, as a Member of Congress, it 
concerns me the next time I have one of these bills, and we are 
supposed to feel assured it contains the phrase ``subject to 
valid existing rights.'' I don't take great comfort in that 
phrase.
    Mr. Pendley. Congressman, it guarantees nothing.
    Ms. Chenoweth. The Chair will recognize for a second round 
of questioning, the gentleman from California.
    Mr. Wallop. I wonder if I might be excused to attend a 
valid existing right. I have a new meeting.
    Ms. Chenoweth. Yes, Senator. Thank you for joining the 
panel. Without objection, the Chair would like to ask Mr. Chris 
Cannon, the gentleman from Utah, to join us on this panel.
    Mr. Cannon. Thank you.
    Ms. Chenoweth. And we will call on you for questioning 
after we call on Jim Gibbons, the gentleman from Nevada, for 
questioning.
    Mr. Gibbons. Thank you, Madam Chairman, for recognizing me 
at this end of the dais here. I would like to assure these fine 
people, who have come all this way to talk to us in this 
committee, that we are not here trying any case. We are a 
public hearing to find out the problems that are existing with 
the application of the current wilderness bills; and I 
appreciate your testimony here before us.
    I presume that some members of this committee might think 
differently if we were here testifying about the problems of 
some social bill and how that application should be adjusted. 
Nonetheless, what I would like to ask--of course, we have 
talked to Mr. Unser earlier about his costs.
    Mrs. Thrall, what have been your costs with regard to this 
problem that you have experienced with the Forest Service? Can 
you tell us, in this committee?
    Ms. Stupak-Thrall. My costs have been immeasurable, as this 
has taken 7-1/2 years from my life and my family's life. In 
order to participate fully to protect my private property, to 
participate in the process with the Forest Service, I have had 
to separate myself from the family business and family 
activities to take this issue on full-time.
    As Mr. Unser said, he spent 10 to 12 hours each day 
addressing this issue, and that is correct. Anywhere from 8 to 
12 hours each day for 7-1/2 years, I have had to address this 
issue.
    You must understand that when I as a individual am 
participating in the process with the Forest Service, I am not 
participating with a person of the Forest Service, I am 
participating against a whole system, which goes--starts in 
Michigan and finally finds itself here in Washington, D.C. I am 
trying to hold up this huge pyramid that is trying to come down 
upon me. It has cost me immeasurable amounts of dollars that I 
couldn't even begin to count.
    Mr. Gibbons. Now help me understand this issue. Crooked 
Lake is primarily a lake used for recreation and has been in 
the past. Is there public ramp access to this lake?
    Ms. Stupak-Thrall. There is a public access through the 
Federal boat landing, yes, sir. That was a boat landing that 
was installed in 1968. It replaced a very primitive-type access 
that was used by the public alongside the county road. They had 
used that access alongside the county road because it fell 
within the easement of the road where they were not then 
trespassing onto private property.
    Mr. Gibbons. You received a ticket by the Forest Service 
for some activity of having an open beer can. I don't know what 
it was, Coke can, or whatever it was in the boat. Was that 
given to you on the water or on your private property?
    Ms. Stupak-Thrall. Both, actually. And the ticket was given 
to my husband, not to Kathy Thrall, but to Ben Thrall, and I 
say both, sir, because I am on my private property when I am in 
my boat on the surface of Crooked Lake, or on the frozen 
surface when I am on my snowmobile. Michigan law identifies the 
surface of Crooked Lake as an extension of my riparian 
properties, and my riparian rights to the water may not be 
separated or divisible from my upland.
    Mr. Gibbons. Now the Forest Service provided that ticket?
    Ms. Stupak-Thrall. Yes, sir, they did.
    Mr. Gibbons. Do they have authorization to control 
activities on the water in this lake?
    Ms. Stupak-Thrall. They have assumed it, sir.
    Mr. Gibbons. Their Environmental Impact Statement says the 
Forest Service cannot regulate use of motorboats on a lake.
    Ms. Stupak-Thrall. I understand that is exactly what they 
have said, sir, and they gave that response to the direct 
question, what will happen to motorboat activity on the surface 
of Crooked Lake should there be wilderness designation.
    Now let's also understand, we are asking the experts in 
wilderness management. The Forest Service is a recognizable 
expert in the area of wilderness managements, so when you have 
a question of wilderness, you go to the Forest Service.
    We went to the Forest Service through the means of the 
Environmental Impact Statement, which is a legal document. They 
must, by law, be accurate and scientific in their answer. They 
told us that should there be wilderness designation, that 
motorboat activity on the surface of the lake would continue if 
there is private access to it, that they do not regulate motors 
on the surface of the lake. You are correct.
    Mr. Gibbons. Thank you.
    I have two questions, and first I would like, in this very 
short time that I have remaining, Mr. Pendley, do you know of 
other in-

stances in the wilderness areas of this country where agencies 
of the Federal Government have used motorized vehicles of one 
kind, whether it is a helicopter, airplane, a tracked vehicle 
of some type, to access wilderness areas? We have heard the 
story of the Chairman and the wolf. That would be one question, 
if you could help this committee understand that.
    The second goes to Mr. Unser. You brought this map. 
Following that would you tell this committee what that meant, 
represents, and what those red dots are? Thank you.
    Mr. Pendley. I really don't have an answer for you, 
Congressman, as to uses that the Federal Government has made of 
motorized vehicles. There is the one famous story, of course, 
of the New Mexico wilderness in which a little Boy Scout was 
lost, and U.S. Forest Service used a helicopter to help locate 
him, but then made the decision not to rescue him on the site 
because they didn't think they could, and the next day they got 
permission to go in, and then they did go in.
    Mr. Unser. Could I just relate to that a little bit about 
the Forest Service about a case I happen to know of where there 
were some hunters in the same wilderness area, Congressman; 
that they got stranded by an early snow, horses and men, and 
they wanted to go in with snowmobiles and feed the horses so 
the horses wouldn't die. They allowed helicopters to go in and 
pick up the men and get them out so they wouldn't die. They 
were refused the horses. They were just going to let the horses 
die away deep in that wilderness.
    Then a call was subsequently made to the Humane Society 
here in Washington, D.C., and the rumor out in my part of the 
country will tell you that within 15 to 30 minutes, there was 
an OK to haul the hay in and get the horses out. They sledded 
some of them out on hoods and stuff like that, but nonetheless 
they did allow it, and some of my friends that I associate with 
commonly work for the people that did this. They did allow it 
to go in and happen, but it was not until the Humane Society 
was called here that it went to the Forest Service and came 
back OK.
    Mrs. Chenoweth. Your time is up, and on my time, when we 
have a second round of questioning, I would like for us to 
continue with the question the gentleman from Nevada asked you 
about your map. But right now the Chair recognizes Mr. Cannon 
for questioning.
    Mr. Cannon. Thank you, Madam Chair.
    First let me say I deeply appreciate the fact you all would 
come to this meeting here today. More than that I appreciate 
the fact you are carrying on a difficult battle, each in a 
different way. I think the government, by nature, is a matter 
of force. If we don't resist that force, we lose our rights, 
and property rights are very important in that process.
    Mr. Unser, do you--have you recovered your snowmobiles? 
Have they ever been found, and were they found on Federal 
wilderness property?
    Mr. Unser. One was recovered by a rescue crew and don't 
know where it was. Don't think it was in the wilderness, but 
nobody really--there has been too many conflicting stories on 
where it was, meaning there was a terrible blizzard going on, 
and the crew that found it--I wasn't there, you have to 
understand. I was walking when this was all going on, but when 
the crew found the first snowmobile, and the only one that has 
been found, they were in a blizzard, almost didn't get out 
themselves. They ended up coming out late at night, and they 
were lost for a while and then tried to follow my tracks going 
in. They were unable to do that. As far as the wind blowing so 
hard, they can only pick up a track occasionally, and it 
appeared to them that I had been going around in circles, which 
is common, I guess, when you are lost.
    So they found the snowmobile, took it part of the way out. 
The next morning, this would be the morning that I had walked 
out, and while I was in the hospital, this--a group had gone 
back and retrieved the one snowmobile, and they don't believe 
that it was anywhere near where the Forest Service contends 
that it was, and--which means it was probably out of the 
wilderness. And the second snowmobile is--has never been found 
as far as we know.
    Mr. Cannon. Was the first still operating when you 
abandoned it; was it driven out or pulled out, and who 
comprised the group that found it or was looking for you when 
you found it?
    Mr. Unser. The group that got it out would be friends of 
mine that were part of the rescue group and part of my family. 
My brother went in and my son and my daughter. They brought it 
out.
    Mr. Cannon. They were the ones who brought it out.
    Can you tell us a little bit about the organization of the 
group that was looking for you; was it only family, did it 
include the local search and rescue, did it include the Forest 
Service?
    Mr. Unser. It was Colorado Search and Rescue, New Mexico 
Search and Rescue, and friends and people that know the country 
a lot better than the Search and Rescue from the Chama area. 
That is the town that is close up there that we live in.
    Mr. Cannon. Were there any Forest Service search and rescue 
types? Was there anyone from the Forest Services helping?
    Mr. Unser. 100 percent none.
    Mr. Cannon. And when you abandoned the first snowmobile, 
was it still operating?
    Mr. Unser. Yes, sir, it was still operating. But what had 
happened, my friend that was riding it, it was becoming a 
deficit rather than an asset, and when he got stuck, it was 
time for me to leave that snowmobile and put him on behind me. 
I was on a new snowmobile, and it really shouldn't have given 
me problems, but it did, and that is the one that is still up 
there. So I left it knowingly, but not knowing I was going to 
have the other one break down.
    Mr. Cannon. How long was it between the time you abandoned 
the first snowmobile and the time you broke down on the second?
    Mr. Unser. Approximately--it got stuck, and I left it 
approximately 2:00 o'clock in the afternoon, and darkness comes 
at 5:00 up there, and that is when I abandoned the second 
snowmobile and started walking.
    Mr. Cannon. OK. Just one other question. When you were 
issued a citation or violation, the notice of violation, 
whatever you call it, what was the factual basis alleged for 
the violation? How did they suggest that they knew you were in 
a wilderness?
    Mr. Unser. Only from taking maps and--remember, I am there 
under the pretense, sir, that they are going to help me find my 
snowmobile so I can go retrieve it and take it out of the 
mountains, and I went through the Forest Service people in case 
that it was in the wilderness. I don't know where the 
wilderness is, I don't know where the boundaries are, but I 
went to get a letter, something saying for Bobby to be in there 
finding the snowmobile with myself and my group.
    So after I sat with the two police officers, they never 
told me I was being investigated criminally or anything like 
that, we backtracked from where I walked out, and after we 
backtracked it up, in all sincerity they determined my 
snowmobile, which is still lost, must be in the wilderness by 
what I described. That is when the lady reaches down under the 
table and pulls out a ticket, which was the citation, and 
handed it to me.
    Mr. Cannon. And on the citation itself, the citation, was 
it--did it say on its face that they found you had been in the 
wilderness based upon your statements, or was there another 
basis alleged?
    Mr. Unser. It is not based on anything, it is just merely 
they made out one thing, operating a vehicle in the wilderness, 
but they didn't see the vehicle there. They still haven't seen 
it, I haven't seen it, and I don't know that to be true. So it 
was a ticket that had to be a bad ticket to write because there 
is nothing that knowingly has happened.
    Mr. Cannon. Thank you very much, Mr. Unser and the rest of 
our panel.
    Mrs. Chenoweth. Thank you, Mr. Cannon.
    Before I recognize the Members for a second round of 
questioning, I want to say this particular hearing and this 
panel, as well as the panel members to come who will testify, 
have drawn a lot of interest from all over the Nation, and I do 
want to recognize a distinguished visitor in our audience, 
Representative Dan Mader from Lewiston, Idaho. He is serving on 
a national forest task force, and I appreciate his interest in 
this hearing.
    With that, I would like to continue my time of questioning, 
and we will adhere very strictly to the 5-minute rule on this 
second round of questioning. But I did want to ask Bob the 
answer to follow through on the question that Mr. Gibbons asked 
you, by explaining what the red marks are on this map. I think 
we can all probably get a real good idea of what you went 
through by looking at the map, and I assume that is a USGS 
quadrangle map.
    Mr. Unser. It is a national forest map. We purchased it 
from the Forest Service office in Albuquerque. The stickers are 
on the back.
    What this shows is the wilderness, if all of you can see 
it, is marked in blue. Now this is not to be exactly correct 
because a friend of mine made this up just so I could show Mr. 
Pendley and such attorneys where I went, at least where I know 
that I went that day. We unloaded over here at this red deal, 
which, all of this country, all of this country is national 
forest, not wilderness, everything at the blue line, and we 
didn't go on around with it because it wasn't important. That 
wasn't the part in question. The part in question would be this 
wilderness. Everything up in here would be the authorized 
wilderness.
    Mr. Doolittle. Madam Chairman, can I inquire? I can't see a 
blue line from here. Is there a blue line up close that 
delineates--
    Mr. Unser. Can you see it coming around here? Can you see 
that?
    Mr. Doolittle. Yes. Thanks.
    Mr. Unser. I know it is hard to see.
    At any rate, right down here is where we unloaded our cars, 
and this is always referred to as Red Lake. If you are going to 
tell somebody you are going snowmobiling, you would say, we are 
going to Red Lake or Dipping Lakes, meaning that is where you 
unload, meaning that is where the trails head back in that 
direction.
    But thousands of people snowmobile in this area, Jarosa 
Peak, which is all this area right in here, very, very 
commonplace, and, of course, a lot of snowmobiling in there, a 
lot of area to snowmobile, and there are no signs up in here to 
show where the wilderness starts.
    I suppose over the years many thousands of people have been 
in there, but even if you are snowmobiling, when you get on 
top, it is really a rock. We call it a rock farm up there. The 
part that is fun in snowmobiling is going up the hills, the rim 
road. When it gets all full of snow, you can do some really 
nice climbing, which is fun, but when you get up on top of this 
rim road, you are not in the wilderness.
    Now, honest to goodness, we didn't know this until this 
incident happened, and I have learned it since, but that is 
where I unloaded. We went up riding. This is where we climbed 
up and got up to the top, and this is where our location was 
when the blizzard happened.
    Now the national forest officers claim that they found the 
first--they didn't find it--no, they said it was found way over 
there, a place called Dipping Lakes. Now respectfully, I would 
like to point out to everybody that lakes in the wintertime 
don't exist. It is just country full of snow. You can't tell 
lakes from anything. There is at least 100 lakes right here in 
the wilderness. I took pictures and showed them to Mr. Pendley, 
and he can't see one lake because it is winter, and there is 
snow. So nobody goes riding at a lake or a specific place, they 
just merely unload here. It is called Red Lake or Dipping 
Lakes. And up here is where they snowmobile, and very often you 
come right here down through Quemado Village Lake, a giant 
lake. Nobody knows when they go past the lake because it is 
frozen.
    So that is where we were. Right there is the location, this 
red sticker here, where the blizzard hit us. That is where we 
got disoriented and lost. And this is where we think that they 
found my first snowmobile. We don't know. My walking ended up 
over here. The 18 hours that I did ended up down here, which is 
to the north and to the east. And the place where I spent the 
night would be somewhere right in here.
    There is a giant, giant, giant canyon here. I wish all of 
you could see it, but I realize you are too far away. That 
canyon is something like 600 feet down, according to the map. 
We slid down the snow slide to get down there because it was 
the only place to see this valley this way. This would be the 
Outer Alamosa Valley, and when I was out of the wind and out of 
the blizzard, I could see that, and I know a place called 
Quemado, that is the river that comes out and comes down here. 
That is the Quemado River there. I could see I needed to get 
down there because I knew that would be a friend down there; in 
other words, buildings, people, stuff like that. That took 18 
hours of walking to.
    Now, to this day, the Forest Service doesn't know where my 
other snowmobile is, and I don't know where it is, but the 
Forest Service managers, both the head people both in new 
Mexico and in Colorado, released statements to the press all 
the time that Bobby Unser is not going to get that snowmobile 
unless he takes it out by hand or by horse.
    Now in all due respect, if I am lost, and if the snowmobile 
did end up, which the Forest Service thinks, a quarter mile 
into the wilderness, of their statement, if it does ends up 
there, how am I going to get the thing out? I didn't 
intentionally go in there with it, and in essence they are 
stealing it from me if they don't let me go in and take the 
thing out. I can't get a horse up in there in the winter to go 
get it, that is for sure, and come summertime, how would I get 
the tools up there to disassemble it and take it out? So in my 
opinion, they are stealing it if they find it there.
    But what if they find that it isn't there; what if they 
find it is actually just outside the wilderness by 10 feet? 
Then look what they have done to me. But no matter what, they 
don't know where it is any more than I do.
    Mrs. Chenoweth. Thank you, Mr. Unser. I very much 
appreciate that answer and explanation.
    The Chair now recognizes Mr. Kildee for 5 minutes.
    Mr. Kildee. Thank you very much, Madam Chair. While I have 
a chance, I would like to thank the witnesses. I come to these 
hearings because we can learn things, and I really appreciate 
your involvement on this. I think basically the Michigan 
Wilderness bill was a good bill. Matter of fact, you know, I 
take great pride in having put them together. I myself put the 
non-buffer language in the bill, even though that was not in 
the organic after 1964. I put it in. That would have been the 
policy, but after having hearings, particularly in the Upper 
Peninsula, people raised questions about that, and I said I 
will put it in the bill exactly, so we put it in there.
    But I am convinced, having read the law, that neither 
Federal laws nor the State riparian right laws, with which I am 
also familiar, I am convinced it does not exclude the 
wilderness--the Forest Service from excluding motorboats on the 
wilderness area of the lake. You canoes the entire lake, Mrs. 
Thrall, and you canoes motorboats on the nonwilderness part of 
that lake, but on the wilderness part, you canoes, under the 
rules, only electrically powered motors, but on the 
nonwilderness part of the lake, you can still use motorboats.
    I think that is a reasonable division between what is owned 
by all the people of the United States, about 95 percent of the 
lake, and what you have some rights on under riparian law, and 
you own land on that part of the lake. I do know even people 
who are in similar situations as yourself that there is a 
division.
    I would like, Madam Chair, with consent, to include in the 
record a letter from Thomas V. Church from Water Street, 
Michigan, who is a cabin owner on Crooked Lake, and he feels 
basically the Forest Service has, as you put it, walked a path 
between streams. Some of the general public wanted no motors at 
all, some wanted restrictions. He feels they have reached a 
balance there, and so there is a division even among the 
property owners. So I would like this for the record.
    Mrs. Chenoweth. Without objection, so granted.
    [The information may be found at end of hearing.]
    Mr. Kildee. And I have no further questions, but I would 
like to thank the panel for its sincerity, enthusiasm, their 
input and knowledge. It is helpful to the Congressman.
    Mrs. Chenoweth. Thank you, Mr. Kildee.
    The Chair recognizes the gentleman from California, Mr. 
Pombo.
    Mr. Pombo. Thank you, Madam Chairman.
    Ms. Thrall, just so I understand how this is situated, did 
you say that part of your property is within the wilderness 
area?
    Ms. Stupak-Thrall. Yes, sir. In fact, all of my private 
property is within--well, I cannot say that. The wilderness 
boundary does cross the lake, yes, at a certain point, and the 
Forest Service contends that a 40-acre parcel is outside the 
wilderness and is private, and the remaining 560 acres then is 
wilderness. That is contrary to Michigan law, where Michigan 
law does not allow fencing, whether it be visible or invisible, 
of a lake surface, to divide public from private rights. One 
riparian cannot fence off another riparian, and, well, I would 
have some remarks for Mr. Kildee, but I would save those for 
later.
    Mr. Pombo. So your contention is that because you own 
lakefront property, that you own rights on to the lake, 
riparian rights onto the lake?
    Ms. Stupak-Thrall. The State of Michigan identifies those 
rights, sir, yes, and the Court cases from Michigan from the 
Supreme Court have identified those rights, yes, sir.
    Mr. Pombo. Do you feel that the value of your home has been 
diminished or increased as a result of the wilderness?
    Ms. Stupak-Thrall. When my constitutional rights are 
diminished and my private property is not recognized as such, 
it is diminishing of my value, yes, and of my constitutional 
rights, yes.
    Mr. Pombo. Do you feel it has restricted the use of your 
private property for what has been determined as a greater 
public good or a public policy?
    Ms. Stupak-Thrall. In fact, the courts have very clearly 
identified--and my attorney can correct me if I am wrong, but I 
believe that the court has identified that these regulations 
placed on the surface of Crooked Lake are not for even just the 
community of Watersmeet. But for the general public at large of 
the United States, am I correct, Mr. Pendley?
    Mr. Pendley. That is correct.
    Mr. Chairman, let me just add something. Under Michigan 
law, a riparian, somebody who owns property along the lake, has 
the right to use the entire surface of the lake subject to one 
condition, the reasonable use of other riparians along the 
lake. Every opinion written in this case does not disagree with 
the fact that this is private property, this is property that 
is owned both by the Forest Service and by the Thralls and 
Gajewskis and the other 11 property owners. There is absolutely 
no dispute.
    When Mr. Kildee talks about the wilderness portion, this is 
not the wilderness portion, this is the private property 
portion, and what the courts have said is under the property 
clause of the Constitution, the Forest Service can regulate 
this private property for the national good because it affects 
Federal property, and that is where the system just simply 
breaks down, because that is in conflict with the Supreme Court 
opinion, and I think it is in conflict with what this Congress 
meant to do.
    Mr. Pombo. I was just looking through the code on 
wilderness areas, and one of the provisions is that there be no 
permanent improvement or human habitation of the area, that is 
pulled into that; that the whole idea being that there not be 
any sign of human beings within the wilderness, and yet you 
have a picture of your house. How does that work?
    Ms. Stupak-Thrall. Well, as the wilderness user enters into 
the Sylvania area, they come in off the recreational portion 
where the boat landing is at, and they happen to see my 
homesite and the homesites of my neighbors, and many of these 
wilderness users will refer to us as visually offensive. But as 
they enter onto the surface of Crooked Lake at that point of 
entry, they are entering onto the surface of not only, from the 
Federal Government's point of view, their riparian rights, but 
also onto my riparian rights, a joint ownership of private 
property. And I must also remind you as well that Forest 
Service land status ownership records, which are included in my 
testimony, and letter from a Mr. Ken Myers from the Forest 
Service office, regional office in Wisconsin, very clearly 
states that these land status records are used to report to 
Congress what acres they own as a Forest Service, and the 
Forest Service has broken down the land acres, the upland acres 
from the water acres, and they identify all upland acres as 
forest system lands, and they will identify that there is a 
title held and PILT moneys are paid, PILT moneys being payment 
in lieu of taxes.
    Now when it comes to the water acres, they exclude those 
subsurface water acres and the surface water from Forest 
Service ownership. They say they are not forest system lands, 
no title held, no moneys paid. So when it is convenient for 
them to not pay and return to the counties and the township 
PILT payments, they have no ownership rights, but now when they 
want to regulate, they suddenly have ownership rights and will 
not recognize private property rights established by the State. 
They are given title to their upland by the same entity I am 
given too, the State of Michigan. They are not willing to 
recognize State of Michigan laws when it does not suit their 
needs.
    Mr. Pombo. Madam Chairman, I know my time has run out, but 
very quickly, looking at this picture that you gave us.
    Ms. Stupak-Thrall. Yes, sir.
    Mr. Pombo. This is in viewpoint of the American flag, and 
everything is in view from the wilderness area.
    Ms. Stupak-Thrall. Yes, sir, it is. In fact, my property is 
the only property that flies the American flag on the shores of 
Crooked Lake. Not even the Federal Government.
    Mr. Pombo. And what kind of comments have you received?
    Ms. Stupak-Thrall. I have had Sierra members sit across 
from me, sitting no further than you are, saying my private 
property and that of my neighbors is visually offensive, and 
they may have to contend with my homesite, even though they 
prefer condemnation, but they will not tolerate my motorboat 
activity because it disturbs their quietude and their solitude. 
Regardless of what Congress directed in the language, a Federal 
land is only to be designated, not private property, and 
administration will be subject to valid existing rights.
    Mr. Pombo. Thank you very much.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Pombo.
    The Chair recognizes the gentleman from Minnesota, Mr. 
Vento.
    Mr. Vento. It is the law, and it is my understanding of the 
law, that, in fact, there is an exception with regards to 
motorized use for administrative and safety and health purposes 
by the Forest Service with regards to the Wilderness Act, and, 
in fact, it is in the law. Apparently there is some 
misunderstanding or some argument on the part of some here 
whether or not the Forest Service does have such authority.
    Ms. Stupak-Thrall. May I respond to that, sir?
    Mr. Vento. Well, wait until I finish my question. I have a 
question, and I would like you to, certainly. But my point is 
in terms of rescue operations, they certainly are. Whether or 
not they, in fact, have the resources in all instances to send 
planes, helicopters and other types of search parties out to 
use for lake and for safety purposes, to, in fact, do that, is, 
of course, a relative question. We know, for instance, land 
management agencies often are involved in mountain rescues 
where people are taking risks in terms of climbing mountains. 
It is an expensive proposition, obviously, but life is 
affected.
    One of the instances brought up by a witness commented 
about a kid in a wilderness, and that, in fact, there was some 
limit or some question about whether equipment should be used 
in order to try and rescue that child. But it was found out 
upon reflection that, in fact, part of the reason he was in the 
wilderness is because he was apparently running away from home, 
or at least trying to avoid authority from parents or from 
other sources.
    So, as I said, I think that is why it is important when you 
have allegations and statements made, that it is important to 
try and have in place the land manager so they can have an 
intelligent discussion. If we are going to be considering 
arguments that are going to take place before a court with 
regard to property rights, it is probably a good idea to have 
the Forest Service speak for themselves with regards to--or the 
BLM, for that matter, to speak for the wilderness themselves 
regarding the arguments, rather than have them portrayed by 
others. I think that something that is lost in translation. So 
these hearings end up being an interesting litany of problems, 
but they are not necessarily helpful in terms of trying to 
understand the Wilderness Act.
    Ms. Thrall, do you have a comment with regards to the 
safety and rescue operations and the use of motorized vehicles 
for that purpose; do you have any response to that; do you have 
a comment you want to make with regards to that?
    Ms. Stupak-Thrall. The comment that I had to your 
statements on rescue and safety, all of those directions of 
management and how there shall be rescue and safety operations, 
all of this is in direct relation to federally-owned lands. It 
is not directed to private properties. Crooked Lake is and has 
been established not only by State law, but also by recent 
court cases that it is private property.
    Mr. Vento. I appreciate your observation. My concern 
related to the statements made by Mr. Unser and others 
concerning the public lands and the wilderness areas. I would 
also suggest many of these arguments have something to do with 
wilderness, but they have something to do, generally, with the 
Federal Government, with the national forest land and the acts 
that predate the Wilderness Act. In fact, as I look at some of 
the testimony, it actually takes issue with some of the issues 
with regards to water rights and other matters. It seems to me 
to be a continuation of a long debate that predates, in fact, 
the Wilderness Act in terms of the Federal Government's 
sovereignty and what its role is with regard to States and with 
regards to private citizens and has little or nothing--or 
little to do, really, with the Wilderness Act.
    You may disagree with the application of it with regards to 
this purpose, but I would point out that it has been used. 
There are some aspects of Federal law in property rights and 
laws that, in fact, do deal with whether it is applicable under 
the Mining Act, whether it is applicable under easement, 
whether it is applicable in terms of many other issues with 
regards to timber sales and other acts that exist within the 
Forest Service of the BLM.
    So this effort to talk about the nuances in terms of how it 
affects wilderness is interesting and maybe the feeling is 
there should be some change. For instance, I note that the 
Forest Service, in its Organic Act, has a right for Eminent 
Domain, it remains there with regards to the Wilderness Act. It 
isn't taken away by virtue of that. In some cases, we may 
qualify it even, to not permit it to be used in these 
instances. A lot of people in BLM land and in public land, 
however, are concerned with trying to get along with the 
individuals who are there, but understanding there is a 
changing dynamic, as we learn more about the areas, the science 
of these areas, these ecosystems; as we learn more about it, to 
apply and try to manage them in an intelligent way, and that is 
an ongoing process.
    And I realize that it means change for all of us, change if 
we want to attain certain goals. Clearly there are many that 
disagree with those goals, and that is all right. You can be 
more against the Wilderness Act. The question is if you don't 
want to attain that goal or have that type of land set aside 
for future generations, that is a legitimate point of view. Or 
if you think of a different way to accomplish that, that is OK. 
I am, frankly, trying to do the best we can to invent laws that 
preserve them and rehabilitate them.
    Thank you. I thank the witnesses.
    Mrs. Chenoweth. Thank you.
    The Chair recognizes Mr. Doolittle.
    Mr. Doolittle. Thank you, Madam Chairman.
    I agree with Mr. Kildee, you do learn things from these 
hearings. One of the things I learned is that the Humane 
Society helps the Sierra Club. Mr. Unser, if we could have an 
alleged interest within the purview of the Humane Society, the 
Forest Service might actually have gone looking for you.
    Mr. Unser. I agree.
    Mr. Doolittle. Mr. Nugent, I think you raise an issue that 
probably should be the subject of hearings in and of itself, 
this issue of providing more quality wilderness-type area for 
people to use, because as I understand what you are saying, the 
available land for hunting and fishing is becoming so overused 
that the experience is really changing for people who wish to 
engage in that activity, and apparently the vast designated 
wilderness areas that we have are restricted in some ways for 
the hunting and fishing that you like to engage in. Would you 
care to comment on that?
    Mr. Nugent. Well, I am very fortunate in my radio programs 
and phone calls and meetings, hundreds of meetings a year, in 
meetings with families, the parents desperately trying to 
encourage young people to seek a conservation life-style, and I 
have seen over and over again that the quality of their 
outing--and, of course, we have to realize it is usually 
weekends for the vast majority of American families--and the 
inaccessibility of some of these more vast acreages that maybe 
are only accessible via horseback or on foot literally cause 
these families to settle for oftentimes a crowded experience, 
whereas expanding their recreation into off-limit areas, 
opening it up, would further encourage these young people to do 
it again. It is really quite as simple as that.
    And when they call--I guess the best way I can put it is if 
I go to a lake, and my son doesn't see the bobber go down all 
afternoon, I am going to have a tough time getting him to go 
fishing the next time; whereas if we can open up some of the 
areas that currently--because of their accessibility they are 
not going to get in there, and in those larger tracts there is 
a better opportunity for a wildlife encounter, kill or no kill, 
game or no game taken, it is, in fact, the spiritually 
uplifting experience of just encountering this exciting 
wildlife beyond their schools and beyond their cities and 
beyond their normal lives that will encourage them to come 
back.
    And I don't want anybody to confuse what this old guitar 
player readily identifies, the difference between the rape of 
the hills and a family walking or accessing a piece of--
currently inaccessible property, whether it is on a four-wheel 
drive recreational vehicle or on a snowmobile. Certainly 
sticking to designated trails is once again--to repeat part of 
my testimony earlier, a designated trail, whether on foot, 
horseback, snowmobile or four-wheel drive, is no more offensive 
to my eyesight and my view of this extremely precious and 
valuable wild ground resource than that of an area that maybe 
was disrupted violently by two bull elk fighting. I like to see 
people invigorated that way, and I believe as a member of the 
Tread Lightly program that human tracks are no more offensive 
than the wildlife tracks if we are conscientious, as I find the 
vast majority of supporting people to be.
    Mr. Doolittle. Mr. Pendley, do you have an estimate off the 
top of your head, an estimate of court costs and attorneys' fee 
for this 7-year effort that Ms. Thrall has been waging? I think 
we ought to have some sense of what it costs to defend a 
constitutional right.
    Mr. Pendley. The best estimate I have heard for private 
attorneys is the cost of being to the Supreme Court and back is 
about $500,000, and right now we have done all of that. We have 
gone through a District Court, we have gone through a three-
panel Court of Appeals, we made a petition to the Supreme 
Court. I mean, our petition costs just to print the record and 
make our petition to the Supreme Court was approximately 
$18,000.
    Mr. Doolittle. And you are not done yet. You are back in 
District Court.
    Mr. Pendley. We are back in District Court with regard to 
the motorboat issue, absolutely.
    Congressman, one of the points that needs to be made is no 
one here at this table disputes wilderness. No one says the 
Wilderness Act was wrong. In fact, we all believe the Michigan 
Wilderness Act was correct. Congress did everything humanly 
possible to protect Kathy Thrall's rights.
    What we object to is the manner in which the Forest Service 
has implemented it, has ignored the will of Congress, and the 
incredible cost to Kathy Thrall and her family, and the zero 
cost to bureaucrats who have done it. And this is the troubling 
thing: There is absolutely no downside for the bureaucrat who 
wants to look the other way when Congress has made a 
pronouncement, and there is a terrible downside for people like 
Kathy and Ben Thrall.
    Mr. Doolittle. Thank you, and I thank all the witnesses for 
their excellent testimony.
    Mrs. Chenoweth. Thank you.
    Mr. Cannon is recognized for 5 minutes.
    Mr. Cannon. Thank you.
    Mr. Kildee has introduced a letter from someone in your 
area there and talked about balance and balancing between a 
motorized and unmotorized or electric motors on boats. Do you 
have any light you could shed on the nature of that debate?
    Ms. Stupak-Thrall. Yes. Mr. Tom Church purchased property 
on the shore of Crooked Lake in 1989. Mr. Church came into our 
neighborhood unknowing to us--of course, it really didn't make 
any difference, we wouldn't have stopped him from purchasing 
the property. But he is a member of the Sierra Club, and they 
all vehemently support canoe effort only and will oppose all 
motorized use. Mr. Church is the only riparian on the shoreline 
of Crooked Lake that opposes the motorized use on Crooked Lake, 
yet he came and purchased property on Crooked Lake when that 
motorized access and accessibility to the entire surface of the 
lake had not yet been challenged by the Forest Service. He knew 
that motorized activity was there.
    Mr. Cannon. So he is not exactly an impartial observer of a 
bureaucrat process?
    Ms. Stupak-Thrall. That is exactly right.
    Mr. Cannon. I noticed in the picture of your cabin, you 
have a flag prominently displayed. This may become an issue in 
a later panel, but have you ever had any problem with people 
criticizing the flag?
    Ms. Stupak-Thrall. Never before, not until it was February 
22, 1990, when the Sierra member made that comment to me and 
about 50 other people who were in the room that the properties 
of Crooked Lake were visually offensive, and please do keep in 
mind, my family and I have flown the flag on the edge of that 
dock since 1939.
    Mr. Cannon. Was that directed to the flag or the whole 
setting?
    Ms. Stupak-Thrall. To the whole setting, sir.
    Mr. Cannon. I suppose Mr. Unser has had the most pointed 
experience, but I think, Mr. Pendley, you probably had broader 
experience, so I direct the question to you, and other 
panelists may want to respond.
    You talked earlier about the cost of search and rescue. 
Clearly in the new monument area, this is going to be a major 
problem because it is a vast area with tracks that go nowhere. 
In your experience do the managing agencies, the Federal 
agencies, have the resources to do significant search and 
rescue, or is that locally borne?
    Mr. Pendley. I don't have the expertise to comment on that. 
My own experience in the State of Colorado, when we lost 
country skiers, that all the agencies have responded very, very 
well to those kinds of emergencies, but I can't comment with 
regard to whether or not they have a sufficient budget to 
engage in that work.
    Mr. Cannon. Thank you, Madam Chairman.
    Mr. Kildee. You mentioned the flag and somebody finding the 
private property itself offensive?
    Ms. Stupak-Thrall. Yes, sir.
    Mr. Kildee. And I regret people saying things like that 
because the Organic Law for Wilderness in 1964--and I put that 
language back in the Michigan Wilderness bill saying that the 
Federal Government could not exercise the right of eminent 
domain for wilderness acquisition, and I am very sensitive, as 
you are, Kathy, to the right of private property owners. You 
are one. But I made sure after I had the hearings in the Upper 
Peninsula, particularly where the people had some concerns that 
the exercise of our eminent domain, I put the language 
specifically in the Michigan Wilderness bill that the Federal 
Government could not use the right of eminent domain to acquire 
private property. And I am glad I put that in there. I think 
that is a very important part of the bill, and people can make 
offensive statements, and I would find it offensive also that 
that person made that statement.
    Ms. Stupak-Thrall. I do find it offensive, and I find it 
further offensive that the Forest Service continues to uphold 
and fortifies those statements.
    Mr. Kildee. I will get into that, but I do think--I am 
trying to write a balanced bill, and we write bills here on 
Capitol Hill, and they are not perfect, but I did specifically, 
however, include language that we could not even use the right 
of eminent domain--the Federal Government does have under the 
Constitution right of eminent domain, but we put in that bill, 
acquisition and designation of wilderness, that they were 
forbidden to use the right of eminent domain, and I think that 
was a good provision of the bill, and thank you very much, Ms. 
Thrall.
    Mr. Cannon. May I say this: I appreciate the fact that 
Congress and you put in the language that would limit that 
intrusion into private property rights, and that is very 
important. I think the issue here is what the Forest Service is 
doing with the language that Congress produced.
    Mr. Pombo. Would the gentleman yield for just a second?
    We have successfully put that language in a number of 
different places limiting the right of the government to use 
eminent domain to acquire private property. But one of the 
things we found over the past few years is because they can't 
use condemnation, they then use adverse condemnation and take 
it through regulation, because they can't take it from an 
unwilling seller. So we are beginning to see cases, such as 
this one, where they take it through adverse condemnation and 
just take the property through their regulation, and that is 
one of the problems that we have been dealing with over the 
past several years.
    But I thank the gentleman for yielding.
    Mr. Cannon. Thank you.
    In the rest of my time, let me say, there is no place in 
America for regulators to go around the law that way, and I 
think that is what we are hearing the problem here really is.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. I want to thank the panel, and I want to 
thank this committee. I think the questions were outstanding. 
We did all learn a lot. This has been a very long and arduous 
panel, 3 hours, but thank you for your perseverance, and as a 
member now of this government, I am looking forward to the day 
when we can help correct some of those misjudgments on the part 
of some of our people in the field.
    Thank you all very much for your generosity.
    The Chair now calls the second panel. The second panel will 
consist of Mr. Todd Indehar, president, Conservationists with 
Common Sense, from Ely, Minnesota; and Richard Conti, waterhole 
coordinator, Society for the Conservation of the Bighorn Sheep, 
Eagle Rock, California; David E. Brown, the executive director, 
America Outdoors, Knoxville, Tennessee; Edward Baumunk, co-
owner, BBJ Mining, Tecopa, California.
    Gentlemen, the Chair recognizes first Todd Indehar.
    Mr. Indehar.

  STATEMENT OF TODD INDEHAR, PRESIDENT, CONSERVATIONISTS WITH 
                          COMMON SENSE

    Mr. Indehar. Thank you.
    Distinguished Chairman, members of the committee, thank you 
for the opportunity to testify. I am president of 
Conservationists with Common Sense, a grassroots, all-volunteer 
organization based in Minnesota. We are dedicated to preserving 
public access to public lands, especially with Boundary Water 
Wilderness. We have been involved since 1989, including two 
court actions, appeals, and four congressional hearings 
relating to wilderness.
    I will be blunt today. Forest Service wilderness policy is 
intellectually and morally bankrupt. Reinvention didn't fix it. 
New ideas must be tried, and they must be tried soon. Local 
people and wilderness users must be involved in any new plan. 
They alone bear the brunt of these policies, yet they have no 
voice in the decisionmaking process. They have been ignored, 
but they have much to share.
    Today I will describe several examples of what is happening 
to American citizens at the hands of the arrogant and 
unaccountable Forest Service and suggest several reforms for 
you to consider. My first example involves Forest Service's 
1992 draft BWCAW management plan in which they tried to ban 
Scouts from the wilderness, youth groups of all types, families 
and others.
    During the public task force process, which we participated 
in, preservationists argued that Girl Scouts singing around a 
campfire interfered with wilderness solitude, and the group of 
five canoes on a lake was, quote, ``visual pollution,'' 
unquote. The youth groups, on the other hand, spent months 
trying to explain why they needed a group size of 10 to keep 
kids in the woods. Forest Service wanted to cut it to six. The 
task force did reach a consensus to keep it to 10, but in a 
stunning display of arrogance, it consciously moved to 
eradicate the youth groups from the Boundary Waters.
    It angers me to this day they deliberately chose to do 
that, and that is how I personally got involved in the issues 
because it personally impacted my family and their ability to 
recreate. Only after months of appeals, $100,000 and a lot of 
bad press was the Forest Service allowed to let the kids back 
in.
    Another outrageous example took place on Memorial Day, 
1995, when 62-year-old Dr. Ed Pavek, he was a Korean War vet, 
were flying an American flag over their boundary water camp 
site. Two uniformed officers approached and told him to take 
the flag down because, quote, ``it didn't go with the 
wilderness concept,'' unquote. The Forest Service then lied. 
They tried to cover it up. They came up with several different 
versions of the story and tried to discredit Dr. Pavek, and 
since then Dr. Pavek informs me he has been unable to obtain a 
permit to go to the Boundary Waters. Whether that is a 
coincidence or on purpose, we don't know.
    Also, it is denying public access to the Boundary Waters 
due to quota cuts and a dysfunctional system. The Duluth 
office, which created the system, has done nothing to fix it 
for years. Forest Service personnel are admitting forest 
permits that are being reserved and not used. Campsites are 
empty, but people cannot get a permit. Something doesn't add 
up.
    The Wilderness Act states wilderness is to be used for 
quote, ``the enjoyment of the American people,'' unquote. 
American people are being denied this use because of an 
inefficient government agency. It is clear the Forest Service 
needs this Congress's help to fix this problem.
    In short, the Forest Service has been inefficient, 
unaccountable, dishonest, nonresponsive to local and regional 
concerns, and too easily influenced by Washington-based special 
interest groups. They are becoming more centralized, while many 
institutions in America and around the world are becoming less 
so. One-size-fits-all policy isn't working in the Boundary 
Waters.
    Here is what we recommend. First, we recommend that 
Congress should immediately initiate studies of existing non-
Federal managements structures that could be used as 
alternatives to Federal management of wilderness. Congress 
should immediately initiate pilot projects to test a wide 
spectrum of decentralized and private conservation management 
structures for wilderness areas.
    In conclusion, there are serious problems with this 
Government's management of the Boundary Water Wilderness and 
other wildernesses, too. People and wilderness are suffering. 
Decentralization and privatization need to be tried. Of course, 
some people will argue that private and local interests can't 
be trusted, that they would rape and destroy the wilderness. I 
have heard that many times.
    This is arrogant, illogical and fear-based. This disregards 
the public attitude toward the environment, especially 
wilderness. It also ignores the successful conservation record 
of local and State governments and the spectacular record of 
private initiatives, such as those of the Nature Conservancy, 
National Audubon Society and others.
    The voices of status quo and fear must be rejected. This 
Congress must show leadership, creativity, compassion, and 
vision to save our wilderness areas. Better management of the 
land means better government for the people. Better government 
is smaller, less intrusive and closer to the people, which, in 
the end, means more freedom and liberty for everyone. Thank 
you.
    Mrs. Chenoweth. Thank you, Mr. Indehar, for that testimony.
    [The statement of Mr. Indehar may be found at end of 
hearing.]
    Mrs. Chenoweth. The Chair recognizes Richard Conti, the 
waterhole coordinator for the Society for the Conservation of 
Bighorn Sheep.
    Mr. Conti.

  STATEMENT OF RICHARD A. CONTI, JR., WATERHOLE COORDINATOR, 
         SOCIETY FOR THE CONSERVATION OF BIGHORN SHEEP

    Mr. Conti. Thank you, Madam Chairman.
    My name is Dick Conti. I represent the Society for the 
Conservation of Bighorn Sheep, a California nonprofit 
organization. Since 1969, this society has cooperated closely 
with the California Department of Fish and Game to implement 
the State's Bighorn sheep management plan. We help the DFG to 
construct, inspect and maintain a desertwide series of man-made 
wildlife drinking devices called guzzlers.
    Since 1988, I have been the Society's waterhole 
coordinator. I consult with the DFG in their planning efforts 
to return Bighorn sheep to their historic ranges throughout 
California. This program has been very successful and has 
resulted in a doubling of the Nelson desert Bighorn sheep 
populations in our deserts.
    For 25 years, the DFG, BLM and this society have cooperated 
jointly to manage desert wildlife on public lands in 
California. However, with the passage of the California Desert 
Protection Act, much of our desert is now designated 
wilderness. The BLM is attempting to administer lands 
designated by the California Desert Protection Act as it does 
most wilderness lands covered by the Wilderness Act of 1964. 
However, the authors of the act understood this DFG program was 
beneficial to the resource, and they wanted it to continue. 
They included language in the act that specifically allows 
management activities to restore and maintain wildlife 
populations, and the act further states these activities shall 
include the use of motorized vehicles by the appropriate State 
agencies.
    The BLM Wilderness Division does not recognize this 
language in the Act. A BLM wilderness specialist told the DFG 
and the society that any future request for guzzler development 
in wilderness will require an Environmental Impact Statement, 
the paperwork could take a year to complete, and their answer 
would still be no.
    The Wilderness Division has made up their minds that no 
wildlife or guzzler development will take place in their 
wilderness. BLM also consistently tried to deny or restrict the 
DFG's motorized vehicle access to wilderness areas for routine 
management purposes.
    BLM has stated their major concern continues to be 
motorized vehicle usage and wilderness. That may be their 
concern for the general public who are now locked out of these 
public lands, but for them to use that restriction with State 
agencies in the performance of their duties is intolerable and 
not in accordance with the law written by Congress in the 
California Desert Protection Act.
    Here are two examples of attempted restrictions by the BLM. 
In mid-1995, a DFG biologist notified the Bureau he would enter 
the Turtle Mountain Wilderness by motorized vehicle to retrieve 
a dead Bighorn carcass. The BLM contended motorized access was 
not to be used for this activity and dispatched a ranger to 
meet the biologist. The biologist argued the CDPA gave him 
authority to use a motorized vehicle in wilderness and, using 
an existing road, he drove 4 miles into the wilderness, 
retrieved the carcass, and drove 4 miles back to the wilderness 
boundary on the same road.
    The ranger wrote an incident report, and the BLM wilderness 
specialist advocated a ticket be issued for using a motor 
vehicle in wilderness. No ticket was issued, but the BLM 
strongly protested this motorized access to the DFG regional 
manager and has indicated the Bureau would determine when 
vehicle access was necessary for DFG activities.
    Second item. On July 20, 1996, the DFG notified the BLM we 
were going to replace a water storage tank at a big game 
guzzler in the Sheephole Wilderness. The Bureau dispatched a 
ranger to intercept the DFG because the notification letter did 
not specify that we would be using motorized vehicles to access 
the wilderness on an existing route. Before passage of the 
California Desert Protection Act, this route had been used for 
approximately 15 years to access this guzzler for inspection 
and maintenance. The ranger told arriving DFG employees no 
motor vehicle access had been approved by the BLM, and workers 
would have to walk to the guzzler, that is 10 miles round trip, 
in 114 degree July heat, up the mountain, carrying tools, water 
and other essentials, an impossible task without vehicle 
access.
    After some debate, the ranger called the BLM area manager, 
who then called the district office manager, who agreed to 
allow one vehicle into the wilderness. Allowing only one 
vehicle to proceed under these weather conditions unnecessarily 
puts lives at risk should the vehicle break down.
    DFG wildlife management is also being curtailed in the 
National Parks. Death Valley, Joshua Tree National Parks, and 
Mojave National Preserve have all refused to allow the use of 
motorized vehicles to inspect the guzzlers in their wilderness.
    Motor vehicle access is essential to maintain these remote 
big game guzzlers because after you have driven as far as 
possible, you must hike the remainder of the way, sometimes 4 
miles or more. To not have vehicle access and be required to 
hike from the wilderness boundary to the guzzler can be 
physically impossible. In most instances the terrain is so 
steep, even pack animals cannot get there.
    These guzzlers may be the only source of year-round water 
available to our wildlife because man has already impacted the 
land so heavily. Any future wilderness legislation should be 
written to more clearly entitle the appropriate State agencies 
to manage that State's wildlife, whether it be on BLM or park 
lands. I wish the California Desert Protection Act could be so 
amended because our wildlife will surely suffer if it is not.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Conti, for that very 
interesting testimony.
    [The statement of Mr. Conti may be found at end of 
hearing.]
    Mrs. Chenoweth. The Chair recognizes David Brown from 
America Outdoors.
    Mr. Brown.

   STATEMENT OF DAVID L. BROWN, EXECUTIVE DIRECTOR, AMERICAN 
                            OUTDOORS

    Mr. Brown. Thank you, Madam Chairman. I appreciate this 
opportunity to provide you with the views of America Outdoors 
and America's outfitters and guides. America Outdoors and its 
affiliate members represent more than 1,400 outfitting 
businesses operating in 40 States. Members provide diverse 
recreational experiences to the general public, including 
whitewater rafting, horse back trips, fishing, canoeing and 
kayaking. They operate in a number of wilderness areas managed 
by the Bureau of Land Management and the USDA Forest Service.
    In the traditional sense, outfitters have been operating in 
wilderness since the days of Lewis and Clark. Outfitters in 
wilderness predate many of the modern forms of wilderness 
recreation embraced by agency managers and the public. We 
recognize that wilderness outfitters must be extremely 
sensitive to the environment and respect the rights of other 
users to operate successfully in wilderness.
    At the outset, please let me say that in my discussions 
with outfitters in preparation of this testimony, there were 
many compliments to agency managers regarding their 
perspectives and practices. Region I of the Forest Service is 
identified often by outfitters as a model for wilderness 
management.
    On the other hand, many outfitters see alarming trends 
emerging that threaten the viability of quality outfitted 
services, and I have four concerns I will briefly outline.
    We believe a bias is emerging in many wilderness areas 
against that segment of the public who wishes to experience 
wilderness through outfitted services. This is manifested in 
revisions to managements plans, where party sizes and use 
levels are being reduced to levels that are not viable for 
successful outfitter and guide operations. Often these 
reductions are not the result of resource impacts, because the 
same activities are not prohibited for self-guided users.
    Number two, in some wilderness areas, management appears to 
be more dependent on the values of the resource manager than 
the intent of Congress as established in the 1964 Act. In some 
areas outfitters praise the cooperation received from managers, 
and in others areas they are being forced out.
    Number three, in some wilderness areas, use allocated to 
the outfitted public is no more than 5 to 7 percent of overall 
use. This use is tightly controlled and supervised; some might 
say micromanaged. We believe there are a number of wilderness 
areas where managers spend a disproportionate amount of time 
and resources managing outfitted use. Despite that low level of 
use, when cutbacks are called for, these managers often attempt 
to reduce or eliminate opportunities for the outfitted public.
    Number four, historical and traditional uses that were 
recognized in wilderness designations should not be sacrificed 
once the ink is dry. It is important to maintain the web of 
legitimate activities that are culturally and historically 
significant that preexisted a wilderness designation. If these 
areas qualified for wilderness with those activities, then 
there is no reason they should not continue if that use is 
managed appropriately.
    In general, I share the view of many that maintaining 
recreation opportunities for the use of and enjoyment of 
wilderness areas was clearly a purpose of the Wilderness Act. I 
also believe this purpose is being supplanted by another agenda 
in some areas. That agenda is a revision of the purpose of 
wilderness from that intended by Congress in the Wilderness 
Act.
    Man has always been a part of wilderness. It is possible to 
protect and manage wilderness and maintain its natural 
character without eliminating man and recreation. I believe the 
survival of the wilderness system will depend on expanding the 
constituency for wilderness and not on the alienation of those 
who have long been a part of it.
    I appreciate the opportunity to testify before this 
committee and ask my testimony be submitted for the record.
    Mrs. Chenoweth. Thank you, Mr. Brown, that is very 
interesting testimony.
    [The statement of Mr. Brown may be found at end of 
hearing.]
    Mrs. Chenoweth. The Chair now recognizes Mr. Baumunk, co-
owner of BBJ Mining.
    Mr. Baumunk.

     STATEMENT OF EDWARD T. BAUMUNK, CO-OWNER, BBJ MINING; 
                 ACCOMPANIED BY GERALD HILLIER

    Mr. Baumunk.  Good afternoon, Madam Chairman. I thank you 
for the opportunity to tell you about our 4-year authorization 
to a 45-year-old mine, in which misfortune has located it in 
the area and made wilderness included in the national park in 
1994.
    I am Ed Baumunk of Tecopa, California. I have lived and 
worked in and around mining in southern California for over 50 
years. My partner A.G. Jackson and I own Rainbow and Caliente 
Mines within the newly expanded Death Valley National Park. 
They lie within the designated wilderness area despite 
existence of roads, past mining activity.
    The claims are actually in the Saddle Peak Hills close to 
State Highway 127 between Baker and Shoshone, and not at all 
visible from either Death Valley or the highway. A 1996 letter 
to Congressman Lewis from the Park Service describes them deep 
in the park, and that is simply not true. We asked them, 
through Congressman Lewis, to be excluded from the park, and 
they refused.
    We discovered this talc deposit in 1952. The mines have 
been in operation during the periods when the value of the talc 
has been sufficient to warrant the mining of the deposit. We 
built head frames shown in the pictures in 1953 and 1956, and 
over the past 45 years, we have estimated that we removed 
60,000 tons from the mines. The main adit extends for over 
1,400 feet into the mountain and shows the continuity, size and 
extent of the ore body.
    We were never too much aware of the work going on in the 
so-called Desert Plan and the Desert Bill. No one ever came and 
talked to us about the various inventories and studies, nor 
notified us that operation of our claims might even be in 
jeopardy. We filed a plan of operation with BLM, with the 
Barstow BLM office, in 1993. They approved a minimum operation 
in July of 1994, allowing 100 tons per day of extraction.
    This is only a start-up. We currently have purchase orders 
for the possibility of 800 tons a day after start-up, 
increasing to 1,600 tons per day and leveling off at 2,000 tons 
a day. These quantities would come entirely from the 
underground mine, with the material being hauled off-site on a 
road system that has existed for many years. At the current 
commercial value of $45, $50 a ton shipping costs and up to 
$120 a ton refined, we are talking significant money.
    The value of the material would, I am told, generate a 
considerable boost to the economy in this remote area of San 
Bernardino and Inyo Counties through employment and support 
factors related to it.
    We have been shown that the BLM, prior to 1992, did not 
think the area should be wilderness. They prepared a Wilderness 
Report, which was given to Congress in 1990. That document, 
which I have with me, indicates why the area was not believed 
to be appropriate for wilderness, but must have been ignored 
when Congress passed the bill in 1994, putting our mines in 
wilderness. Attached is a copy of this report.
    Among statements in the section pertaining to our area, I 
call to your attention, ``The value of known and potential 
mineral...deposits were determined to be of greater 
significance than the area's value as wilderness.''
    ``Portions of the WSA have high potential for talc and 
moderate potentials for silver, gold and copper. Past producing 
mines are located within the WSA. The evidence of surface 
disturbance still remains. There is one active operation within 
the WSA. There are 28 mining claims within the WSA on record 
with the BLM in 1987.''
    It goes on.
    The access to our mine, and the mine itself, has always 
been shown on the USGS and the Auto Club maps of the region. 
The road was prominent enough that it formed the dividing line 
between two BLM study areas, 219 and 220. The Desert Bill 
authors drew maps for the Desert Bill and ignored the road. The 
two units were put together, or perhaps they knew about the 
road and wanted to make it more difficult for us to operate our 
mine.
    This has now resulted in the Park Service closing our 
access road or at least posting it for use by authorized 
vehicles only. Since then they have not approved our mining 
plan. We are not sure whether we are fully authorized, but we 
have still used the road and con-

tinue to do so. I guess verbally it is OK, but what about our 
contractors and our employees and our guests.
    The road has now disappeared from the Triple A maps, in 
1990 and 1995, which you can see there on the photograph board. 
Does the Park Service think they can make us go away by giving 
them the wrong information?
    The Desert Act contains language protecting existing 
rights, and in our minds this is the question that we have 
valid right, and the government makes the determination. In 
1995, we applied to Death Valley for permission to mine because 
of the 100-tons-a-day operation by BLM. It was not enough to 
cover the currently proposed development and demand. The Park 
Service has considered our application at a snail's pace.
    Mrs. Chenoweth. Mr. Baumunk, I wanted to let you know that 
your time is up. I would be glad to grant another 30 seconds if 
you want to tie it up. Your entire statement will be entered as 
part of the record, and we will have time to question you. Do 
you want to take another 30 seconds to wrap it up?
    Mr. Baumunk. We have our own problems, and we hear there 
may be hundreds of those throughout the desert. Some of the big 
miners got taken care of. There are many of these little mines, 
many of which might not have been in regular operation, but 
which have potential for reopening and are now being stopped by 
BLM and the Park Service. Congress needs to fix our problem and 
take a look at what they did in 1994 when they created all this 
wilderness without considering all the data on mining and 
mineral values.
    Thank you.
    Mrs. Chenoweth. Thank you very much, sir. That was very 
informative.
    [The statement of Mr. Baumunk may be found at end of 
hearing.]
    Mrs. Chenoweth. I wanted to ask Todd Indehar, you made some 
very specific suggestions to the Congress, and I think very 
valuable, about studies and projects, but I wanted to take your 
testimony just a little bit further. You obviously disapproved 
of the Forest Service system of the boundary water, but I would 
like to get on record, what would you think would be a better 
management structure?
    Mr. Indehar. Thank you.
    Recently, the Forest Service has complained about budget 
cuts, that it can't manage it, for $1.4 million a year. I would 
just like to offer in the spirit of humor, I will take the $1.4 
and manage it for them and see how it goes.
    Mrs. Chenoweth. It is duly noted.
    Mr. Indehar. But seriously, how would I like to see it 
managed, and other people in my organization, we would like to 
see it managed as proposed by Congressman Oberstar last year 
and Senator Grams last year. We would like to see the Forest 
Service's absolute authority handcuffed a little bit. We would 
like to see them retain ownership. We would like to see them 
also be forced to not only take input from other levels of 
government--local, State, and tribal governments--into their 
plans, but also to have those units of gov-

ernment have some say, have a vote and a voice on how the area 
is managed.
    And our reasoning is simple. The reason is the local people 
and the wilderness users are the ones that bear the brunt of 
all the policy-making that comes out of here and all the 
decisions, and yet we have the least voice, and I think that is 
absolutely upside down. I think it is wrong zoning as such is 
being done from Washington, D.C., and perhaps we wouldn't be 
making this supposedly radical suggestion if the Forest Service 
hadn't been so inaccessible over the years, but they have. It 
is kind of like the term limits or other things. People get fed 
up, and you have to say you have to try something new; what is 
happening now is not working.
    We like the intergovernmental management approach that 
brings the power down closer to the levels of people that are 
the most impacted.
    Mrs. Chenoweth. Thank you very much.
    Mr. Conti, what other wilderness restrictions have you 
encountered, question number one? Specifically what has been 
the response of the National Park Service to your work in the 
desert, and can you talk about the deaths that occur in the 
Mojave Preserve and whether the services applying the access 
provisions--what are the services applying access provisions to 
their units?
    Mr. Conti. The reaction from the Parks has been a complete 
denial of any motorized vehicle access. In a first 
correspondence with Death Valley National Park, I inquired 
about access along traditional routes we have used for years to 
access the guzzlers before it became part of the park and part 
of designated wilderness. Not only did they disallow motorized 
vehicles access, but their opening comment to me was that if an 
inspection person were to go in to open the valve to provide 
water to wildlife, that that would be an artificial 
manipulation of the resource, and they would frown upon that.
    Joshua Tree National Monument several years ago proposed to 
remove the water collection device at an existing big game 
guzzler because it was an above-ground object, and they would 
like to remove man-made structures in the wilderness. I have 
made mention we could mitigate that. We would be happy to go in 
and remove the above-ground water collection system if we could 
put a system underground of perforated pipe that would collect 
residue water in the washes. Joshua Tree said, we will get back 
to you, and I found out 2 weeks later they got another team of 
folks from somewhere to remove the water collection device at 
an existing spring and guzzler.
    In regards to the deaths in the Mojave National Preserve, 
it is my understanding that there was some aerial study work 
being done by a contract biologist for the Department of Fish 
and Game. It was related to me they were not able to land in 
the wilderness for some of their activities. Most of their 
activities did involve just flying, but in all the other issues 
I have been involved, or any other Fish and Game State 
employee, we would routinely land and check out every guzzler 
in the immediate area where we were doing any census or 
research. And at that point it is very hard to say, but 
possibly if we had been able to land the helicopter and just 
rou-

tinely check the guzzlers in that area, we could have 
determined the problem and saved the lives of upwards of 50 
sheep.
    Mrs. Chenoweth. Thank you, Mr. Conti.
    The Chair recognizes Mr. Kildee.
    Mr. Kildee. Thank you, Madam Chair. I have no questions, 
but I want to thank the witnesses for their testimony.
    Mrs. Chenoweth. Thank you, Mr. Kildee.
    The Chair recognizes Mr. Pombo.
    Mr. Pombo. Thank you.
    Mr. Conti, during the debate on the Desert Protection Act, 
I introduced an amendment which would have left open a number 
of the roads, the historic roads throughout the area, and one 
of the reasons that was brought to my attention during that 
entire debate was exactly what you have testified here to 
today, that there were a number of water guzzlers that had been 
established throughout the years that acted as the only source 
of water for wildlife in the desert during the summer months, 
and that it was imperative that those be maintained. And during 
the debate on the Floor, I said that without access into those 
areas, that there were a number of them that would fall into 
disrepair, and what you are testifying to today is that that is 
exactly what has happened, that there are a number of guzzlers 
that have fallen into disrepair that are no longer operating, 
and the result is that the wildlife has suffered in the area 
because of that. How widespread has that become at this point?
    Mr. Conti. At this point, I would say upwards of 25 percent 
of the guzzlers are in danger of failure due to lack of access, 
particularly the five in Death Valley, three in Joshua Tree and 
six in the Mojave Preserve. Some of them require very long 
four-wheel drives and then additional lengthy hikes up the side 
of the mountain, because the sheep traditionally like the 
higher places, and access to those being restricted--you have 
to understand when someone goes in to inspect the guzzler, in 
their backpack they probably have two gallons of water for the 
day, two 24-inch pipe wrenches, as well as assorted valves or 
plumbing fittings, because if they run into something that 
happened over the winter, say a freeze break, they would like 
to get that up and operating as soon as possible, and with the 
length of hike required in many of these systems, it is going 
to be increasingly difficult to maintain these systems.
    Mr. Pombo. In your experience over the years of trying to 
protect the wildlife in this area, do you think that there was 
any real reason to close down all of the access points into the 
desert?
    Mr. Conti. No, I don't feel that that was a wise decision. 
Man has impacted that desert heavily. It is really not a true 
wilderness because there are so many mine roads and exploratory 
roads that have been established there for the last hundred 
years.
    Each system has, as it is built, in the environmental 
assessment, a proposed route of access that, including the 
driving and hiking areas is mentioned and described and adhered 
to, and with the BLM we do have latitude, we are working with 
them, because in title 1 of the bill covering the BLM lands, 
authorized access is allowed during the month of April and 
October for inspection.
    That really isn't enough inspection time to do the job. 
Preferably we would like to go in every month to maintain these 
systems, but the BLM has dictated that won't be the case. 
Access for maintenance to those in the parks and preserve do 
not fall under paragraph F, the fish and wildlife amendment 
that was added to the bill. At least that is how the parks and 
preserve are representing it to us, and at this point they are 
refusing any vehicle access.
    Mr. Pombo. What do you think is going to happen with the 
wildlife? I mean, are they migrating to a different area now as 
a result of there not being water?
    Mr. Conti. Bighorn sheep in particular are a localized 
animal. They will stick around the known water sources, and 
they are pretty much a homebody considering a mountain range or 
wilderness. Rams will wander and change from range to range 
because--that is becoming difficult also because we have so 
many highways and roads out there, particularly the 
interstates, that are a barrier to sheep migration or even a 
mixing of the gene pool, which is so important to a healthy 
herd, and the fragmentation of the resource is so great that 
man has to go back and help correct some of the situation.
    Traditionally the water sources that were available to 
wildlife have been used by miners, ranchers, farmers, 
groundwater pumping for the big cities, and they have lowered 
the water table or just usurped the historic water sources, and 
our effort is to restore water to historic ranges to augment 
wildlife populations.
    Mr. Pombo. So if you don't have access to do that, which is 
currently the case, and the sheep won't migrate to another 
area, what is going to happen?
    Mr. Conti. The sheep will perish, as will all the wildlife 
that depends on those guzzlers, including mule deer, bobcat, 
and fox and reptiles. They are designed so all the wildlife can 
get a drink from them.
    Mr. Pombo. Isn't that kind of contradictory with the stated 
purpose of establishing wilderness areas?
    Mr. Conti. I would think so, and I would think paragraph F 
of the fish and wildlife amendment would have allowed us more 
access.
    The BLM is being very restrictive, but when I twist their 
arm, I usually can get some sort of results as an outside 
entity. The Department of Fish and Game has great difficulty at 
interagency cooperation, and eventually the systems will fail 
without maintenance from us, and the wildlife that depends on 
them will also perish.
    Mr. Pombo. Thank you.
    Mrs. Chenoweth. The Chair recognizes Mr. Vento.
    Mr. Vento. Yes, Mr. Conti, I remember that the debate over 
the California Wilderness Act, there was a provisions added, I 
didn't favor it, that provided for motorized access to deal 
with the guzzlers. You are suggesting to me that that is not 
being permitted?
    Mr. Conti. That is correct.
    Mr. Vento. One of the issues you raised is there was an 
aerial survey that apparently located 50 Bighorn sheep that 
were dead, but wasn't that because one of the sheep fell into 
the water, and there was actually a problem with poisoning?
    Mr. Conti. That was the consequence. A system--the person 
that normally inspects that was under the impression that he--
well, he had no access to the wilderness, and the system 
managed to go dry.
    Mr. Vento.  Yes, I think it is important because we keep 
mixing the park and wilderness in terms of Joshua Tree. But it 
is a real dilemma, I might say, in terms of how we manage or 
how we try to manage game in parks and/or wilderness, because 
for instance around Camp David north of here, we got too many 
deer in the park. We have too many Buffalo in Yellowstone. So 
there is a real dilemma in terms of how you preserve and do 
this. And the Tetons, they shoot the elk when they cross the 
line, you know, and shoot the Buffalo when they go outside the 
park in Montana.
    The issue in terms of wilderness is very often the Forest 
Service today--not the BLM, I understand that--has the largest 
group of mules right now in the Nation. They actually preserve 
the maintenance of that cultural and historic tradition of 
Americans. As a Democrat, you might understand, I am sort of 
partial to mules and have sometimes been associated with them 
in other ways, not quite as affectionately, you might say. But 
I think in this particular issue, while there is a problem 
here, I think we need to explore that. So I don't know if it is 
so much the law in this case, because there is a specific 
provision as to how it is applied. Someone is doing studies. 
Things are going to change, but it would have been possible to 
use mules in that case, and of course we know from our other 
advertisements, mules seem to have made it through that type of 
terrain historically.
    I have to, of course, recognize Mr. Indehar that is here as 
someone who we disagree pretty much on some of the boundary 
water issues, to put it mildly. But I did want to see if we 
could get through this today with a couple questions.
    I know that Mr. Pavek you referred to in terms of the flag 
episode. I don't know the details of that. I don't know whether 
the Wilderness Act really prevents or limits flying flags. I 
expect you can have--I know one thing, in northern Minnesota 
one time when we had an incident occur in a park, actually 
someone decided they weren't getting the right price for it, so 
they started to paint the rocks and put up a giant plastic 
statue, trying to be as offensive as possible, because, in 
fact, they weren't getting what they wanted in terms of price. 
At the end of the day, they got a better price, and that solved 
the problem.
    So I think there are limits in terms of what people can do. 
I might say in this case I looked at that as sort of obnoxious 
behavior, but you have to bounce that off against what the Park 
Service was offering the guy for the land. I must explain that, 
Todd, you probably weren't up there, you were living in 
Minneapolis then. That is why I was picking on urban guys. I 
was wondering which camp you consider yourself?
    Mr. Indehar. I have seen it from both sides.
    Mr. Vento. But Mr. Pavek wasn't able to get a permit. That 
is important because a lot of wilderness areas don't have a 
permit system, and this is probably something alien to most of 
you. And we set that up, that is working with Representative 
Burton, Chairman Burton, at that time, and others, we set up 
the permit system because we realized there was a certain 
carrying capacity that this area could absorb. This was the 
most extensively used wilderness in the eastern United States. 
And, Todd, are there any type of limits? Do you think we should 
have some regulatory way to deal with that, or do you think we 
ought to just take all the permits off?
    Mr. Indehar. That is a good question. We see the reason for 
a permit system in the Boundary Waters. The question is, if I 
could answer your question, is not should there be a permit 
system, but should it be a well-managed permit system, and 
should the levels be set at levels that are reasonable for 
public access, and that is the zone that we are discussing.
    Mr. Vento. I think the other side is you want to set it not 
just where the access points are. We can always disagree about 
that, too. The other issue is how much use can that area we all 
want to protect--I guess how much use can it absorb?
    That is the question, and this is a question we haven't 
asked ourselves with regards to most areas. But this area, 
actually a million acres, imagine, is used that extensively 
that we have to ask ourself how much can it use.
    There are all sorts of problems that arose with it. I 
really regret the fact we ended up paying sort of the guinea 
pig in terms of this, but, you know, I think it is important 
that the Forest Service not discriminate against someone like 
Mr. Pavek. You point out in his statement, he says he applied 
for a permit on July 4. Well, that is one of the busiest times 
of the year, isn't it, today, in terms of the boundary waters?
    Mr. Indehar. No, it is not. A lot of people stay home.
    Mr. Vento. One of the busiest times of the year.
    Mr. Indehar. Of the whole year, but not of the summer 
months.
    Mr. Vento. I would assume it was. But he then points out he 
did get a day permit by going to the resort, so that was not 
issued by the Forest Service.
    Mr. Indehar. There is no quota on the day permits. Anybody 
can go in for a day.
    Mr. Vento. And then he said that there is some sort of 
anecdotal information, that he didn't see anyone else in 
Baswit, but that does not demonstrate that there were permits 
available; is that right?
    Mr. Indehar. In Dr. Pavek's case that is probably right, 
anecdotal. I have right here, Congressman, examples of permits 
that were supposed to be picked up and used by people that 
weren't, and we studied this and we found that depending on the 
type of permit that you are talking about, motor, paddle, 
overnight, day, between 20 to 50 percent of the permits that 
were reserved for entry to the Boundary Waters were never 
picked up, never used, and the vast majority of those because 
of Forest Service policy, we call them ``no shows'' when 
somebody doesn't show, are not put back into the system.
    Mr. Vento.  I agree that if the area can absorb that use, 
they ought to be available to be used. I might point out when 
you are talking about local use or local interest, something 
like 70 percent of the users are from outside the area, so they 
should have a voice, and they obviously do through me and 
through other Members of this Congress.
    Can I have consent to proceed for 2 additional minutes of 
questions?
    Mrs. Chenoweth. Without objection, each one of us will have 
an additional 5 minutes, Mr. Vento.
    Mr. Indehar, I am struck with your testimony about Mr. 
Pavek, a veteran, who is unable to fly the flag, and I think 
this is carrying policy to an absolutely ridiculous degree. 
This man fought for the ability to fly the flag from sea to 
shining sea in America, and I think it is very telling. It is 
an unfortunate example of how policy has run awry, and I thank 
you very much for interjecting that into your very interesting 
testimony.
    Mr. Indehar. Thank you.
    Mrs. Chenoweth. Your ideas have been very good, and I look 
forward to working with each and every one of you in the 
future.
    Mr. Conti, I want to let you know the California Bighorn 
sheep has been transplanted into the southern Idaho area. We 
cherish them there, and we had the opportunity last year to 
transport into five different States California Bighorn sheep. 
So I appreciate the ability to work with your organization and 
the State of California in helping to propagate the existence 
of this magnificent animal.
    Mr. Conti. Thank you.
    Mrs. Chenoweth. Mr. Baumunk, I am very interested in your 
testimony. Can you tell the committee much more about the 
economic value of the claims that you were talking about, and 
when National Park Service did their study, how much material 
did they find in the claims?
    Mr. Baumunk. In our mine we did a report stating that it is 
more than adequate to mine, is 1,775 feet wide, a mile long, 
and we just scratched the surface. Every time we go down 100 
feet in that mine, we have over 6 million tons of reserve, and 
they have found 1,089,000 tons plus at the first level of our 
mine that we have not mined out, and they only took in about a 
third of the ore body, in fact even less than that, that they 
were looking at. They just looked at what we had exposed in the 
tunnel that is 1,400 feet long, back into the mountain.
    Mrs. Chenoweth. That 1,800,000 figure you used was raw ore?
    Mr. Baumunk. Every time we have mined that, it's more 
extensive. You can see by the pictures there.
    Mrs. Chenoweth.  Can you tell us about the two wilderness 
maps that you have up there? What do the colors mean, and why 
is it that there is any problem with your mine in this area 
when it was recognized the valid and existing rights would be 
preserved?
    Mr. Baumunk.  Well, we have a thank you note to Mr. Martin 
for what he done against Rainbow Mine, put it in the 
wilderness. Saddleback Hills were designated nonsuitable for 
wilderness twice by the government, in 1980 and 1994 is the 
last time. Then 1992 they were all designated, not wilderness 
areas.
    Mrs. Chenoweth. To put it generally, sir, these are very 
interesting maps, and your mine has not only had its rights 
preserved, but it is not inside the wilderness. Now apparently 
the problem is then access, right?
    Mr. Baumunk. We are in the wilderness area, according to 
the park. We are showing the old boundary there on some of that 
and the new boundary together. I would like to have Mr. Gerald 
Hillier represent the maps and stuff. He can designate it 
better.
    Mrs. Chenoweth. This is the old mine up here.
    Mr. Baumunk. Mr. Hillier will do that for you.
    Mrs. Chenoweth. I wonder if without objection Mr. Hillier 
could answer the question.
    Mr. Hillier. Thank you, Mrs. Chairman. I am Gerald Hillier 
and represent San Bernardino County.
    The top map you are looking at is the old BLM study area, 
and it shows areas 219 and 20, which are surveyed and 
determined to be of higher mineral character. It is the area 
Mr. Baumunk referred to in the testimony as having the mining 
claims in them and having them be not suitable for inclusion in 
the wilderness system; represents what Congress finally passed 
and put that entire area and ignored the road that was the 
boundary between 218, 219 and 220.
    And, well, on the other map, the picture right there behind 
your head shows that road, and it shows the Park Service post 
in the middle of it, denying access to any but authorized 
vehicles, and when Congress passed the 1994 act, that road 
ceased to exist.
    Mrs. Chenoweth. With the red post right in the middle of 
it, right?
    Mr. Hillier. Yes, ma'am.
    Mrs. Chenoweth. Thank you very much. I see my time is up, 
and the Chair yields to Mr. Kildee.
    Mr. Kildee. Thank you, Madam Chair.
    I yield my time to Mr. Vento.
    Mr. Vento. I thank the gentleman for yielding to me. And, 
Mr. Indehar, I have to leave for another activity, and I didn't 
want to run away without talking about the issue of this permit 
system and the group size issue, which was a Forest Service 
recommendation made in the early 1990's. In your statements you 
imply that the Boy Scout groups who are from the Boy Scout 
canoe area, they weren't barred, were they?
    Mr. Indehar.  No, my specific statement specifically said 
after months of appeals and $100,000 in costs and a lot of bad 
press, the Forest Service was forced to allow the kids back in.
    Mr. Vento. Was that the rule and regulation procedure that 
you are talking about?
    Mr. Indehar. The administrative appeals process.
    Mr. Vento. The issue is that there were group size 
limitations that you were talking about, is that not the case, 
group size limitations in the rules and guidelines that they 
were buzzing to change; is that right?
    Mr. Indehar. That is right.
    Mr. Vento. And they didn't change them in the end.
    Mr. Indehar. Yes, they did, and they limited the water 
craft, so they effectively got a group size of eight.
    Mr. Vento. But they didn't limit Boy Scouts, it was to all 
groups; is that correct?
    Mr. Indehar.  Anybody who wanted to travel in a party 
greater than six. But the reason I bring up the Boy Scouts and 
Girl Scouts and church groups and the families is because we 
all participated in the public task force process, which was 
supposed to be a consensus-based process. We went for months 
and explained the ramifications economically and socially on 
the groups. Everybody agreed the group size of 10 was not 
causing a resource problem, it was a social problem, and the 
task force recommended a group size of 10, I have numerous 
supporting documents, yet the Forest Service came back and said 
six. They chose consciously to ignore our input.
    Mr. Vento.  They actually changed it to a higher number, 
but I think there was a lot of controversy. The Forest Service 
has gone the other way.
    You talk in here about the motorized portages, and in that 
case the word ``feasible,'' I would disagree with you as to 
whether or not that is a well-understood term of art by any 
lawyer. I am not a lawyer, but I think it is well-understood in 
terms of what it means, applied no different in the Wilderness 
Act as in the whole host of legal matters.
    Mr. Indehar. I didn't say that that was the--that was the 
lawyer of the preservationists that said that.
    Mr. Vento.  But there is a representation that is not 
understood, and I think it was understood as to what it meant, 
and, of course, there is a disagreement about what is feasible. 
The Forest Service agreed with the fact that the truck should 
continue to be used. On the Supreme Court decision not to hear 
the case, the Court turned it over.
    Mr. Indehar. Right at a critical moment they bailed out and 
left us hanging.
    Mr. Vento. Well, they turned it over, however you want to 
characterize it.
    Mr. Indehar. That is what happened.
    Mr. Vento. They turned it over. They refused to hear the 
circuit court decision, and that became final.
    Mr. Indehar. No. Our group, the city of Ely and others, 
took the case to the Supreme Court. We tried to get them to 
hear it. The Forest Service decided not to take it to the next 
level and then showed----
    Mr. Vento.  The Forest Service actually was--there are 
times they agreed with you and times when they don't, and when 
they don't agree with you, you obviously are choosing to part 
company with them; and when they do, you are not.
    I would just point out one other statement in here, and it 
is a quote from this book that you get into, but the 
characterization that I object to, Todd, and I would just call 
your attention to it, is a derogatory term in terms of 
referring to a former Member of Congress, and I would like you 
to take those words out of your statement. You are fully 
entitled to your own view, but I think representing that before 
this committee for someone that served is inappropriate.
    Mr. Indehar. Why do you think it is an inaccurate 
characterization?
    Mr. Vento. I just think it is inaccurate. I would not be 
the first to admit that my colleague obviously was not--you 
know, had consumed alcohol, but I don't think that that in and 
of itself indicates--I think it is an inaccurate 
characterization.
    Mr. Indehar.  I stand by my characterization, and the costs 
that that type of policy-making you are putting on thousands of 
people----
    Mr. Vento.  I am reclaiming my time. It is my time.
    Mr. Indehar.  I am sorry.
    Mr. Vento. You have had your time. The fact is that the law 
that occurred in 1978 that was passed was passed with the 
support of both Senator Muriel Humphrey and Wendell Anderson 
and Senators. It was passed with the support of the Governor at 
that point, it was passed with the support of the six or seven 
Members of the delegation, and to represent that this was 
simply the act of a Subcommittee Chairman who happened to be 
involved in some of the negotiations, and to characterize it as 
you have here is, I think, inaccurate, inappropriate and 
unfair.
    Mr. Indehar. I stand by my testimony.
    Mr. Vento. Thank you.
    Thank you, Mr. Chairman.
    Mrs. Chenoweth. The Chair recognizes Mr. Pombo.
    Mr. Pombo. Thank you.
    Mr. Indehar, you made the statement in your opening 
statement, in answer to the question, that you didn't think it 
was fair to have Washington, D.C., doing local zoning issues, 
and we have heard that a number of times on pieces of different 
legislation. But the response that we have always gotten from 
that kind of a statement is that these assets belong to the 
people of the United States, and that someone from New Jersey 
or Los Angeles should have every right to dictate what 
decisions happen, in your particular case with the Boundary 
Water. How do you respond to that kind of an argument?
    Mr. Indehar. Without getting overly technical or 
philosophical, I mean, what you are talking about is the public 
good argument for the public provisions of wilderness, and I 
think other people have written and spoken to that. The 
conclusion a lot of people have drawn is the preservationists 
haven't justified the fact that many--you know, that everybody 
is supporting a benefit for a relatively small number of people 
who actually use wilderness; that we are engaged in a massive 
transfer activity.
    I would also say the average person in L.A. or Chicago or 
Minneapolis is probably a decent American that believes in 
fairness and reasonableness, and if they really understood what 
burdens people who live near these areas are under because of 
Federal policy, that they would agree, and they would try to 
seek some balance between preservation and fairness.
    And that is the title of my talk, Towards a Humane and 
Effective Policy. We have to put the people part of this 
wilderness back into the equation. We need to start talking 
about it, particularly in my area that was carved out of one of 
the most dense areas in any of the whole wilderness 
preservation system. The social costs were tremendous. The 
economic costs were tremendous. The people in my community are 
still suffering from that, and nobody talks about it, nobody 
acknowledges it, and I say, it is a small price that this 
country could pay, this big public interest, the rest of the 
country could pay to Grand Marais and Tower and the other small 
towns to say what can we do for you that we can help ease this 
burden a little bit and return just a bit of fairness back to 
you. That is all we are asking for.
    That is all we are asking for. We are not asking to do away 
with the wilderness. We are asking for a small sense of human 
compassion and fairness.
    Mr. Pombo. Because it is so widely used, that particular 
parcel, that wilderness area, because it is so widely used, in 
hindsight would it have been more appropriate that that be 
designated a national park or some other type of conservation 
status be bestowed on that area other than wilderness? Because 
from what you are describing to me, it does not actually fit 
the requirements of the Wilderness Act.
    Mr. Indehar. You are right. Half of the areas, half of the 
area, 500,000 acres, have been entirely logged, resorts, all 
types of developments, roads, et cetera----
    Mr. Pombo. There is development within the area----
    Mr. Indehar. There was. People's resorts, cabins, homes, 
were bought out, dragged onto the ice, burned and left to sink. 
If you go scuba diving in some of our Boundary Waters today, 
you will go down there and you will find refrigerators, stoves, 
washing machines, and whatever else was there when the Forest 
Service got done littering the bottom of these lakes with this 
stuff.
    But the first thing you said, if I could take a second 
here, there is a myth that it is heavily used. They like to 
point out a million recreational visitor days, but a visitor 
day is 8 hours in the wilderness by one person in a party. A 
more accurate way to look at it is there are 25,000 permits 
issued for this million acre area over a 5-month span of the 
year, and when you average that use out, plus taken into 
account that anywhere from 20 to 40 percent of the people that 
appear to be in the wilderness based on permit reservation 
numbers, aren't actually getting in, you are finding a highly 
underutilize region.
    Mr. Pombo. How many people actually go into the wilderness 
area annually, individual people?
    Mr. Indehar. About 25,000 permits with an average group 
size of four. So----
    Mr. Pombo. One hundred thousand people----
    Mr. Indehar. You are looking at 100,000, plus there is some 
disagreement about the level of day use, people going in to 
pick berries in the wilderness or paddling around on a lake. 
They are not camping, building fires, portaging and doing that 
stuff. So essentially, the overnight 25,000 parties per year 
into a 5,000 square mile area.
    Mr. Pombo. You know, throughout the 4 years that I have 
been back here, one of the things that I have tried to do and a 
number of Members have tried to do is bring more local people 
into the decisionmaking process. When you establish a 
wilderness area or a park or some other Federal action, that 
more local people be brought in and allow to shape what it is 
going to look like and what the use is going to be. And I think 
that the testimony that we have heard from this panel, whether 
it is someone like Mr. Conti that is obviously concerned about 
the wildlife in the desert in California, whether it is someone 
like you who is a local activist, so to speak, someone who has 
gotten involved in the local problem, or Mr. Baumunk who has a 
right as a resource extractor from what is Federal lands. And 
bringing in the group as they would sit at this table, if you 
all represented the same wilderness area and you actually sat 
down together and said, how do we protect the environment, how 
do we allow people to have access, how do we allow some 
resource extraction from this area that does not disrupt the 
other two, I think by doing that we would actually reach some 
kind of a solution that everybody could live with.
    The problem that we have run into, though, is that a lot of 
people are afraid to allow that to happen, because that takes 
too much power away from Washington. And the decisions are no 
longer made here; it is actually being made by real people who 
would have to live with the results of that decision. And I 
don't think that a Member from Tracy, California, can 
legitimately dictate exactly what the use of the Boundary 
Waters should be.
    Mr. Indehar. I agree.
    Mr. Pombo. And I think that you do need to bring local 
people in. Because they have competing interests, competing 
desires, competing agendas, and most of the time that we have 
been able to do this and actually bring local people in, they 
can find solutions, they can find ways that we can all live 
with that meets the needs that they want, and I think that on 
cases like this, this is really where we need to move in that 
direction. But I thank the panel very much for your testimony.
    Mr. Indehar. Thank you.
    Mrs. Chenoweth. Testimony from this panel has been 
absolutely outstanding, and Mr. Brown, I don't know whether you 
should consider yourself fortunate or not for not being 
peppered by this panel with the mood that we are in today.
    But I do want to let you know that the four points that you 
made in your testimony were outstanding, and I do want to work 
further and I will be having a hearing on the impact of 
wilderness policy on outfitters and guides. I hope Knoxville, 
Tennessee, isn't too far to come back. I know it is a 
sacrifice, but we are working together to be able to craft and 
enforce better policy.
    It is something--the issues that you brought out in your 
testimony are something I am keenly aware of in what is 
happening in Idaho, and it is a complete distortion of what 
Senator Frank Church, father of the 1964 Wilderness Act, who 
worked closely with outfitters and guides across the Nation, 
and I have studied all of the hearing testimony and the debate 
before Congress, as well as the act and ramifications, and he 
would be so utterly surprised to see what has happened to the 
outfitters and guides.
    I thank you very much for your valuable testimony. And to 
all of you members, or participants in this panel. Thank you 
very, very much.
    Mr. Baumunk. Thank you, ma'am.
    Mrs. Chenoweth. The Chair will recognize the final panel. 
The Chair recognizes George Nickas, a Policy Coordinator of 
Wilderness Watch in Missoula, Montana; and Darrell Knuffke, 
Western Regional Director of The Wilderness Society, 
International Falls.
    Before we begin with the testimony of Mr. Nickas, I do want 
to say that the Chair was open to having more people with your 
persuasion and the input that you could bring to this 
committee, but it looks like you are going to be having to pack 
all these horses, just the two of you, because only you were 
willing to come and offer your point of view. But I thank you 
very much for sacrificing this day and all the time it has 
taken to prepare for this.
    The Chair now recognizes George Nickas for your testimony.

  STATEMENT OF GEORGE NICKAS, POLICY COORDINATOR, WILDERNESS 
                             WATCH

    Mr. Nickas. Chairman Chenoweth, Congressman Kildee, we 
appreciate your staying around to hear this testimony. I am 
George Nickas, Policy Coordinator for Wilderness Watch. I 
appreciate the opportunity to provide our views on the 
management of our Nation's priceless wilderness heritage.
    Wilderness Watch is a national organization whose focus is 
the stewardship of lands within the national wilderness 
preservation system. We consider ourselves strict 
constructionists of the Wilderness Act. We do not seek to limit 
any rights explicitly granted in the law, nor do we attempt to 
find rights and privileges that don't exist in the legislation. 
Put another way, we believe the Wilderness Act means what it 
says.
    The president of our organization, Mr. Bill Worf, who is in 
attendance today, was the first head of wilderness management 
in the U.S. Forest Service. Bill was a member of the task force 
that drafted the regulations in 1964 that implemented the 
Wilderness Act, and he directed the development of the Forest 
Service Manual policy for the day-to-day management of 
wilderness on the national forests. The regulations and policy 
remain largely intact, and that is as it should be, since the 
intent of the Wilderness Act is remarkably clear.
    The issues discussed today aren't new. They were debated 
for 8 years leading to passage of the act, and in virtually 
every piece of wilderness legislation passed since that time. 
The complaints you have heard have nothing to do with 
overzealous managers or an unworkable law. Instead, for the 
most part, they represent the simple truth that some folks 
don't believe their personal use of the land should be 
restricted by wilderness designation, or who in some cases 
don't believe they should be bound by the law or held 
accountable for their actions. If we decide to grant exceptions 
for every special interest, we won't have a wilderness system.
    Wilderness management isn't easy. As the pressures from an 
increasing population accompanied by growing mechanization come 
to bear on the wilderness system, the need for strong 
leadership in the agencies and the unequivocal support from 
Congress are essential. What is needed most of all is a 
commitment from the management agencies to adhere to the letter 
of the law and to insist that wilderness users do likewise.
    The wilderness systems face significant challenges. Let me 
note just a few.
    Wilderness ecosystems are being dramatically altered by the 
introduction of exotic plant and animal species. In some cases 
the introductions have been unintentional, as is the case with 
many of the weeds that now proliferate along trails, at trail 
heads and other human impact sites. Sometimes, exotics are 
intentionally introduced. This is true in the case of non-
native game and fish species. Commercial interests are being 
granted de facto private rights through camp site reservations 
and are allowed to routinely violate the Wilderness Act's 
prohibition on structures and installations. Despite a Federal 
court ruling that this policy violates the act, the Forest 
Service continues to sanction this practice in a number of 
wildernesses.
    Snowmobiles have become a major source of wilderness 
violations. The statistics are staggering. It is estimated 
there are thousands of violations in the Boundary Waters Canoe 
Area Wilderness each year. Last year, there were 472 violations 
confirmed in the Absaroka-Beartooth Wilderness, only 7 
perpetrators were caught and cited. Significant trespass 
problems exist in other wilderness areas, in Colorado, Oregon, 
Montana, Utah, Wyoming, and California. Even with a strong law 
enforcement effort, it is extremely difficult to catch most 
violators. Severe penalties are a necessary deterrent when the 
risk of getting caught is so low.
    Wilderness Watch applauds those wilderness managers who 
have had the courage and conviction to prosecute those who 
willfully violate the law. We also support and are 
participating in efforts to promote responsible riding and 
winter safety messages. We are convinced, however, that all the 
education in the world will do little to solve the problem 
without a strong law enforcement effort.
    In some wildernesses, aircraft overflights and landings 
have increased to the point where wilderness values are 
nonexistent in some places in some times of the year. Yet there 
is very little regulation or monitoring of this use, nor is 
there any effort to assess the impacts of this use on 
wilderness visitors or wildlife.
    Wilderness use is increasing while the number of wilderness 
rangers declines. Recreation use has increased continuously 
since the passage of the Wilderness Act. In the 54 original 
national forest wildernesses, visitation in 1994 was 86 percent 
higher than in 1965. It doesn't seem like very many people are 
being excluded. Clearly, Americans love their wilderness system 
and will continue to seek out its benefits in record numbers.
    At the same time record numbers are entering wilderness, 
the management agencies seem to be downsizing their seasonal 
wilderness ranger staffs. These rangers are the backbone of the 
wilderness protection effort. While the wilderness budget for 
the Forest Service has decreased for each of the past 2 years, 
the downsizing can't be explained by reduced budgets alone.
    Looking at a longer time line indicates that the amount of 
money spent on wilderness management doubled, after inflation, 
between 1987 and 1996. The bureaucracy is intact but the 
rangers are gone and with them the first line of wilderness 
defense.
    Americans are rightly proud of their wilderness heritage 
and the commitment they have made to secure it for future 
generations. Congress must see to it that the wilderness system 
is given the attention it deserves from land managers. Congress 
must also see to it that those managers who work to preserve 
the sanctity of wilderness and uphold the strict guidance in 
the Wilderness Act get the support they need. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Nickas.
    [The statement of Mr. Nickas may be found at end of 
hearing.]
    Mrs. Chenoweth. The Chair now recognizes Mr. Knuffke.

 STATEMENT OF DARRELL KNUFFKE, WESTERN REGIONAL DIRECTOR, THE 
                       WILDERNESS SOCIETY

    Mr. Knuffke. Thank you, ma'am. Members of the panel, thank 
you for giving us the opportunity to be here today.
    My name is Darrell Knuffke. I am the Western Outreach 
Director for The Wilderness Society, and we represent 320,000 
members across the country.
    After hearing the first panel, I believe I should quickly 
say I am an avid hunter and an avid angler, and I was last on a 
snow machine 3 weeks ago going ice fishing.
    We are here today to talk about wilderness and how we 
manage these special places. I think that discussion needs a 
context, and the context must be the national wilderness 
preservation system. And I would like to make three points 
about that.
    The national wilderness preservation system is the national 
treasure protecting some of the most rugged and beautiful 
landscapes as well as some of the most intact and productive 
biological systems left on the planet. Americans are drawn to 
our wilderness areas, many of which are fragile and can be 
damaged if they are not managed carefully and sensibly, 
protected from motorized use and other threats.
    Third, the protection of our wilderness resources for the 
``American people of present and future generations,'' those 
last words from the Wilderness Act itself, will require strong, 
consistent enforcement applied fairly and equally to all 
persons regardless of rank or status.
    It was 50 years ago this year that Aldo Leopold was 
completing work on his Sand County Almanac. That work has 
shaped a half century of conservation thought in this country. 
It was Sand County Almanac that gave us what we have come to 
call the land ethic. In one essay, entitled, ``The Ecological 
Conscience,'' Leopold said this to us: ``A thing is right only 
when it tends to preserve the integrity, stability and beauty 
of the community, and the community includes the soil, waters, 
fauna and flora as well as the people.'' The highest expression 
of that ideal in our mind is the national wilderness 
preservation system.
    For all its apparent size and ruggedness, our wild land 
resource is a fragile one, the threats to it are many and 
varied, and our own love of wilderness and eagerness to use it 
are very near the top of that list. Wilderness popularity 
grows, and by that I mean both the number of Americans who 
support the idea of wilderness as well as those who choose to 
directly use the wilderness.
    It is worth noting that we are here today at least partly 
in response to events that involve people going into their 
wilderness areas, perhaps inadvertently and ill-equipped, 
perhaps ill-advised or even illegally, but make no mistake, 
they were drawn to their wilderness; millions of Americans are.
    It is also true that some don't love wilderness, think we 
have too much set aside and don't want more of it, and they 
also argue occasionally that wilderness is somehow antipeople. 
When the Congress passed the Wilderness Act of 1964, it didn't 
think so and we don't, either. The Congress explained its 
decision in 1964 using these words, ``to secure for the 
American people of present and future generations the benefits 
of an enduring resource of wilderness.''
    Wilderness, then, is for people, for us as an idea to 
embrace and use, but wilderness is not first and only for 
direct human use, and when we enter it we must do so on its 
terms, not ours, and in ways to protect and respect two things 
very specifically. The first is the integrity of the wilderness 
itself, and the second is the ability of everybody else who 
wants to go there to have what we call a wilderness experience.
    At the threshold, then, wilderness is a place without 
motors, deliberately and specifically without motors, but not 
slavishly without motors, not insanely and insensitively 
without motors. When human health and safety are at issue, that 
ideal must stand aside, and it does. There is sufficient 
flexibility in the Wilderness Act to allow this, sufficient 
flexibility in the agency's regulations to implement it, and I 
think it is worth noting, particularly on the heels of Mr. 
Unser's testimony, Mrs. Chenoweth, that the issue is not 
whether the Forest Service permitted a motorized search for Mr. 
Unser and his friend. It did so without delay.
    The question in that case is whether or not Mr. Unser was 
in a wilderness area, with a motorized vehicle, deliberately or 
inadvertently. I think that is the issue. Unfortunately, I 
think we are hearing only one side of that, because the Forest 
Service is somewhat constrained because the issue is now before 
a Federal magistrate.
    So what we know of it we know anecdotally, from press 
reports, we have Mr. Unser's account and it was a harrowing 
story, no doubt about that. I grew up in Colorado. I know 
something about mountain winters. I think the fear was real, 
the danger was real. We are glad he came out. The question is 
how did he go in.
    I would be happy to answer questions, if I can.
    Mrs. Chenoweth. Thank you. Thank you very much for that 
good testimony, and I agree with you, I think we will just wait 
and see what the court comes up with.
    [The statement of Mr. Knuffke may be found at end of 
hearing.]
    Mrs. Chenoweth. I noticed in the wilderness preservation, 
the Wilderness Act of 1964, it does exclude emergencies from 
the strict concepts of wilderness management or nonmanagement, 
and while the Unser story is dramatic, yes, and it made a 
point, my concern has been that there have been other incidents 
such as a Boy Scout who was lost and apparently ran away from 
home and got into mischief, but even though he ran away from 
home and was in mischief in the wilderness, his life is as 
valuable as any other human being's. I was appalled that the 
helicopter could not land and bring that boy back to his 
parents.
    So as I listened very carefully to both of your testimony, 
I think that there are many areas that we can agree on in 
trying to focus the public policy implementation that we are 
both concerned about, and I want to personally thank you for 
your patience and perseverance in this 4-plus hour hearing so 
far. Thank you very much.
    Mr. Nickas, you have come all the way from Missoula, 
Montana. Tell me what you feel. Did you serve in the armed 
forces at all?
    Mr. Nickas. No, I didn't.
    Mrs. Chenoweth. And that really doesn't make any difference 
to the substance in this hearing, but I did wonder about what 
your feelings would be with regard to a veteran being allowed 
to display the American flag. How would you feel about that 
personally?
    Mr. Nickas. I would feel the same for a veteran as anybody 
else who wanted to display the American flag. I don't know 
about the particulars in that instance, it may be that the flag 
was being used in a way or flown in a way that interfered with 
others' wilderness experience. I can envision a huge flag 
sitting on the edge of a lake, and the other people who came to 
that lake perhaps came to the wilderness in order to get away 
from the sights and sounds of other people, and there was a 
concern that it might be interfering with other people's use.
    There are programs called Leave No Trace and Soft Paths, 
and there are educational programs for wilderness users, and 
they talk about things like even trying to get away from buying 
brightly colored backpack equipment, because you get up in an 
alpine basin, and a bright green tent across the basin is seen 
by everybody. Most people want to go to the wilderness to get 
away. They want to be with the people they go with and don't 
want to encounter other groups. So you have to be sensitive to 
that when you are in the wilderness. And it may have been it 
was being done in a very insensitive manner.
    I am sure if he was displaying a little American flag or 
had an American flag on his backpack or shoulder or something 
like that, I doubt there would be any issue involved here. So 
let's find out more about that one.
    Mrs. Chenoweth. Thank you, Mr. Nickas.
    Do you agree that there should be a lot more common sense 
involved in any situations where life may be in danger or 
someone has been injured about giving an exemption to motorized 
vehicles to go in and do rescue?
    Mr. Nickas. My experience has been that the agencies have 
been extremely liberal in allowing the use of motorized 
equipment in the case of emergencies in the wilderness.
    Mrs. Chenoweth. How do you feel about the use of motorized 
equipment to rescue, say, a gray wolf?
    Mr. Nickas. The Wilderness Act allows for the use of 
motorized equipment when it is the minimum necessary for the 
administration of the area as wilderness. In the case of 
preserving an endangered species, you probably have Endangered 
Species Act issues as well, and in fact it might be 
justifiable. But I would have to know a little bit more about 
the specific case.
    I would have to say in every case it would not be the right 
thing to do to be flying helicopters or taking other motorized 
equipment into wilderness to rescue an injured animal.
    Mrs. Chenoweth. Mr. Knuffke, you mentioned, both of you 
mentioned, the use of law enforcement inside the wilderness. 
Could you elaborate on that for the record, please?
    Mr. Knuffke. I am sorry, ma'am. I didn't hear the question.
    Mrs. Chenoweth. You both in your testimony mentioned law 
enforcement activities inside the wilderness to make sure the 
values established under the act are maintained. Could you 
elaborate on that for the record?
    Mr. Knuffke. Sure. By its definition, ma'am, wilderness is 
rugged, remote, in some cases big, in other cases not so big. 
We don't fence it. We can't always have signs posted around the 
perimeter. So a lot of an individual's responsibility toward 
wilderness begins with knowing where it is.
    We can never afford to have enough rangers on the ground. 
As George said, we are having fewer these days, not more. Nor 
do I suggest that we should. Absent our ability to contact 
folks as they might head into a wilderness, I think we have to 
be very careful to cite violations when we catch them, and I 
think that may have been at work in the Forest Service thinking 
in the case of Mr. Unser's situation. But again, I know no more 
about that than what I heard this morning and what I read in 
the papers about it.
    I think that we have to appreciate these rules, respect 
these rules for the same reasons that, as I mentioned in my 
prepared statement, that able-bodied drivers are very careful 
not to park in disabled parking spaces even though they happen 
to be unoccupied at the moment. The fact is that if we occupy 
them improperly, those who have a greater need cannot. So we do 
that. So we sit at stop lights on deserted streets late at 
night and wait for them to turn green, even though no one is 
there. It is respect for the law. We cannot possibly patrol 
wildernesses as thoroughly as I have suggested. If I did 
indeed, I apologize for that suggestion.
    Mrs. Chenoweth. Thank you. The Chair recognizes Mr. Kildee.
    Mr. Kildee. Thank you, Madam Chair.
    The present wilderness law permits the use of vehicles to 
go in for emergency purposes and to rescue people in 
difficulty, it is part of the Organic Act of 1964, and we 
generally put it into the specific wilderness, so it is there. 
Sometimes they might not feel the dangers and be aware of it 
but it is in the law and the Congress' intent that exceptions 
should be made, particularly when human life or other 
emergencies are taking place.
    Let me ask both of you, gentlemen, if you could, do you 
have an opinion on the regulations which the Forest Service put 
on Crooked Lake in Sylvania in Michigan, regulations regarding 
the use of motor boats?
    Mr. Knuffke. I do, and my understanding of that too, 
Congressman, is somewhat different than what I thought I heard 
this morning. And it is that those private landowners there, 
whose property rights matter, should matter to us all, are not 
being told they cannot bring boats, not even being told that 
they cannot bring motor boats. They are being told to remain 
consistent with the Wilderness Act they must use electric 
motors and observe some no-wake speed. So they still have 
access to the lake.
    I guess they are also being told that they are not allowed 
to use sailboats by the Forest Service regulations. Sailboats 
have been defined as mechanical devices, and another concern 
there is the visual profile. That, I think, speaks to the 
Forest Service's proper concern for the experience of others 
using that wilderness, while still trying to balance that 
against private property owners' continued rights in that 
place.
    Mr. Nickas. If I could just add to that, I agree with what 
Darrell said. My understanding is that when the Forest Service 
was contemplating regulations of motorized use in that area, 
that by and large, the public asked that there be no motors 
allowed on Crooked Lake in the wilderness, and the Forest 
Service, to meet the concerns of the people who wanted to use 
motors, went ahead and allowed some motors to be used. So we 
hear a lot of talk about what local people want and those kinds 
of things, and it appeared in this case they didn't want the 
use of motors on Crooked Lake, but they are being allowed 
nonetheless.
    Mr. Kildee. It would seem that there may be some 
distinction between where the entire lake--I am just wondering 
out loud--the entire lake is owned, all the lake or part of the 
lake is owned by the Federal Government and it is a more 
difficult situation when only part of the lake is shrouded by 
wilderness area. So I am sure that requires discussion with the 
other landholders and property holders in the area there. But I 
am sure we have areas where there are lakes totally shrouded by 
wilderness areas where the Federal Government has exercised its 
right to exclude motor craft.
    Mr. Knuffke. That is correct, Congressman. The only 
exception that I know, and we have heard that is the Boundary 
Waters Canoe Area in Minnesota, and we often refer to that 
wilderness in two different ways, one as the Nation's most 
popular, given the magnitude of use, and, second, our most 
motorized wilderness. Those are a contradiction in terms, but 
those were bargains that were struck in----
    Mr. Kildee. But that was put in the legislative language.
    Mr. Knuffke. That is correct.
    Mr. Kildee. In the act when it was enacted by Congress.
    Mr. Knuffke. But I personally know of no other situations 
where you have a lake wholly within a wilderness area that is 
public land where motorists are permitted.
    Mr. Kildee. Thank you very much, gentlemen.
    Mrs. Chenoweth. Thank you, Mr. Kildee. The Chair now 
recognizes Mr. Pombo.
    Mr. Pombo. Thank you.
    As the Chair rightfully pointed out, when we talk about 
bringing local people in to help make these decisions and to 
help draft what it will look like, there is a difference 
between doing that when you have private property owners that 
are involved and when you are talking about all Federal land. 
And I think that he rightfully pointed out that in this 
particular case, there is a difference.
    In this case, you were dealing with a lake that is 
partially privately owned and partially federally owned, and in 
other cases, it may be all Federal ownership, all public 
ownership, and in that case, you do have to rely on local 
people and what their opinions are. But when you are dealing 
with private property owners, you have a different level that 
you have to obtain and that is to protect the property rights 
of those who are involved. And I didn't want that to be 
misunderstood as exactly what the difference is between those 
two.
    In terms of testimony we heard earlier dealing with the 
California desert and the big horn sheep and the other wildlife 
in that area, knowing that access to those guzzlers in their 
remote area is the way it is, I am sure both of you are aware 
of that particular situation.
    Would you in that case allow responsible individuals to 
have access into that wilderness area to take care of those?
    Mr. Knuffke. Mr. Pombo, I think I would allow that if it 
were for me to say, only with the greatest reluctance and only 
to use a term that George used a moment ago, the minimum tool. 
If there is no other feasible way to do it, then we can talk 
about that. If there are other alternatives, then I would 
rather not talk about motors in the wilderness. And some of 
that comes from an experience. While I have explicitly--while I 
enthusiastically support our public land managers, I would 
mention an example in southwestern Colorado.
    We had a landslide there and it was on a trail, a rockfall 
more correctly, on a trail used fairly heavily by horsebackers, 
and the repositioning of the rocks posed a hazard and the 
Forest Service was mindful of that and wanted it out of there.
    The land manager in that case resorted first to dynamite, 
which did not strike me as the minimum tool under the 
definition. We wondered why perhaps using a few more humans we 
couldn't go in there with single jacks and sledgehammers, the 
way old miners did, and bust them up and move them on down the 
slope. So my experience has been that Federal land managers 
have been perhaps too eager to resort to motorized intrusions 
in the land instead of slower, more time consuming alternatives 
to motors.
    Mr. Nickas. I would add to that that I think maybe 
sometimes we need to step back just a little bit from the 
supposed issue in front of us, whether or not they should be 
using motorized access, and ask whether or not those guzzlers 
are really appropriate in many instances.
    My experience is a lot of times people come in proposing 
different sorts of wildlife habitat manipulation activities, 
simply to enhance a certain wildlife population. The Wilderness 
Act talks about wilderness being areas where earth and its 
community of life are untrammeled by man, retaining its 
primeval character and influence which is protected and managed 
so as to preserve its natural conditions.
    Oftentimes, the whole purpose of things like that is to 
trammel the land, try to modify, to try to make that wilderness 
something we think it ought to be, rather than what it is. So I 
think that sometimes we have to sit back and say if we need to 
violate the basic tenet of the act against motorized use, maybe 
the activity itself needs to be brought into consideration.
    Now, the earlier witness raised some good issues 
surrounding sometimes their native water sources have been 
usurped by other activities, but maybe we should look at those 
other activities. We are talking about a very, very, very small 
percentage of the land base in this country that has been set 
aside. And some of those areas, we need to give up our 
insistence of humans to dominate that land and dictate what 
species exist and at what levels. So I would say in that case, 
and I am not familiar with the specific instances, we need to 
look real hard whether guzzlers are the right thing or----
    Mr. Pombo. Not referencing that specific case but in 
general, then would it--what you are saying is, and in that 
case, it is not a good case because you are talking about an 
area that has had heavy human involvement for over a century, 
so you can't say that this wilderness area is natural. It is 
natural in its current state, but it is not the way it would 
have been if man had never been on this earth. There is a huge 
difference there. But in other wilderness areas, are you saying 
that we ought to just leave the area alone and whatever lives, 
lives, and what dies, dies, and that is natural so we are just 
going to allow it to happen?
    Mr. Nickas. That is basically what the Wilderness Act says. 
As Howard Zahnisev said, we need to learn to be guardians, not 
gardeners. And so, yeah, generally, what lives, lives, and what 
dies, dies, in wilderness areas.
    Mr. Pombo. Let me put this, and I understand my time has 
expired, but let me put this in a little bit different context, 
in terms of endangered species, and this was mentioned a little 
bit earlier with the gray wolf. What about the unnatural 
activity that occurs under the Endangered Species Act as a 
result of man's desire to not allow a species to become extinct 
or to slip into being more endangered than it currently is? 
Would that also fall into that category that you are talking 
about in terms of wilderness?
    Mr. Nickas. Well, the regulations that currently exist 
speak to endangered species and they allow for the introduction 
or reintroduction of endangered species into habitats where 
they existed prior to designation.
    Mr. Pombo. But that is unnatural, so would that not be 
contradictory to the intent of the Wilderness Act as you just 
described it?
    Mr. Nickas. Well, you can--the intent of the act is that 
the areas will be managed to preserve their natural conditions. 
And I think if you are restoring an extirpated species to the 
wilderness, then what you are doing is working to preserve the 
natural conditions.
    How you do that, Darrell mentioned the minimum pool sorts 
of tests and things like that. I think those all have to be 
part of the decision. There are also things in the regulations 
that talk about if wildernesses are needed for these kinds of 
efforts, they can be used, but suggest that other places be 
looked to for more manipulative types of activities that are 
required in some cases. So I think when you look at the act and 
look at the regulations dealing with endangered species, they 
work pretty well right now.
    Mr. Pombo. Well, Madam Chairman, I think we all strive for 
consistency, and these issues that we are dealing with right 
now are oftentimes very difficult for us to deal with from 
Washington and, you know, when we look at the underlying 
reasons why we have wilderness areas, the intent of man when it 
comes to endangered species, I think we have conflicting needs 
when it happens that way, and, you know, if the Fish and 
Wildlife Service wants to go in to fix the guzzlers, if it is 
the fact that it is this other group that wants to come in and 
fix them, that makes it bad. And I think when we look at a 
number of these issues, it becomes more difficult.
    I appreciate your testimony, and like the Chairman, I 
apologize for the long wait that both of you had today, but 
thank you.
    Mr. Knuffke. Mr. Pombo, if I may, in response to one of 
your comments, I would be as quick to criticize the Fish and 
Wildlife Service for casually invading the wilderness as I 
would their giving permission to someone else to do it. We 
think that those rules ought to stand pretty firmly against 
every casual use of motors.
    Mr. Pombo. Even if they are reintroducing gray wolves into 
the wilderness area.
    Mr. Knuffke. Well, it seems to me the decision not to go in 
to snatch out that gray wolf was a decision by the land 
manager. And I think you mentioned the unhappy incident, ma'am, 
in New Mex-

ico with the Boy Scout. The folks on the ground nearest this 
young man found him to be OK, and generally well equipped, 
which was certainly not the case with Mr. Unser. He was capable 
of taking care of himself and they got him out without mishap. 
I don't know about the wolf. That may be a less fortunate 
ending. It is difficult. When we give land managers authority, 
that involves human errors and gives us the right to second 
guess them and makes their job difficult. But I prefer to leave 
it to them, reserving my right to criticize.
    Mrs. Chenoweth. Thank you, Mr. Knuffke.
    I just wanted to ask one more question. It seems to me that 
because life itself is a dynamic, in and of itself, and that 
our wilderness system is dynamic because of the life and death 
cycle not only of the animal species but also the plant species 
there, I have always wanted to ask you, how can we preserve 
those systems based on the natural dynamics of life and death, 
inside and outside the wilderness? Could you help me out there?
    Mr. Knuffke. Ma'am, I will do my best. It is not an easy 
question, you might as well ask me to explain the universe.
    I think what we strive for in the Wilderness Act is to set 
aside places sufficiently varied and to let the natural 
processes that you describe occur with the least possible 
interference by humans and manipulation by humans. That does 
not mean that we don't use motors in there to rescue people who 
have got themselves into trouble and for a variety of other 
reasons, and we really can't in significant ways defend our 
wilderness areas, we are discovering, against the impact of air 
pollution that may originate 1,000 miles away. But to the 
extent possible, I think it is an ideal toward which we must 
strive, recognizing the limits of our abilities and our own 
imperfection.
    Mrs. Chenoweth. Thank you, Mr. Knuffke.
    Mr. Nickas, did you have a comment?
    Mr. Nickas. Well, yes. I just wanted to say what we are 
doing in wilderness is trying to let those natural systems 
operate, and we don't always know where that is going to take 
us. We don't always know what is going to happen, but that is 
the beauty of wilderness, that is the laboratory of wilderness, 
that is the wildness of wilderness. So that is the best we can 
do is let those systems operate and we will see what happens.
    Mrs. Chenoweth. Thank you very much.
    Mr. Knuffke. Ma'am, could I impose on the committee for one 
comment having to do with the comment you made in your opening 
statement, your concern about wilderness and whether or not it 
is accessible by folks with disabilities. That is a question we 
have all thought quite a bit about and, that is, through 
Chairman Hansen's leadership several years ago, the President's 
council, National Council on Disability, undertook a study of 
precisely that question, and subcontracted the study to an 
organization called Wilderness Inquiry. The findings of that 
report were that by a whopping margin, about 75 percent, 
disabled Americans don't want anything done in wilderness in 
the name of accessibility that will damage what wilderness is. 
Folks who bother to go in there with wheelchairs, which are 
fully allowable, go there for the same reasons the rest of us 
do and they want it to stay that way.
    I would be happy to submit that study to the committee, if 
you would like.
    Mrs. Chenoweth. Without objection, I would be very 
interested in that. So ordered.
    [The information may be found at end of hearing.]
    Mrs. Chenoweth. Mr. Kildee, did you have any other comments 
or questions?
    Mr. Kildee. Just a comment. I think you have conducted this 
hearing with good control and great courtesy, and I very much 
appreciate it.
    Mrs. Chenoweth. Well, thank you.
    I want to thank the final panel, boy, you have endured a 
lot. Mr. Knuffke, you have endured my mispronunciation of your 
name, and I want to say, you ought to see how they mangle 
Chenoweth sometimes, accidentally and on purpose. Thank you, 
and I hope you can catch up on your lunch. This meeting is 
adjourned.
    I do want to say, by the way, for the record, the record 
will remain open for 10 days should you wish to supplement your 
testimony. Thank you.
    [Whereupon, at 2:43 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

[GRAPHIC] [TIFF OMITTED] T1004.001

[GRAPHIC] [TIFF OMITTED] T1004.002

[GRAPHIC] [TIFF OMITTED] T1004.003

[GRAPHIC] [TIFF OMITTED] T1004.004

[GRAPHIC] [TIFF OMITTED] T1004.005

[GRAPHIC] [TIFF OMITTED] T1004.006

[GRAPHIC] [TIFF OMITTED] T1004.007

[GRAPHIC] [TIFF OMITTED] T1004.008

[GRAPHIC] [TIFF OMITTED] T1004.009

[GRAPHIC] [TIFF OMITTED] T1004.010

[GRAPHIC] [TIFF OMITTED] T1004.011

[GRAPHIC] [TIFF OMITTED] T1004.012

[GRAPHIC] [TIFF OMITTED] T1004.013

[GRAPHIC] [TIFF OMITTED] T1004.014

[GRAPHIC] [TIFF OMITTED] T1004.015

[GRAPHIC] [TIFF OMITTED] T1004.016

[GRAPHIC] [TIFF OMITTED] T1004.017

[GRAPHIC] [TIFF OMITTED] T1004.018

[GRAPHIC] [TIFF OMITTED] T1004.019

[GRAPHIC] [TIFF OMITTED] T1004.020

[GRAPHIC] [TIFF OMITTED] T1004.021

[GRAPHIC] [TIFF OMITTED] T1004.022

[GRAPHIC] [TIFF OMITTED] T1004.023

[GRAPHIC] [TIFF OMITTED] T1004.024

[GRAPHIC] [TIFF OMITTED] T1004.025

[GRAPHIC] [TIFF OMITTED] T1004.026

[GRAPHIC] [TIFF OMITTED] T1004.027

[GRAPHIC] [TIFF OMITTED] T1004.028

[GRAPHIC] [TIFF OMITTED] T1004.029

[GRAPHIC] [TIFF OMITTED] T1004.030

[GRAPHIC] [TIFF OMITTED] T1004.031

[GRAPHIC] [TIFF OMITTED] T1004.032

[GRAPHIC] [TIFF OMITTED] T1004.033

[GRAPHIC] [TIFF OMITTED] T1004.034

[GRAPHIC] [TIFF OMITTED] T1004.035

[GRAPHIC] [TIFF OMITTED] T1004.036

[GRAPHIC] [TIFF OMITTED] T1004.037

[GRAPHIC] [TIFF OMITTED] T1004.038

[GRAPHIC] [TIFF OMITTED] T1004.039

[GRAPHIC] [TIFF OMITTED] T1004.040

[GRAPHIC] [TIFF OMITTED] T1004.041

[GRAPHIC] [TIFF OMITTED] T1004.042

[GRAPHIC] [TIFF OMITTED] T1004.043

[GRAPHIC] [TIFF OMITTED] T1004.044

[GRAPHIC] [TIFF OMITTED] T1004.045

[GRAPHIC] [TIFF OMITTED] T1004.046

[GRAPHIC] [TIFF OMITTED] T1004.047

[GRAPHIC] [TIFF OMITTED] T1004.048

[GRAPHIC] [TIFF OMITTED] T1004.049

[GRAPHIC] [TIFF OMITTED] T1004.050

[GRAPHIC] [TIFF OMITTED] T1004.051

[GRAPHIC] [TIFF OMITTED] T1004.052

[GRAPHIC] [TIFF OMITTED] T1004.053

[GRAPHIC] [TIFF OMITTED] T1004.054

[GRAPHIC] [TIFF OMITTED] T1004.055

[GRAPHIC] [TIFF OMITTED] T1004.056

[GRAPHIC] [TIFF OMITTED] T1004.057

[GRAPHIC] [TIFF OMITTED] T1004.058

[GRAPHIC] [TIFF OMITTED] T1004.059

[GRAPHIC] [TIFF OMITTED] T1004.060

[GRAPHIC] [TIFF OMITTED] T1004.061

[GRAPHIC] [TIFF OMITTED] T1004.062

[GRAPHIC] [TIFF OMITTED] T1004.063

[GRAPHIC] [TIFF OMITTED] T1004.064

[GRAPHIC] [TIFF OMITTED] T1004.065

[GRAPHIC] [TIFF OMITTED] T1004.066

[GRAPHIC] [TIFF OMITTED] T1004.067

[GRAPHIC] [TIFF OMITTED] T1004.068

[GRAPHIC] [TIFF OMITTED] T1004.069

[GRAPHIC] [TIFF OMITTED] T1004.070

[GRAPHIC] [TIFF OMITTED] T1004.071

[GRAPHIC] [TIFF OMITTED] T1004.072

[GRAPHIC] [TIFF OMITTED] T1004.073

[GRAPHIC] [TIFF OMITTED] T1004.074

[GRAPHIC] [TIFF OMITTED] T1004.075

[GRAPHIC] [TIFF OMITTED] T1004.076

[GRAPHIC] [TIFF OMITTED] T1004.077

[GRAPHIC] [TIFF OMITTED] T1004.078

[GRAPHIC] [TIFF OMITTED] T1004.079

[GRAPHIC] [TIFF OMITTED] T1004.080

[GRAPHIC] [TIFF OMITTED] T1004.081

[GRAPHIC] [TIFF OMITTED] T1004.082

[GRAPHIC] [TIFF OMITTED] T1004.083

[GRAPHIC] [TIFF OMITTED] T1004.084

[GRAPHIC] [TIFF OMITTED] T1004.085

[GRAPHIC] [TIFF OMITTED] T1004.086

[GRAPHIC] [TIFF OMITTED] T1004.087

[GRAPHIC] [TIFF OMITTED] T1004.088

[GRAPHIC] [TIFF OMITTED] T1004.089

[GRAPHIC] [TIFF OMITTED] T1004.090

[GRAPHIC] [TIFF OMITTED] T1004.091

[GRAPHIC] [TIFF OMITTED] T1004.092

[GRAPHIC] [TIFF OMITTED] T1004.093

[GRAPHIC] [TIFF OMITTED] T1004.094

[GRAPHIC] [TIFF OMITTED] T1004.095

[GRAPHIC] [TIFF OMITTED] T1004.096

[GRAPHIC] [TIFF OMITTED] T1004.097

[GRAPHIC] [TIFF OMITTED] T1004.098

[GRAPHIC] [TIFF OMITTED] T1004.099

[GRAPHIC] [TIFF OMITTED] T1004.100

[GRAPHIC] [TIFF OMITTED] T1004.101

[GRAPHIC] [TIFF OMITTED] T1004.102

[GRAPHIC] [TIFF OMITTED] T1004.103

[GRAPHIC] [TIFF OMITTED] T1004.104

[GRAPHIC] [TIFF OMITTED] T1004.105

[GRAPHIC] [TIFF OMITTED] T1004.106

[GRAPHIC] [TIFF OMITTED] T1004.107

[GRAPHIC] [TIFF OMITTED] T1004.108

[GRAPHIC] [TIFF OMITTED] T1004.109

[GRAPHIC] [TIFF OMITTED] T1004.110

[GRAPHIC] [TIFF OMITTED] T1004.111

[GRAPHIC] [TIFF OMITTED] T1004.112

[GRAPHIC] [TIFF OMITTED] T1004.113

[GRAPHIC] [TIFF OMITTED] T1004.114

[GRAPHIC] [TIFF OMITTED] T1004.115

[GRAPHIC] [TIFF OMITTED] T1004.116

[GRAPHIC] [TIFF OMITTED] T1004.117

[GRAPHIC] [TIFF OMITTED] T1004.118

[GRAPHIC] [TIFF OMITTED] T1004.119

[GRAPHIC] [TIFF OMITTED] T1004.120

[GRAPHIC] [TIFF OMITTED] T1004.121

[GRAPHIC] [TIFF OMITTED] T1004.122

[GRAPHIC] [TIFF OMITTED] T1004.123

[GRAPHIC] [TIFF OMITTED] T1004.124

[GRAPHIC] [TIFF OMITTED] T1004.125

[GRAPHIC] [TIFF OMITTED] T1004.126

[GRAPHIC] [TIFF OMITTED] T1004.127

[GRAPHIC] [TIFF OMITTED] T1004.128

[GRAPHIC] [TIFF OMITTED] T1004.129

[GRAPHIC] [TIFF OMITTED] T1004.130

[GRAPHIC] [TIFF OMITTED] T1004.131

[GRAPHIC] [TIFF OMITTED] T1004.132

[GRAPHIC] [TIFF OMITTED] T1004.133


</pre></body></html>
